<html>
<title> - EMERGING CYBER THREATS TO THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                       EMERGING CYBER THREATS TO 
                           THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                        PROTECTION, AND SECURITY
                              TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2016

                               __________

                           Serial No. 114-55

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-527 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                    John Ratcliffe, Texas, Chairman
Peter T. King, New York              Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             Loretta Sanchez, California
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Curt Clawson, Florida                James R. Langevin, Rhode Island
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Brett DeWitt, Subcommittee Staff Director
                   John Dickhaus, Subcommittee Clerk
       Christopher Schepis, Minority Subcommittee Staff Director
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Prepared Statement.............................................    47
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    49
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Frank J. Cilluffo, Associate Vice President and Director, 
  Center for Cyber and Homeland Security, The George Washington 
  University:
  Oral Statement.................................................    10
  Prepared Statement.............................................    13
Ms. Jennifer Kolde, Lead Technical Director, FireEye Threat 
  Intelligence:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. Adam Bromwich, Vice President, Security Technology and 
  Response, Symantec, Testifying on Behalf of the Cyber Threat 
  Alliance:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Isaac R. Porche, III, Associate Director, Forces and 
  Logistics Program, The Rand Army Research Division, The Rand 
  Company:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37

                             For the Record

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Statement of Tom Patterson, VP/GM Security, Unisys Corporation.    50
  Letter From the Society for Maintenance & Reliability 
    Professionals................................................    51
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, ConsumerAffairs.......................................    55
  Article, Slate Magazine........................................    57
 
                       EMERGING CYBER THREATS TO 
                           THE UNITED STATES

                              ----------                              


                      Thursday, February 25, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:06 p.m., in 
Room 311, Cannon House Office Building, Hon. John Ratcliffe 
[Chairman of the subcommittee] presiding.
    Present: Representatives Ratcliffe, McCaul, Marino, 
Donovan, Richmond, and Jackson Lee.
    Mr. Ratcliffe. Good afternoon. The Committee on Homeland 
Security Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies will come to order.
    The subcommittee is meeting today to examine the evolving 
cybersecurity threats from nation-states such as China, Russia, 
North Korea, and Iran, as well as cyber threats from criminal 
organizations and terrorist groups such as ISIS.
    Over the last several years, we have seen these actors 
continue to develop and build even more sophisticated cyber 
capabilities. In 2016, these hackers pose an even greater 
threat to the U.S. homeland and our critical infrastructure. To 
put it simply, cybersecurity is National security.
    In 2015, the Nation was victim to one of the most 
significant cyber attacks in our history. The breach at the 
Office of Personnel Management exposed the personal and 
extremely sensitive security clearance information of 21.5 
million current and former Government employees. In 2014, we 
saw North Korea conduct a cyber attack on Sony Pictures that 
not only destroyed computers, but also sought to muzzle free 
speech and threaten American ideals.
    Unfortunately, the administration's lack of proportional 
responses to these cyber attacks has demonstrated to the world 
that there are no real consequences for such actions. Without a 
comprehensive National cybersecurity strategy that addresses 
deterrence effectively, I worry that 20l6 could bring an 
increasing number of those willing to push the boundaries.
    In recent news, a lot of attention was directed at the 
Hollywood Presbyterian Medical Center in Los Angeles that was a 
victim of a ransomware attack. This type of malware infects 
victims' computers and locks them until a payment, or a 
``ransom,'' is made. The medical center was forced to pay 
$17,000 to restore its systems.
    But this isn't a problem unique to Hollywood. In my own 
district in Northeast Texas, the Titus Regional Medical Center 
suffered a similar attack. Their electronic health record 
system was locked, and they weren't able to access patient 
information.
    Of the nation states, Russia continues to rank near the top 
in terms of capabilities, with increasing aggression across the 
globe that may continue to manifest itself in cyber space. The 
director of national intelligence, James Clapper, told the 
Senate Armed Services Committee in September that the Russian 
government is establishing its own central cyber command that 
will be responsible for carrying out offensive cyber 
operations.
    China also ranks high in terms of capability, and it 
continues to pose a significant threat to the United States in 
terms of cyber espionage and the theft of intellectual 
property. In September, the administration announced an 
agreement with the Chinese government to refrain from engaging 
in hacking of our intellectual property. I look forward to 
hearing today from our industry witnesses on their thoughts 
about the success of this agreement.
    Iran continues to emerge as a top cybersecurity threat, as 
well. While many would argue that its intent to carry out its 
attacks is strong, it still lags behind other nation-states in 
terms of capabilities. However, the administration's recent 
nuclear agreement with Iran could have unintended consequences 
in cyber space, as the lifting of economic sanctions could 
provide the influx of cash to fuel the development of 
cybersecurity capabilities.
    Criminal organizations continue to pose a great risk to the 
American people, as we have seen with breaches at places like 
Target and Home Depot, which exposed the credit card 
information of millions of people. While the intent of criminal 
groups may be different from nation-states, the impact on 
everyday Americans is felt very directly.
    Last, terrorist groups such as ISIS may currently lack the 
capability to pose a major cybersecurity threat to the United 
States. But given the vast resources this group has amassed, 
developing or purchasing sophisticated cyber tools is not far 
out of reach. ISIS followers and the so-called Cyber Caliphate 
have had success in hacking social media accounts of our 
military personnel and posting home addresses and other 
personal information on-line, asking followers to carry out 
attacks.
    In late 2015, Congress, recognizing these threats, enacted 
the Cybersecurity Act of 2015. The act establishes the 
Department of Homeland Security National Cybersecurity and 
Communications Integration Center, or NCCIC, as the sole 
civilian interface for sharing cyber threat information with 
the Federal Government. The act establishes liability 
protections for companies to share information with DHS and 
among themselves.
    In light of this legislation, we hope that the private 
sector will share more with each other and with the Government, 
and we look forward to hearing from our witnesses today on what 
they are doing to increase information sharing.
    In response to the devastating attack on OPM, the act 
bolsters DHS's ability to deploy intrusion detection and 
prevention capabilities across our Federal Government. These 
capabilities will ensure the proper capabilities to defend 
Government networks from nation-state attacks.
    Unfortunately, cyber threat actors--be they nation states, 
criminal groups, or terrorist organizations--remain undeterred, 
continuing to conduct cyber attacks. The problem is compounded 
by the lack of acceptable norms in cyber space, and I have 
questions on whether or not the administration's lack of 
response to these attacks has deterred or even emboldened our 
adversaries.
    The President recently announced a Cybersecurity National 
Action Plan. Whether this is too little too late, and the 
clarity of the overall guidance behind the plan, remains to be 
seen as we watch the most meaningful part of any grand plan--
its execution. In this day and age, there is agreement that the 
battle for security of our information systems is continually 
escalating. The testimony today will help inform what actions 
Congress can take to further the interests of our National 
security.
    [The statement of Mr. Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
                           February 25, 2016
    The subcommittee is meeting today to examine the evolving 
cybersecurity threats from nation-states such as China, Russia, North 
Korea, and Iran, as well as cyber threats from criminal organizations 
and terrorist groups such as ISIS. Over the last several years we have 
seen these actors continue to develop and build even more sophisticated 
cyber capabilities. In 2016, these hackers pose an even greater threat 
to the U.S. homeland and our critical infrastructure. To put it simply, 
cybersecurity is National security.
    In 2015, the Nation was victim to one of the most significant cyber 
attacks in history. The breach at the Office of Personnel Management 
exposed the personal and extremely sensitive security clearance 
information of 21.5 million current and former Government employees. In 
2014, we saw North Korea conduct a cyber attack on Sony Pictures that 
not only destroyed computers, but also sought to muzzle free speech and 
threaten American ideals.
    Unfortunately, the administration's lack of proportional responses 
to these cyber attacks has demonstrated to the world that there are no 
real consequences for such actions. Without a comprehensive National 
cybersecurity strategy that addresses deterrence effectively, I worry 
that 20l6 could bring an increasing number of those willing to push the 
boundaries.
    In recent news, a lot of attention was directed at the Hollywood 
Presbyterian Medical Center in Los Angeles that was a victim of a 
ransomware attack. This type of malware infects victims' computers and 
locks them until a payment, or a ``ransom,'' is made. The medical 
center was forced to pay $17,000 to restore its systems. But this isn't 
unique to Hollywood. In my own district in Northeast Texas, the Titus 
Regional Medical Center suffered a similar attack. Their electronic 
health record system was locked and they weren't able to access patient 
information.
    Of the nation-state threats, Russia continues to rank near the top 
in terms of capabilities, with increasing aggression across the globe 
that may continue to manifest itself in cyber space. The Director of 
National Intelligence, James Clapper, told the Senate Armed Services 
Committee in September that the Russian government is establishing its 
own central cyber command that will be responsible for carrying out 
offensive cyber operations.
    China also ranks high in terms of capability and continues to pose 
a significant threat to the United States in terms of cyber espionage 
and theft of intellectual property. In September, the administration 
announced an agreement with the Chinese government to refrain from 
engaging in hacking of intellectual property. I look forward to hearing 
today from our industry witnesses today on their thoughts about the 
success of this agreement.
    Iran continues to emerge as a top cybersecurity threat. While many 
would argue that its intent to carry out attacks is strong, it still 
lags behind other nation-states in capabilities. However, the 
administration's recent nuclear agreement with Iran could have 
unintended consequences in cyber space, as the lifting of economic 
sanctions could provide influx of cash to fuel the development of 
cybersecurity capabilities.
    Criminal organizations continue to pose a great risk to the 
American people, as we have seen with the breaches of Target and Home 
Depot, which exposed the credit card information of millions of people. 
While the intent of criminal groups may be different from nation-
states, the impact on everyday Americans is felt very directly.
    Lastly, terrorist groups such as ISIS may currently lack the 
capability to pose a major cybersecurity threat to United States. But 
given the vast resources the group has amassed, developing or 
purchasing sophisticated cyber tools is not far out of reach. ISIS 
followers and the so-called Cyber Caliphate have had success in hacking 
social media accounts of military personnel and posting home addresses 
and other personal information on-line asking followers to carry out 
attacks.
    In late 2015, Congress--recognizing these threats--enacted the 
Cybersecurity Act of 2015. The Act establishes the Department of 
Homeland Security, National Cybersecurity and Communications 
Integration Center (NCCIC) as the sole civilian interface for sharing 
of cyber threat information with the Federal Government. The Act 
establishes liability protections for companies to share information 
with DHS, and among themselves. In light of this legislation, we hope 
the private sector will share more with each other and the Government, 
and we look forward to hearing from our witnesses on what they are 
doing to increase information sharing.
    In response to the devastating attack on OPM, the Act bolsters 
DHS's ability to deploy intrusion detection and prevention capabilities 
across the Federal Government. These capabilities will ensure the 
proper capabilities to defend Government networks from these nation-
state attacks.
    Unfortunately, cyber threat actors--be they nation states, criminal 
groups, or terrorist organizations--remain undeterred, continuing to 
conduct cyber attacks. This problem is compounded by the lack of 
acceptable norms in cyber space and I have questions on whether or not 
the administration's lack of response to these attacks has deterred or 
emboldened our adversaries. The President recently announced a 
Cybersecurity National Action Plan. Whether this is too little too 
late, and the clarity of the overall guidance behind the plan, remains 
to be seen as we watch the most meaningful part of any grand plan: The 
execution. In this day in age, there is agreement that the battle for 
the security of our information systems is continually escalating. The 
testimony today will help inform what actions Congress can take to 
further the interests of our National security.

    Mr. Ratcliffe. The Chair now recognizes the Ranking 
Minority Member of the subcommittee, the gentleman from 
Louisiana, Mr. Richmond, for his opening statement.
    Mr. Richmond. Thank you, Mr. Chairman, and thank you for 
holding this hearing today on information security threats and 
how we manage cyber threat intelligence, areas that are central 
to our subcommittee's oversight responsibilities.
    I also want to thank our witnesses for their participation 
in today's hearing, and especially welcome Dr. Porche from 
Baton Rouge, Louisiana, for being with us today.
    The Department of Homeland Security plays a fundamental 
role in the National effort to increase our collective 
cybersecurity, but it cannot achieve its mission without a 
foundation of voluntary partnerships with the critical 
infrastructure community. The information security industry and 
our Government are partners.
    The privately-owned critical infrastructures that are 
everywhere in my district, including ports, energy and pipeline 
networks, chemical manufacturers, and refineries, ship and 
supply goods and raw materials to all parts of our country and 
are vital to the jobs and economic well-being of my part of the 
world.
    When the cyber information security and network systems 
fail for these kind of sites, whether from a natural disaster 
or a man-made intrusion, everyone feels it. It is the National 
interest to safeguard such critical infrastructure and to make 
sure that there are adequate protections from cyber and 
information and data interruptions.
    This subcommittee has oversight responsibilities for the 
Department's US-CERT and ICS-CERT teams that provide the 
foundation of the U.S. Government's approach to securing and 
safeguarding the resilience of civilian cyber and critical 
infrastructure essential services.
    It will be necessary for this subcommittee to continue to 
do all we can to help DHS develop a workable National cyber 
protection strategy and framework for critical infrastructure 
entities and small and large businesses in order to protect our 
economy.
    After this subcommittee and full committee passed important 
information-sharing legislation last year, the legislation 
found its way to the President's desk, where he signed the 
Cybersecurity Information-Sharing Act, or CISA, on December 18, 
2015.
    Today I hope to hear from our witnesses how the Department 
is doing with its new information-sharing authorities and 
challenges and how cyber and information-sharing security 
industries are expanding their collaboration with the 
Department as a result of that legislation.
    It will be important to know how cybersecurity companies 
can continue to collaborate with the Department to help US-CERT 
and ICS-CERT serve as the center of our National integration, 
information sharing and collaborative analysis for domestic and 
global cyber threat intelligence.
    Finally, I hope to find out from our witnesses how we can 
help further the ability of DHS's National Cybersecurity and 
Communications Integration Center, or NCCIC, to receive and 
analyze information at machine speed, an analysis component of 
getting a leg up on the ever-changing landscape and world-wide 
cyber threat intelligence.
    So I look forward to today's hearing. Mr. Chairman, with 
that, I yield back.
    [The statement of Mr. Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                           February 25, 2016
    The Department of Homeland Security plays a fundamental role in the 
National effort to increase our collective cybersecurity, but it cannot 
achieve its mission without a foundation of voluntary partnerships with 
the critical infrastructure community, the information security 
industry, and our Government partners.
    The privately-owned critical infrastructures that are everywhere in 
my district, including--ports, energy and pipeline networks, chemical 
manufacturers, and refineries--ship and supply goods and raw materials 
to all parts of our country, and are vital to the jobs and economic 
well-being of my part of the world.
    When the cyber information security and network systems fail for 
these kinds of sites, whether from a natural disaster or a man-made 
intrusion, everyone feels it. It is in the National interest to 
safeguard such critical infrastructure, and to make sure there are 
adequate protections from cyber and information and data interruptions.
    This subcommittee has oversight responsibilities for the 
Department's US-CERT and ICS-CERT teams that provide the foundation of 
the U.S. Government's approach to securing and safeguarding the 
resilience of civilian cyber, and critical infrastructure essential 
services. It will be necessary for this subcommittee to continue to do 
all we can to help DHS develop a workable, National cyber protection 
strategy and framework for critical infrastructure entities, and small 
and large businesses, in order to protect our economy.
    After this subcommittee and full committee passed important 
information-sharing legislation last year, that legislation found its 
way to the President's desk where he signed the Cybersecurity 
Information Sharing Act, or CISA, on December 18, 2015.
    Today I hope to hear from our witnesses how the Department is doing 
with its new information-sharing authorities and challenges, and how 
cyber and information security industries are expanding their 
collaboration with the Department as a result of the legislation.
    It will be important to know how cybersecurity companies can 
continue to collaborate with the Department to help US-CERT and ICS-
CERT serve as the center of our National integration, information 
sharing, and collaborative analysis, for domestic and global cyber 
threat intelligence.
    Finally, I hope to find out from our witnesses how we can help 
further the ability of the DHS's National Cybersecurity and 
Communications Integration Center, or NCCIC, to receive and analyze 
information at machine speed--an essential component of getting a leg-
up on the ever-changing landscape of world-wide cyber threat 
intelligence.

    Mr. Ratcliffe. I thank the gentleman. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    [The statement of Honorable Sheila Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                           February 25, 2016
    Chairman Ratcliff and Ranking Member Richmond thank you for your 
bipartisan leadership in holding today's hearing on ``Emerging Cyber 
Threats to the United States.''
    There are critical cybersecurity issues that our Nation must face 
to ensure the protection of critical infrastructure and vital computer 
communication networks.
    I thank today's witnesses who will provide their expert opinion on 
the issue of cybersecurity and critical infrastructure:
  <bullet> Mr. Frank Cilluffo, associate vice president & director, 
        Center for Cyber and Homeland Security, The George Washington 
        University.
  <bullet> Ms. Jennifer Kolde, lead technical director, FireEye Threat 
        Intelligence.
  <bullet> Mr. Adam Bromwich, vice president, Symantec Security 
        Technology and Response. Representing the Cyber Threat 
        Alliance.
  <bullet> Dr. Isaac Porche, senior engineer at the RAND Corporation, 
        and associate director of the Forces and Logistics Program for 
        the RAND Army Research Division.
    Last year, this committee and Congress acted in a bipartisan manner 
to pass critical cybersecurity legislation that enhanced the ability of 
the Department of Homeland Security to work with the private sector and 
other Federal civilian departments on cyber threat information sharing 
capabilities. Enactment of these bills represents a significant moment 
for the Department's cybersecurity mission.
    I supported this effort by offering several amendments that were 
adopted by the full committee for inclusion in the cybersecurity 
legislation we passed.
    This committee in particular undertook significant efforts to bring 
the bills to passage, and on December 18, 2015, President Obama signed 
into law the Cybersecurity Information Sharing Act of 2015 (CISA).
    The work the Homeland Security did and particularly the leadership 
of this subcommittee is designed to increase cybersecurity information 
sharing between the private sector and the Federal Government.
    Among other things, it provides various protections to non-Federal 
entities that share cyber threat indicators or defensive measures with 
the Federal Government.
    I am a strong believer in legislative due process for addressing 
the most complex issues of the digital communication age.
    Vulnerabilities in computing products are the chief method used by 
data thieves or terrorist to breach computing systems.
    Since 2005 to the present, the Privacy Rights Clearinghouse, 
reports that 895,886,345 records have been breached.
    The entities and their customers who have fallen victim to data 
breaches range in size from small businesses to major corporations and 
Federal Government agencies, such as:
  <bullet> The IRS--101,000--the agency block payments to data thieves 
        who used stolen identity information from elsewhere to generate 
        pins using stolen Social Security Numbers (date reported 2/10/
        2016)
  <bullet> Scottrade lost over 4 million records (October 1, 2015)
  <bullet> Excellus Blue Cross Blue Shield lost over 10 million patient 
        records (September 10, 2015)
  <bullet> Office of Personnel Management (OPM) lost over 21.5 million 
        Government employee or former employee records (June 4, 2015)
    Most reports include no details on the number of records breached 
or stolen.
    There is no law that requires companies to report breaches, but 
there are laws that require reports to consumers when their personal 
information may have been lost or stolen.
    The security of Nation's critical infrastructure is critical to our 
prosperity and the American way of life.
    Critical infrastructure in the form of our Nation's electric 
utility grid, water treatment facilities, energy refining and delivery 
systems; financial system; and much more needs strong cybersecurity to 
protect against threats.
    Cybersecurity threats from the earliest days of the modern 
computing age.
    Microsoft in order to protect their computing products from 
cybersecurity threats began to routinely release of updates to their 
software products on what has become known as ``Patch Tuesdays.''
    Identifying and closing vulnerabilities in software and firmware IS 
one important means of securing systems from threats.
    The link between commercially-available computing devices and our 
Nation's critical infrastructure lies in the role of products in 
ensuring the proper maintenance and operation of critical 
infrastructure.
                        ransomware and criminals
    The latest threat from cyber criminals is ransomware.
    Criminals find vulnerabilities in a computer or computing network 
and use it to introduce an encryption application that locks the data 
so the owner or user of a computer system cannot access it until a 
ransom is paid to criminals who then unlock the data.
    There are now ransomware encryption tools that encrypt data that 
cannot be unencrypted not even by the thieves.
    If criminals find a way into a computer or computer network they 
will exploit that vulnerability.
    Portable computing devices like iPads, iPhones, and laptops are 
used every day to access, perform tasks, and maintain critical 
infrastructure.
    The security of physical space, such as our Nation's critical 
infrastructure, is about to inherit many of the security 
vulnerabilities that plague cyber space; because of the introduction of 
the Internet of Things (IoT).
    The threats posed to computing devices include viruses; worms; 
Trojan horses; botnet creation, capture, and exploitation; pharming; 
phishing; denial-of-service attacks; and ransomware threats intended to 
undermine the proper functioning of physical security that incorporates 
or relies upon computing devices.
    There are a range of threats presented by unintended actions by 
insiders that include introducing devices into the work IoT environment 
that carry exploitable vulnerabilities that could be seized upon by 
opportunistic applications or technology that probe the environment for 
stray information to collect and report back to cloud services or 
networks hosted by data and financial thieves.
    Physical security in era of IoT environments will present 
challenges because of the number, diversity, and fluidity of digital 
technology that will traverse physical spaces.
    Another challenge will be the speed that devices will change; the 
ability or willingness of manufacturers or providers to update software 
on every type of IoT device and to what degree remote actor (such as 
criminals, nation/states, or intellectual property thieves) may be able 
to explore potential vulnerabilities in larger, more complex systems by 
using very simple IoT-enabled technology.
    Businesses large and small will adopt IoT technology without 
hesitation because of the tremendous opportunities for cost savings.
    Lowering electricity bills based on actual usage; smart light bulbs 
that reduce output or completely turn off when sensors in a space 
indicate that it is unoccupied; employee credentials that not only act 
as a time clock, but a location service while employees are at work; 
and sensors that regulate the function of everything from water coolers 
to elevators base on a ``just in time delivery'' of only what is needed 
and exactly when it is needed.
    Innovation will move at unprecedented pace, as new physical designs 
for everyday consumables will be changed to work as a node in the IoT.
    The same light bulb from the same manufacturer will now have a 
wireless interface that allows it to send and receive wireless 
communications.
    The same is true for the fleet of vehicles large and small that are 
used by employees on or off the campuses of companies or organizations.
    In this fast-paced environment, one of the important protections 
for digital communications may not be available either through design 
or due to the limited capacity of the IoT device.
    Password protection may be unavailable for many passive IoT 
wireless devices and this may further challenge physical security.
    Exploitation of weaknesses found in the poor, or inefficient design 
of software or IoT device security may facilitate broader discussions 
about its implications for physical vulnerabilities and security 
threats.
    The IoT appears to be about to project the power of computing into 
physical space without much consideration for the totality of the 
vulnerabilities and threats that may be imposed on once controlled and 
secure environments.
    There will be no barriers within the IoT that will preserve 
physical security of businesses, government, or personal spaces unless 
they are created through broad voluntary adoption of standards that 
work both in theory and practice to address real-world challenges to 
physical security, privacy, or confidentiality.
Why should the security and privacy of IoT technology matter to 
        physical security?
    Physical security relies upon control over who or what can enter or 
exit a defined area or space.
    The challenge to physical security posed by the IoT is a lack of 
security over the wireless communication signals and/or devices that 
may enter or exit a space.
    The following are incidents that foreshadow some of the challenges 
to physical security in a world dominated by the IoT.
    Security professionals responsible for facilities that rely on 
industrial control systems should be aware of new paths that may be 
used to access networks to cause disruptions to threats posed by cyber 
attacks that can result in physical damage to equipment.
A light bulb exploit
    In 2014, it was reported that a LiFX system of wifi remote-
controlled light bulb designed to work with a smart phone had security 
vulnerability.
    Sensors on light bulbs designed to operate in conjunction with a 
smart phone offered an opportunity for a breach of other systems.
    The problem was discovered in the software application that 
translates commands from a device's operating system, in this case the 
command to a light bulb to turn on or off.
    The request from the computer to turn on or off the light bulb also 
asked for any additional information that might be stored in its IoT 
components which allowed for insecure code to be downloaded onto the 
computing network.
IoT enabled intercom systems (baby monitoring technology)
    In September 2015, 2 years after the first cybersecurity warning 
regarding the security vulnerability of baby monitoring technology, it 
was reported that 9 baby monitor models for top manufacturers remain 
vulnerable to hacking.
    There are documented cases of monitors being breached, allowing 
unauthorized voice communication from hackers over the communication 
system, and external access to video live feeds from baby's rooms.
    This issue is relevant, because many properties or facilities for 
critical infrastructure will use if not already widely using automated 
systems to monitor locations.
    Compromise of physical security monitoring systems could be used to 
prevent detection of physical threats to critical infrastructure.
Physical security of vehicles is in question
    In 2015, researchers gained remote access to a Jeep Cherokee and 
took control of physical functions such as climate control, windshield 
wipers, and the sound-system.
    They could even turn off the engine while the vehicle was in 
motion. Automobile manufacturers, not just of the Jeep Cherokee, 
understood that the computing systems of their vehicles could be 
compromised and took action to close the cybersecurity risk that had 
consequences for the physical security of their vehicles and the safety 
of their customers.
    I held a staff briefing to bring this issue to the attention of the 
House and key Committees.
Physical security of industrial control systems
    In 2010, Stuxnet--roughly 500 kilobytes of code--became known to 
computer security experts in the United States who identified it as a 
hybrid computer-worm designed to destroy physical equipment.
    According to a September 2010 Symantic report, there were 100,000 
Stuxnet-infected computers world-wide.
    Stuxnet moved from system to system through connected and 
unconnected computing technology using the Microsoft Windows Operating 
System.
    If a machine was not connected to a network, sticking a USB drive 
into an infected machine, then into the uninfected machine was 
sufficient for Stuxnet to spread. Once Stuxnet is inside of a machine 
or network, it replicates itself.
    In 2012, the United States Government started to warn of a ``Cyber 
Pearl Harbor.''
    Stuxnet is not limited to harming the function of gas centrifuges 
used to enrich uranium, but can damage or destroy machines or equipment 
controlled by industrial control systems used for a range of non-
military purposes.
    The capacity of Stuxnet to destroy equipment or make it unusable 
poses a threat to physical security.
    Another cyber threat is the Flame worm, which appears to have been 
introduced through an update to Microsoft's Windows 7 operating system, 
which is phenomenal because to get Windows Operating system to accept 
an update it has to authenticate that the request source of the update 
is coming from the company.
    Stuxnet or Flame worms can be altered to attack a wide range of 
industrial control systems or critical infrastructure.
    Stuxnet-derived worm code could be written to damage water 
treatment and delivery systems, electricity delivery systems, 
industrial control systems used by food processors, ports operations, 
or automobile assembly lines.
    Laying the ground work for seeking out vulnerabilities to exploit 
and therefore to defend, Hungarian researchers in September 2011 
uncovered ``Duqu'' a program that was designed to steal data regarding 
industrial control systems.
What will be the IoT physical security challenges of complex 
        operations?
    The security of deep-water and container ports have been wedded 
from their earliest beginnings because cargo was personal wealth and 
nationstate commerce.
    The volume of activity at deep-water and container ports made 
innovation and computing necessary for automation of facilities to 
management port functions.
    However, no one system manages everything that happens at deep-
water and container ports. Arrivals and departures may be managed by 
one system; loading and offloading by another entity; container 
management by another provider; employee access by another system, and 
private companies may track their cargo using proprietary systems.
    The number, type, and severity of cyber threats experienced by 
ports, service providers, or port customers are unknown.
    The preference is not to report incidents and to payor absorb costs 
resulting from breaches or thefts.
    The other reasons for underreporting is likely that companies and 
ports are unaware that their cybersecurity has been breached.
    An October 15, 2014, report by CyberKeel entitled, ``Maritime 
Cyber-Risks'', reported on financial thefts; alteration of carrier 
information regarding cargo location; barcode scanners use as hacking 
devices (a variation of the light bulb vulnerability described above); 
targeting of shipbuilding and maritime operations; cyber-enabled large 
drug-smuggling operations; compromising of Australian Custom and Border 
protection; spoofing a vessel Automated Identification System (AIS); 
drilling rig cyber attack; vessel navigation control hack; GPS jamming; 
vulnerabilities in the Electronic Chart Display and Information System; 
and a Danish Maritime Authority breach.
Deletion of carrier information
    In August 2011, an incident of deletion of carrier information 
regarding the location of cargo occurred against the Islamic Republic 
of Iran Shipping Lines. The attack damaged all the data related to 
cargo ship contents, which meant that no one knew where any containers 
were or the status of containers--off-loaded, picked up, or still on 
board ships. The data was eventually recovered, but the disruption in 
operation of the business was significant.
Barcode scanner hacking tool
    The attack was named ``Zombie Zero'' and involved malware hidden in 
the software for barcode scanners of at least 8 different companies.
    The malware activated when the barcode readers were connected to 
company networks. When connected, the malware launched a series of 
automated attacks searching for the location of the financial server.
    Upon location of the financial server, the malware would compromise 
the target server to be taken over.
Australian customs exploit
    A cyber-crime organization breached the cargo system of Australian 
Customs and Border Protection, which allowed criminals to verify that 
their shipping containers were viewed as suspicious by the police or 
customs authorities.
    This allowed criminals to abandon contraband that would result in 
arrests or confiscation and focus on what they knew would be released 
without difficulty.
Drilling rig cyber attack
    In 2010, while a drilling rig was being moved from the construction 
site in South Korea toward South America, its critical control systems 
were infected by malware that shut it down for 19 days to fix the 
problem.
    A similar attack on a rig reported off the coast of Africa caused 
it to be shut down for a week.
    These are some of the critical cybersecurity threats facing 
critical infrastructure.
    I look forward to the testimony of today's witnesses.
    Thank you.

    Mr. Ratcliffe. We are pleased to have a distinguished panel 
of witnesses before us today on this very important topic. 
Joining us, our first witness is Mr. Frank Cilluffo, who is the 
associate vice president and director of the George Washington 
University Center for Cyber and Homeland Security. Welcome, Mr. 
Cilluffo.
    Also with us is Ms. Jennifer Kolde. She is the lead 
technical director for FireEye Threat Intelligence. Thanks for 
being here today.
    Mr. Adam Bromwich is the vice president for security 
technology and response at Symantec and is also representing 
the cyber threat alliance. Welcome, Mr. Bromwich.
    Finally, last but not least, Dr. Isaac Porche--did I say 
that correctly--is the associate director of the Forces and 
Logistics Program within Army Research Division of the RAND 
Corporation. Welcome, Doctor.
    I would now ask the witnesses all to stand and raise your 
right hand, and I will swear you in to give your testimony.
    [Witnesses sworn.]
    Let the record reflect that the witnesses have all answered 
in the affirmative. The witnesses' full written statements will 
appear in the record. The Chair now recognizes Mr. Cilluffo for 
his opening statement.

 STATEMENT OF FRANK J. CILLUFFO, ASSOCIATE VICE PRESIDENT AND 
 DIRECTOR, CENTER FOR CYBER AND HOMELAND SECURITY, THE GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Cilluffo. Chairman Ratcliffe, Ranking Member Richmond, 
Congressmen Marino and Donovan, thank you for the opportunity 
to testify before you today.
    Mr. Chairman, I think you did an amazing job framing the 
issues here, so I will try to be even more brief, which is not 
my strong suit, since I have never had an unspoken thought, but 
I will try to hit on a couple points that weren't addressed.
    I mean, obviously today the United States faces a dizzying 
array of cyber threats from many and varied actors. Virtually 
every day, there is a new incident in the headlines, and the 
initiative clearly remains with the attacker. As you mentioned, 
Mr. Chairman, last week, it was Hollywood Presbyterian.
    Also last week, there was some news of a manipulation, a 
Russian hack that took place about a year ago where they were 
able to manipulate the U.S. dollar and ruble exchange rate. 
Even more disconcerting was the December 2015 cyber attack on 
Ukraine's electric grid, which affected 4 dozen substations and 
left a quarter million people without power.
    At the same time as the attack on the grid itself, call 
centers were hit with a telephony denial-of-service attack as 
customers were trying to report the outages. So if anyone 
thought this was a glitch, think again.
    U.S. critical infrastructure, notably lifeline sectors such 
as energy and electricity, telecommunications, transportation, 
water, and financial services from banks to exchanges and 
clearinghouses are in the crosshairs and are primary targets 
for cyber attacks and cyber crimes. Our National security, 
public safety, economic competitiveness, and personal privacy 
are at risk.
    The threat tempo is magnified by the speed at which 
technologies continue to evolve and by the fact that our 
adversaries continue to adapt their tactics, techniques, and 
procedures in order to evade and defeat the latest prevention 
and response measures.
    While breaches to date have largely exemplified data theft 
and destruction, a concerning trend looking ahead will be data 
manipulation. A few words on the threat itself, and I hope 
there will be some time during Q&A to expand.
    First, not all hacks are the same, nor are all hackers the 
same. The threat comes in various shapes, sizes, and forms, 
ranging from nation-states at the high end of the threat 
spectrum to foreign terrorist organizations, criminal 
enterprises, and hacktivists. Just as diverse as the threat 
actors themselves are the intentions, capabilities, and TTPs, 
or tactics, techniques, and procedures, and the tools they 
ultimately utilize.
    Put another way, nearly every form of conflict today and 
tomorrow will have a cyber dimension to it. Whereas 
technologies will continue to evolve and change, human nature 
remains pretty consistent. If it happens in the physical world, 
it is happening in the cyber world, and increasingly you are 
seeing those two worlds converge, especially with the advent of 
the Internet of Things and Internet of Everything.
    A couple of quick top-line words on the threat actors. As I 
just mentioned, nation-state and their proxies continue to 
present the greatest and most advanced and persistent threat in 
the cyber domain. My testimony will focus on 4 key actors, all 
of which, Mr. Chairman, you identified. But it is important to 
keep in mind the broader context.
    Every country that has a modern military and intelligence 
service also has a computer network attack capability. Topping 
the list are countries that are integrating computer network 
attack and computer network exploit into their warfighting 
strategy and doctrine. The most sophisticated actors are 
obviously Russia and China.
    Nation-states often use proxies to conceal their 
involvement. In turn, there are different grades of proxies. 
They may be state-sanctioned, state-sponsored, or state-
supported. While improvements have been made in terms of 
attribution, we are by no means at the place where we hope and 
need to be.
    Both China and Russia are known to use proxies to do their 
bidding, largely to provide plausible deniability. After these 
2 countries come Iran and North Korea. While as you mentioned, 
Mr. Chairman, they are not up to par with Russia and China in 
terms of their capability, they are investing very heavily in 
their computer network attack capabilities. What they may lack 
in capability, unfortunately, they make up for in intent.
    Moreover, having fewer constraints, then you are starting 
to see more concern that they are turned to attack, not just 
espionage, and this is evidenced by the 2013 DDOS attacks on 
the U.S. banks, by the Sands Casino attack, by the Saudi Aramco 
and Qatari RasGas attacks, just to name a few, and North 
Korea's attacks on South Korean banks, energy companies, and, 
of course, Sony.
    Next up were foreign terrorist organizations. They 
certainly possess the motivation and intent, but fortunately 
they do not have the same level of capability that nations do, 
in terms of cyber means. But the recent doxing attacks and 
tactics used against U.S. military and law enforcement is 
troubling and indicative of an emerging threat.
    It is likely that ISIS or their sympathizers will 
increasingly turn to disruptive cyber attacks. What 
capabilities they don't possess they can simply buy or rent, as 
cyber weapons are readily available and accessible in the deep 
web and dark net. Think cyber drive-by shootings--they may not 
have a sustained capability, but they can have a disruptive 
capability.
    By contrast, criminal organizations and criminal 
enterprises possess substantial capabilities, but obviously 
their motivation and intent differs from terrorists. They don't 
want to bring attention to their cause. They are in it for 
what? They are in it for money, so by and large they are going 
to be the most quiet and subtle actors in the cyber domain.
    However, it is disconcerting when you look at some of the 
trends where criminal enterprises are working increasingly with 
nation-states, notably Russia.
    In closing, while I recognize the focus of the hearing is 
on cyber threats, I do want to say a couple words on 
recommendations going forward. From the standpoint of critical 
infrastructure, a sustained campaign of cyber attacks hold the 
potential to undermine trust and confidence in the system 
itself, irrespective of the perpetrator.
    How many companies, even the largest, went into business 
thinking they were defending themselves against foreign 
intelligence services? That is precisely what is happening 
today, companies taking on nations or being exploited by 
nations.
    We need to impose costs for bad cyber behavior on those who 
are currently acting with impunity. This demands articulating 
and more importantly demonstrating a cyber deterrence strategy. 
Second, cyber crime is the only crime I know of where we blame 
the victim. Yes, companies can do and must do more to shore up 
their cybersecurity, but the current approach or business as 
usual is doomed for failure, as it is completely reactive.
    If you think about it, every time we get hit or breached, 
it is the equivalent of calling a locksmith, not a police 
officer, the locksmith. We can't simply react and continue to 
build higher walls or bigger locks.
    Moving forward, in connection with this last point, the 
U.S. Government must give companies who now find themselves at 
the tip of the spear, the framework, parameters, and tools that 
they need in order to engage in active defense to protect 
themselves and their customers.
    Thank you, Mr. Chairman, and sorry for going a little over.
    [The prepared statement of Mr. Cilluffo follows:]
                Prepared Statement of Frank J. Cilluffo
                           February 25, 2016
    Chairman Ratcliffe, Ranking Member Richmond, and distinguished 
subcommittee Members, thank you for this opportunity to testify before 
you today. The United States currently faces an almost dizzying array 
of cyber threats from many and varied actors. Virtually every day there 
is a new incident in the headlines and the initiative clearly remains 
with the attacker. Critical infrastructure, such as the U.S. financial 
services sector, is in the crosshairs as a primary target; but our 
banks are not alone--``lifeline'' sectors such as energy & electricity, 
telecommunications, transportation, and water are similarly situated. 
According to the Department of Homeland Security, cyber attacks on U.S. 
industrial control systems rose 20 percent last year as compared to the 
year before, with the energy sector among those hardest hit.\1\ Just 
days ago, hackers took a Los Angeles hospital off-line, demanding 
ransom in bitcoins to restore systems and operations.\2\ And no one is 
immune from digital targeting of crucial infrastructure: earlier this 
month for instance, it was reported that hackers ``used malware to 
infiltrate a Russian regional bank and manipulate the ruble-dollar 
exchange rate by more than 15 percent in minutes.''\3\
---------------------------------------------------------------------------
    \1\ U.S. Department of Homeland Security, ICS CERT Monitor, 
November/December 2015. https://ics-cert.us-cert.gov/sites/default/
files/Monitors/ICS-CERT%20Monitor_Nov-Dec2015- _S508C.pdf.
    \2\ Brian Barrett, ``Hack Brief: Hackers Are Holding an L.A. 
Hospital's Computers Hostage,'' Wired, Feb. 2, 2016. http://
www.wired.com/2016/02/hack-brief-hackers-are-holding-an-la-hospitals-
computers-hostage/.
    \3\ Katie Bo Williams, ``Report: Hackers use Malware to Manipulate 
Russian Currency Value,'' The Hill, Feb. 8, 2016. http://thehill.com/
policy/cybersecurity/268588-report-hackers-use-malware-to-manipulate-
russian-currency-value.
---------------------------------------------------------------------------
    The threat tempo is magnified by the speed at which technologies 
continue to evolve and by the fact that our adversaries continue to 
adapt their tactics, techniques and procedures in order to evade and 
defeat our prevention and response measures. While breaches to date 
have largely exemplified data theft, the next step that hostile actors 
take may go further--such as data manipulation. Just imagine the havoc 
that a creative adversary could wreak this way, by changing our most 
sensitive and private information, with everything from medical records 
to stock exchanges potentially at risk. Against this background, a 
strong detection and mitigation program is just as necessary as a 
strong defense. While it is important to continue to invest in 
technologies and procedures to prevent attacks, the reality is that 
nobody can prevent all attacks; but significant steps can be taken to 
minimize the impact and consequences of an attack. This posture, one of 
substantial resilience, must also extend to our partners in the private 
sector, which own and operate 85 percent of U.S. critical 
infrastructure.
    At the National level, the challenge is to understand as best we 
can the threat as it manifests in so many different incarnations; and 
to prioritize it so that our limited resources for preventing and 
containing the challenge are directed as efficiently and effectively as 
possible. This includes supporting the private sector which now finds 
itself on the front lines, so as to allow U.S. businesses to engage in 
active defense of their ``crown jewels''--from trade secrets to R&D-
related intellectual property and so on.
    Taking a global perspective on cyber threats, the bottom line up 
front is as follows:
  <bullet> The threat spectrum includes a wide array of actors with 
        different intentions, motivations, and capabilities.
  <bullet> Nation-states and their proxies continue to present the 
        greatest--meaning most advanced and persistent--threat in the 
        cyber domain. This testimony will focus on four key threat 
        actors, but it is important to keep in mind the broader 
        context: every country that has a modern military and 
        intelligence service also has a computer network attack 
        capability.\4\ Importantly, nation-states vary in terms of both 
        their capability and intent, with some being more willing to 
        exercise their cyber capabilities than others.
---------------------------------------------------------------------------
    \4\ Over 100 governments have stood up military entities to engage 
in cyber warfare, according to Peter Singer and Allan Friedman 
(``Cybersecurity and Cyberwar: What Everyone Needs to Know,'' Oxford 
University Press, Jan. 3, 2014). The Wall Street Journal recently 
reported that ``29 countries have formal military or intelligence units 
dedicated to offensive hacking,'' out of 60 that are developing tools 
for computer-enabled espionage or attacks (Damian Paletta, Danny 
Yadron, and Jennifer Valentino-Devries, ``Cyberwar Ignites a New Arms 
Race,'' Wall Street Journal, Oct. 11, 2015). Discrepancies in these 
numbers are due to varying definitions of cyber warfare units, but the 
underlying point that there are a number of cyber-capable state actors 
is clear.
---------------------------------------------------------------------------
  <bullet> Nation-states often use proxies to conceal state 
        involvement. In turn, there are different grades of proxies: 
        They may be state-sanctioned, state-sponsored, or state-
        supported.
  <bullet> Foreign terrorist organizations certainly possess the 
        motivation and intent but fortunately, they have yet to fully 
        develop a sustained cyber attack capability. Recent ``doxing'' 
        tactics against U.S. military and law enforcement personnel by 
        the Islamic State in Iraq and Syria (ISIS) is troubling and 
        indicative of an emerging threat. It is likely that ISIS, or 
        their sympathizers, will increasingly turn to disruptive cyber 
        attacks.
  <bullet> By contrast, criminal organizations possess substantial 
        capabilities, but their motivation and intent differs from 
        terrorists. Rather than being motivated by ideology or 
        political concerns, criminal organizations are driven by the 
        profit motive. However criminals are increasingly working with 
        or for nation-states such as Russia; and this convergence of 
        forces heightens the dangers posed by both groups.
  <bullet> Yet other entities such as ``hacktivists'' may also possess 
        considerable skills and abilities; and when their special 
        interests or core concerns are perceived to be in play, these 
        individuals can be a significant disruptive force whether 
        acting alone or loosely in tandem, essentially as a leaderless 
        movement. Their motive is often to cause maximum embarrassment 
        to their targets and to bring attention to their cause.
  <bullet> Regardless of actor, there are many different modalities of 
        attack. Tactics, techniques, and procedures include malware, 
        exploitation of zero-day vulnerabilities, distributed denial-
        of-service (DDoS) attacks, and the use of botnets. Data may be 
        stolen or manipulated. The use of ransomware and crypto-
        ransomware is also on the rise: Hospitals, police departments, 
        and schools have been hit. For a good overview of these trends, 
        see Symantec's 2015 Internet Security Threat Report.\5\
---------------------------------------------------------------------------
    \5\ ``Internet Security Threat Report, Volume 20,'' Symantec, April 
2015.
---------------------------------------------------------------------------
  <bullet> In reference to any threat vector, a worst-case scenario 
        would combine kinetic and cyber attacks; and the cyber 
        component would serve as a force multiplier to increase the 
        lethality or impact of the physical attack.
  <bullet> The insider threat also cuts across vectors and can 
        materialize within any actor, from the nation-state on down.
  <bullet> Finally, critical infrastructure such as U.S. banks and the 
        energy sector (oil & gas) are primary targets for cyber attacks 
        and cyber crimes. A concerted campaign against these crucial 
        infrastructures holds the potential to undermine trust and 
        confidence in the system itself, irrespective of the 
        perpetrator. Below the various categories of actors are 
        examined in greater detail in terms of the nature of the threat 
        they pose and how they function.
                             nation-states
    The most advanced and persistent cyber threats to the United States 
today remain nation-states and their proxies, and in particular China 
and Russia. In addition, Iran has increased its cyber capabilities 
exponentially in recent years. And with the hack of Sony Corporation--
which made use of more than half a dozen exploits lest the target be 
patched against one or more of these vulnerabilities, North Korea too 
has demonstrated itself to be a significant adversary.
    Against the growing abilities of these key threat actors for ``on-
line espionage, disinformation, theft, propaganda, and data-
destruction,''\6\ the Director of National Intelligence James Clapper 
recently observed (during the annual world-wide threat assessment 
offered to Congress earlier this month) that, ``improving offensive 
tradecraft, the use of proxies, and the creation of cover organizations 
will hinder timely, high-confidence attribution of responsibility for 
state-sponsored cyber operations.''\7\ This is significant because the 
harder it is to attribute activity, the harder it is to deter and 
punish the perpetrator.
---------------------------------------------------------------------------
    \6\ Spencer Ackerman and Sam Thielman, ``US Intelligence Chief: We 
Might Use the Internet of Things to Spy on You,'' The Guardian, Feb. 9, 
2016. http://www.theguardian.com/technology/2016/feb/09/internet-of-
things-smart-home-devices-government-surveillance-james-clapper.
    \7\ James R. Clapper, Director of National Intelligence, Statement 
for the Record, ``Worldwide Threat Assessment of the U.S. Intelligence 
Community,'' Senate Armed Services Committee, Feb. 9, 2016.
---------------------------------------------------------------------------
How do these actors function?
    Our adversaries have engaged in brazen activity, from computer 
network exploitation (CNE) to computer network attack (CNA). CNE 
includes traditional, economic, and industrial espionage, as well as 
intelligence preparation of the battlefield (IPB)--such as surveillance 
and reconnaissance of attack targets, and the mapping of critical 
infrastructures for potential future targeting in a strategic campaign. 
In turn, CNA encompasses activities that alter (disrupt, destroy, etc.) 
the targeted data/information. The line between CNE and CNA is thin, 
however: If one can exploit, one can also attack if the intent exists 
to do so.
    Foreign militaries are, increasingly, integrating CNE and CNA 
capabilities into their warfighting and military planning and doctrine, 
as well as their grand strategy. These efforts may allow our 
adversaries to enhance their own weapon systems and platforms, as well 
as stymie those of others. Moreover, CNAs may occur simultaneously with 
other forms of attack (kinetic, insider threats, etc.).
    Our adversaries are also interweaving the cyber domain into the 
activities of their foreign intelligence services, to include 
intelligence derived from human sources (HUMINT).
    This said our adversaries are certainly not all of a piece. Rather, 
nation-states may differ from one another, or from their proxies, in 
their motivation and intent. Tradecraft and its application may also 
differ widely. From a U.S. perspective, the challenge is to parse our 
understanding of key actors and their particular behaviors, factoring 
details about each threat vector into a tailored U.S. response that is 
designed to dissuade, deter, and compel.\8\
---------------------------------------------------------------------------
    \8\ Frank J. Cilluffo and Rhea D. Siers, ``Cyber Deterrence is a 
Strategic Imperative,'' Wall Street Journal, Apr. 28, 2015. http://
blogs.wsj.com/cio/2015/04/28/cyber-deterrence-is-a-strategic-
imperative/.
---------------------------------------------------------------------------
China
    China possesses sophisticated cyber capabilities and has 
demonstrated a striking level of perseverance, evidenced by the sheer 
number of attacks and acts of espionage that the country commits. 
Reports of the Office of the U.S. National Counterintelligence 
Executive have called out China and its cyber espionage, characterizing 
these activities as rising to the level of strategic threat to the U.S. 
National interest.\9\
---------------------------------------------------------------------------
    \9\ Foreign Spies Stealing U.S. Economic Secrets in Cyberspace, 
Report to Congress on Foreign Economic Collection and Industrial 
Espionage, 2009-2011, Oct. 2011. http://www.ncix.gov/publications/
reports/fecie_all/Foreign_Economic_Collection_2011.pdf.
---------------------------------------------------------------------------
    The U.S.-China Economic and Security Review Commission notes 
further: ``Computer network operations have become fundamental to the 
PLA's strategic campaign goals for seizing information dominance early 
in a military operation.''\10\
---------------------------------------------------------------------------
    \10\ http://www.uscc.gov/RFP/2012/
USCC%20Report_Chinese_CapabilitiesforComputer_- 
NetworkOperationsandCyberEspionage.pdf.
---------------------------------------------------------------------------
    China's aggressive collection efforts appear to be intended to 
amass data and secrets (military, commercial/proprietary, etc.) that 
will support and further the country's economic growth, scientific, and 
technological capacities, military power, etc.--all with an eye to 
securing strategic advantage in relation to (perceived or actual) 
competitor countries and adversaries.
    In May 2015, data theft on a massive scale, affecting virtually all 
U.S. Government employees, was traced back to China. Whether the hack 
was state-sponsored, state-supported, or simply tolerated through a 
blind eye by the government of China, is not yet clear. But military 
officers in China are increasingly known to moonlight as hackers for 
hire when off the clock; and countries are increasingly turning to 
proxies do their bidding in order to provide plausible deniability.\11\ 
The extent to which China may benefit from the massive data breach such 
as by using the information to blackmail and recruit Americans thus 
remains to be seen.
---------------------------------------------------------------------------
    \11\ Sharon L. Cardash and Frank J. Cilluffo, ``Massive Government 
Employee Data Theft Further Complicates US-China Relations,'' The 
Conversation, June 8, 2015. https://theconversation.com/massive-
government-employee-data-theft-further-complicates-us-china-relations-
42941; and Kelly Jackson Higgins, ``State-Owned Chinese Firms Hired 
Military hackers for IT Services,'' Dark Reading, May 21, 2014. http://
www.darkreading.com/attacks-breaches/state-owned-chinese-firms-hired-
military-hackers-for-it-services/d/d-id/1269102.
---------------------------------------------------------------------------
    In September 2015, China and the United States reached an agreement 
on refraining from conducting economic cyber-espionage. Earlier this 
month, DNI Clapper noted that there is evidence of ``limited on-going 
cyber activity from China'', but as yet it has not been confirmed to be 
state-sponsored. Mean time however, China appears to be giving 
``security and intelligence agencies a larger role in helping Beijing 
hack foreign companies.''\12\
---------------------------------------------------------------------------
    \12\ Jack Detsch, ``Report: China Bolsters State Hacking Powers,'' 
Christian Science Monitor--Passcode, Feb. 4, 2016. http://
www.csmonitor.com/World/Passcode/2016/0204/Report-China-bolsters-state-
hacking-powers.
---------------------------------------------------------------------------
Russia
    Russia's cyber capabilities are, arguably, even more sophisticated 
than those of China, and Russia has been particularly adept at 
integrating cyber into its strategic plans and operations.\13\ The 
Office of the U.S. National Counterintelligence Executive (NCIX) 
observes: ``Moscow's highly capable intelligence services are using 
HUMINT, cyber, and other operations to collect economic information and 
technology to support Russia's economic development and security. 
Russia's extensive attacks on U.S. research and development have 
resulted in Russia being deemed (along with China), ``a national long-
term strategic threat to the United States,'' by the NCIX.\14\ Also 
concerning, Russia and China recently signed a cybersecurity agreement 
pursuant to which they pledge not to hack one another and to share both 
information and technology.\15\
---------------------------------------------------------------------------
    \13\ Jason Wirtz, ``Cyber War and Strategic Culture: The Russian 
Integration of Cyber Power into Grand Strategy,'' NATO Cooperative 
Cyber Defence Center of Excellence, 2015.
    \14\ http://www.ncix.gov/publications/reports/fecie_all/
Foreign_Economic_Collection_20- 11.pdf.
    \15\ Cory Bennett, ``Russia, China Unite with Major Cyber Pact,'' 
The Hill, May 8, 2015. http://thehill.com/policy/cybersecurity/241453-
russia-china-unit-with-major-cyber-pact.
---------------------------------------------------------------------------
    In 2009, the Wall Street Journal reported that cyber spies from 
Russia and China had penetrated the U.S. electrical grid, leaving 
behind software programs. The intruders did not cause damage to U.S. 
infrastructure, but sought to navigate the systems and their controls. 
Was this reconnaissance or an act of aggression? What purpose could the 
mapping of critical U.S. infrastructure serve, other than intelligence 
preparation of the battlefield? The NASDAQ exchange, too, has allegedly 
been the target of a ``complex hack'' by a nation-state. Again, one 
questions the motivation.\16\
---------------------------------------------------------------------------
    \16\ http://www.bloomberg.com/bw/articles/2014-07-17/how-russian-
hackers-stole-the-nasdaq.
---------------------------------------------------------------------------
    More recently, Russian hackers believed to be doing their 
government's bidding breached the White House, the State Department, 
and the Defense Department.\17\ Similar forces were also poised to 
cyber-attack U.S. banks against the backdrop of economic sanctions 
levied against Russia for its repeated and brazen incursions into 
Ukraine.\18\
---------------------------------------------------------------------------
    \17\ Evan Perez and Shimon Prokupecz, ``How the U.S. Thinks 
Russians Hacked the White House,'' CNN, Apr. 8, 2015, http://
www.cnn.com/2015/04/07/politics/how-russians-hacked-the-wh/; and Cory 
Bennett, ``Defense chief: Russian goals in Pentagon hack `not clear','' 
The Hill, May 15, 2015, http://thehill.com/policy/cybersecurity/242213-
pentagon-head-russian-goals-not-clear-in-dod-hack.
    \18\ Cory Bennett, ``Russian Hacking Group was Set to hit U.S. 
Banks,'' The Hill, May 13, 2015 http://thehill.com/policy/rsecurity/
241965-russian-hacking-group-was-set-to-hit-us-banks; and ``APT28: A 
Window into Russia's Cyber Espionage Operations?'' FireEye, October 27, 
2015 https://www.fireeye.com/blog/threat-research/2014/10/apt28-a-
window-into-russias-cyber-espionage-operations.html; and Frank J. 
Cilluffo and Sharon L. Cardash, ``How to Stop Putin Hacking the White 
House,'' Newsweek, April 13, 2015, http://www.newsweek.com/how-stop-
putin-hacking-white-house-321857; and http://www.cnbc.com/id/102025262.
---------------------------------------------------------------------------
    Russia has also engaged in cyber operations against Ukraine (2014/
15), Georgia (2008), and Estonia (2007); in the first 2 instances 
combining them with kinetic operations. Notably, in December 2015, 
western Ukraine experienced a power outage that is believed to have 
been caused by cyber attack perpetrated by Russia. Though one power 
company reported the incident, ``similar malware was found in the 
networks of at least 2 other utilities.''\19\ More than 4 dozen 
substations were affected, as were more than a quarter of a million 
customers for up to 6 hours. In addition, a simultaneous attack on call 
centers (a telephony denial of service attack) hindered communication 
and customer reporting of difficulties. The case is truly significant: 
It is believed to represent the first time that a blackout was caused 
by computer network attack.
---------------------------------------------------------------------------
    \19\ Eric Auchard and Jim Finkle, ``Experts: Ukraine Utility 
Cyberattack Wider than Reported,'' Reuters, January 4, 2016. http://
m.voanews.com/a/reu-experts-ukraine-utility-cyberattack-wider-than-
reported/3131554.html.
---------------------------------------------------------------------------
    Over time, Russia's history has also demonstrated a toxic blend of 
crime, business, and politics--and there are few, if any, signs that 
things are changing today. To the contrary, a convergence between the 
Russian intelligence community and cyber criminals has been observed as 
relations between Russia and the West have deteriorated as the conflict 
over Ukraine has unfolded.\20\ Evidence of the complicity between the 
Russian government and its cyber criminals and hackers became even 
starker when the Russian Foreign Ministry issued ``a public notice 
advising `citizens to refrain from traveling abroad, especially to 
countries that have signed agreements with the U.S. on mutual 
extradition, if there is reasonable suspicion that U.S. law enforcement 
agencies' have a case pending against them.''\21\
---------------------------------------------------------------------------
    \20\ John Leyden, ``Ukraine Conflict Spilling Over into Cyber-
crime, Warns Former Spy Boss,'' The Register, April 16, 2015. http://
www.theregister.co.uk/2015/04/16/cyber_war_key- note_infiltrate/.
    \21\ Kevin Poulsen, ``Russia Issues International Travel Advisory 
to its Hackers,'' Wired, September 3, 2013. http://www.wired.com/2013/
09/dont-leave-home/.
---------------------------------------------------------------------------
    Notably the DNI stated to Congress this month that Russia is 
``assuming a more assertive cyber posture based on its willingness to 
target critical infrastructure systems and conduct espionage operations 
even when detected.''\22\ It has also been reported that Russia's 
Defense Ministry is standing up a cyber command which will ``be 
responsible for conducting offensive cyber activities, including 
propaganda operations and inserting malware into enemy command and 
control systems.''\23\
---------------------------------------------------------------------------
    \22\ James R. Clapper, Director of National Intelligence, 
``Worldwide Threat Assessment of the US Intelligence Community,'' 
Statement for the Record before the U.S. Senate, Armed Services 
Committee, February 9, 2016. http://www.dni.gov/files/documents/
SASC_Unclassified_- 2016_ATA_SFR_FINAL.pdf.
    \23\ James R. Clapper, Director of National Intelligence, 
``Worldwide Cyber Threats,'' Statement for the Record before The U.S. 
House of Representatives, Permanent Select Committee on Intelligence, 
September 10, 2015. http://docs.house.gov/meetings/IG/IG00/20150910/
103797/HHRG-114-IG00-Wstate-ClapperJ-20150910.PDF.
---------------------------------------------------------------------------
Iran
    Iran has invested heavily in recent years to deepen and expand its 
cyber warfare capacity. Under President Rouhani, the country's 
cybersecurity budget has increased ``twelve-fold''; and the country may 
now be considered ``a top-five world cyber power.''\24\
---------------------------------------------------------------------------
    \24\ Cory Bennett, ``Iran has Boosted Cyber Spending Twelvefold,'' 
The Hill, March 23, 2015. http://thehill.com/policy/cybersecurity/
236627-iranian-leader-has-boosted-cyber-spending-12-fold.
---------------------------------------------------------------------------
    This concerted effort and the associated rapid rise through the 
ranks comes in the wake of the Stuxnet worm, which targeted Iran's 
nuclear weapons development program. How the recently concluded 
international agreement on containing that program will affect Iran's 
behavior in the cyber domain over the long run remains to be seen--
although early reports indicate that Iran ``has ramped up its cyber 
espionage, targeting . . . the emails and social media accounts of 
State Department officials whose work is related to Iran and the Middle 
East.''\25\ Another important but open question is whether and how 
recent reports that the United States had formulated plans to disable 
Iran's nuclear program by cyber means, in the event that nuclear 
negotiations failed and military conflict ensued, may affect Iran's 
cyber-behavior moving forward.\26\
---------------------------------------------------------------------------
    \25\ Cory Bennett, ``Iran Launches Cyber Offensive after Nuclear 
Deal,'' The Hill, November 24, 2015. http://thehill.com/policy/
cybersecurity/261190-iran-switches-to-cyber-espionage-after-nuclear-
deal.
    \26\ David Sanger and Mark Mazetti, ``U.S. Had Cyberattack Plan if 
Iran Nuclear Dispute Led to Conflict,'' The New York Times, February 
16, 2016. http://.nytimes.com/2016/02/17/world/middleeast/us-had-
cyberattack-planned-if-iran-nuclear-negotiations-
failed.html?smid=nytcore-iphone-share&smprod=nytcore-iphone.
---------------------------------------------------------------------------
    We also know that Iran has engaged in a concerted cyber campaign 
against U.S. banks.\27\ In January 2013, the Wall Street Journal 
reported \28\ on ``an intensifying Iranian campaign of cyber attacks 
[thought to have begun months earlier] against American financial 
institutions'' including Bank of America, PNC Financial Services Group, 
Sun Trust Banks Inc., and BB&T Corp. Six leading U.S. banks--including 
J.P. Morgan Chase--were targeted in ``the most disruptive'' wave of 
this campaign, characterized by DDoS attacks. The Izz ad-Din al-Qassam 
Cyber Fighters claim responsibility for all of these incidents.
---------------------------------------------------------------------------
    \27\ Shane Harris, ``Forget China: Iran's Hackers are America's 
Newest Cyber Threat,'' Foreign Policy, February 18, 2014. http://
foreignpolicy.com/2014/02/18/forget-china-irans-hackers-are-americas-
newest-cyber-threat/.
    \28\ Siobhan Gorman and Danny Yadron, ``Banks Seek U.S. Help on 
Iran Cyberattacks,'' The Wall Street Journal, January 16, 2013. http://
www.wsj.com/articles/SB10001424127- 887324734904578244302923178548.
---------------------------------------------------------------------------
    U.S. officials also believe Iran to be responsible for a cyber 
attack against the Sands Casino in Las Vegas owned by politically 
active billionaire Sheldon Adelson. The incident appears to be a first: 
``a foreign player simply sought to destroy American corporate 
infrastructure on such a scale . . . PCs and servers were shut . . . 
down in a cascading IT catastrophe, with many of their hard drives 
wiped clean.''\29\
---------------------------------------------------------------------------
    \29\ Ben Elgin and Michael Riley, ``Now at the Sands Casino: An 
Iranian hacker in Every Server,'' Bloomberg Business, December 11, 
2015. http://www.bloomberg.com/bw/articles/2014-12-11/iranian-hackers-
hit-sheldon-adelsons-sands-casino-in-las-vegas.
---------------------------------------------------------------------------
    Iran has also long relied on proxies such as Hezbollah--which now 
has a companion organization called Cyber Hezbollah--to strike at 
perceived adversaries. Iran and Hezbollah are suspected in connection 
with the August 2012 cyber attacks on the state-owned oil company Saudi 
Aramco and on Qatari producer RasGas, which resulted in the compromise 
of approximately 30,000 computers.\30\
---------------------------------------------------------------------------
    \30\ Kim Zetter, ``The NSA Acknowledges What we all Feared: Iran 
Learns from US Cyberattacks,'' Wired, February 10, 2015. http://
www.wired.com/2015/02/nsa-acknowledges-feared-iran-learns-us-
cyberattacks/.
---------------------------------------------------------------------------
    In addition, elements of Iran's Revolutionary Guard Corps (IRGC) 
have also openly sought to pull hackers into the fold, including the 
political/criminal hacker group Ashiyane; and the Basij, who are paid 
to do cyber work on behalf of the regime.\31\
---------------------------------------------------------------------------
    \31\ Frank J. Cilluffo, ``The Iranian Cyber Threat to the United 
States,'' Testimony before the U.S. House of Representatives, Committee 
on Homeland Security, Subcommittee on Counterterrorism and Intelligence 
and Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies, April 26, 2012. http://cchs.gwu.edu/sites/
cchs.gwu.edu/files/downloads/Testimony_Cilluffo_April_26_2012.pdf.
---------------------------------------------------------------------------
North Korea (DPRK)
    As perhaps the world's most isolated state-actor in the 
international system, North Korea operates under fewer constraints. For 
this reason, the country poses an important ``wildcard'' threat, not 
only to the United States but also to the region and to broader 
international stability.
    South Korea's Defense Ministry estimates that North Korea possesses 
a force of ``about 6,000 cyber agents.''\32\ A frequent DPRK target, 
South Korea has attributed a series of cyber attacks--upon its Hydro & 
Nuclear Power Company (2014) and upon its banks and broadcasting 
companies (2013), for example--to North Korea.\33\
---------------------------------------------------------------------------
    \32\ Leo Byrne, ``N. Korean Hacking Threat Leads to Blue House 
Cyber-security Office,'' NK News, March 31, 2015. http://
www.nknews.org/2015/03/n-korean-hacking-threat-leads-to-blue-house-
cyber-security-office/.
    \33\ Tae-jun Kang, ``South Korea Beefs up Cyber Security with an 
Eye on North Korea,'' The Diplomat, April 1, 2015. http://
thediplomat.com/2015/04/south-korea-beefs-up-cyber-security-with-an-
eye-on-north-korea/.
---------------------------------------------------------------------------
    From a U.S. standpoint, it is the North Korean attack on Sony 
Pictures Entertainment late last year that looms large: `` `There was 
disruption. There was destruction of data. There was an intent to hurt 
the company. And it succeeded, bringing a major U.S. entertainment 
company to its knees.''\34\
---------------------------------------------------------------------------
    \34\ James Lewis, ``The Attack on Sony,'' CBS News 60 Minutes, 
April 12, 2015. http://www.cbsnews.com/news/north-korean-cyberattack-
on-sony-60-minutes/.
---------------------------------------------------------------------------
    Where will the DPRK go from here? In the words of an Australian 
expert, ``There's growing concern amongst analysts, and government 
officials alike that North Korea has begun to rapidly accelerate its 
development of advanced offensive cyber capabilities'.''\35\ This 
concern is compounded by the fact that, potentially, ``cyber operations 
. . . could be integrated in the future with a military strategy 
designed to disrupt U.S. systems.''\36\
---------------------------------------------------------------------------
    \35\ Leo Byrne, ``N. Korean Hacking Threat Leads to Blue House 
Cyber-security Office,'' NK News, March 31, 2015. http://
www.nknews.org/2015/03/n-korean-hacking-threat-leads-to-blue-house-
cyber-security-office/.
    \36\ Harper Neidig, ``GOP Senator: North Korea Cyber Threat 
Growing,'' The Hill, October 7, 2015. http://thehill.com/policy/
cybersecurity/256274-gop-senator-north-korean-cyber-threat-growing.
---------------------------------------------------------------------------
    These developments are all the more disturbing when considered in 
tandem with the following trenchant question raised by one of my CCHS 
colleagues: `` `Given North Korea's proclivity to provide other 
destructive technologies and military assistance to rogue states and 
non-state actors, would the DPRK also assist them with destructive 
cyber capabilities'?''\37\
---------------------------------------------------------------------------
    \37\ Rhea Siers, ``North Korea: The Cyber Wild Card,'' Journal of 
Law & Cyber Warfare, 2014.
---------------------------------------------------------------------------
    In addition, reports that the United States targeted the DPRK's 
nuclear program with a version of Stuxnet, but without success, may--if 
true--further complicate the challenge posed by North Korea.\38\
---------------------------------------------------------------------------
    \38\ Joseph Menn, ``Exclusive: U.S. Tried Stuxnet-style Campaign 
Against North Korea but Failed--Sources,'' Reuters, May 29, 2015. 
http://www.reuters.com/article/2015/05/29/us-usa-northkorea-stuxnet-
idUSKBN0OE2DM20150529.
---------------------------------------------------------------------------
    On many levels, North Korea is both a troubling and unusual case. 
Ordinarily, it is organized crime that seeks to penetrate the state. In 
this case, however, it is the other way around--with the state trying 
to penetrate organized crime in order to ensure the survival of the 
regime/dynasty.
Foreign Terrorist Organizations
    To date, terrorist organizations have not demonstrated the advanced 
level of cyber attack capabilities that would be commensurate with 
these groups' stated ambitions. Undoubtedly, though, these 
organizations will persist in their efforts to augment their in-house 
cyber skills and capacities. Of particular concern are foreign 
terrorist organizations that benefit from state sponsorship and 
support, as well as the Islamic State in Iraq and Syria (ISIS/ISIL). 
Given ISIS' savvy use of social media and how it has built and 
maintained a sophisticated propaganda machine, it is likely that the 
group--and their sympathizers--will turn their efforts towards 
developing a more robust cyber attack capability.
    The current level of cyber expertise possessed by terrorist groups 
should bring us little comfort, however, because a range of proxies for 
indigenous cyber capability exist: There is an arms bazaar of cyber 
weapons, and our adversaries need only intent and cash to access it. 
Capabilities, malware, weapons, etc.--all can be bought or rented.\39\
---------------------------------------------------------------------------
    \39\ Frank Cilluffo, ``Cyber Threats from China, Russia, and Iran: 
Protecting American Critical Infrastructure,'' Testimony before the 
U.S. House of Representatives, Committee on Homeland Security 
Subcommittee on Cybersecurity, Infrastructure Protection, and Security 
Technologies, March 20, 2013. http://cchs.gwu.edu/sites/cchs.gwu.edu/
files/downloads/Testimony_- Cilluffo_March_20_2013.pdf.
---------------------------------------------------------------------------
    In terms of what we have seen recently, ISIS has invoked a new 
tactic against members of the U.S. military and law enforcement: 
``Doxing''--which involves gathering personal information from sources 
on-line and then publishing that data on-line, which puts the victim at 
risk of further attack in both the physical and virtual worlds.\40\ A 
prevalent theme in the drumbeat of ISIS propaganda videos has been 
repeated calls for ``lone wolf'' attacks against Western law 
enforcement and military personnel.
---------------------------------------------------------------------------
    \40\ Kate Knibbs, ``ISIS Has a New Terrorism Tactic: Doxing US 
Soldiers,'' Gizmodo, March 23, 2015. http://gizmodo.com/isis-has-a-new-
terrorism-tactic-doxing-us-soldiers-1693078782.
---------------------------------------------------------------------------
    Terrorist organizations also use the internet in a host of ways 
that serve to further their ends and put the United States and its 
allies, and the interests of both, in danger. By way of illustration, 
the internet helps terrorists plan and plot, radicalize and recruit, 
and train and fundraise. To help protect and facilitate these on-line 
activities, ISIS in particular has created ``a new technical `help 
desk' '' that unifies its various tech support efforts, including for 
encryption.\41\
---------------------------------------------------------------------------
    \41\ Cory Bennett, ``New ISIS `Help Desk' to Aid Hiding From 
Authorities,'' The Hill, February 10, 2016. http://thehill.com/policy/
cybersecurity/268940-new-isis-help-desk-unifies-encryption-support.
---------------------------------------------------------------------------
    As terrorist cyber capabilities grow more sophisticated, one 
especially concerning scenario would involve terrorist targeting of 
U.S. critical infrastructure, using a mix of kinetic and cyber attacks. 
In this scenario, the cyber component could serve as a force multiplier 
to increase the lethality or impact of the physical attack.
Criminal Organizations
    Cyber space has proven to be a gold mine for criminals, who have 
moved ever more deeply into the domain as opportunities to profit there 
continue to multiply. These criminal groups operate in layered 
organizations that share networks and tools. Despite reaping 30 cents 
on the dollar, there is a low chance that these criminals will be held 
accountable for their actions because they benefit from safe havens in 
Eastern Europe--which is, according to European Police Office (EUROPOL) 
Director Robert Wainwright, the source of 80 percent of all cyber 
crime.
    The illicit activities of criminal groups in the virtual world are 
typically associated with the ``Dark Web,'' a sub-set of the internet 
where the IP addresses of websites are concealed. Here, ``the sale of 
drugs, weapons, counterfeit documents and child pornography'' 
constitute ``vibrant industries.''\42\ Cyber criminals have also 
demonstrated substantial creativity, such as extortion schemes 
demanding payment via cryptocurrencies, such as Bitcoin. For example, 
most criminals demand payment for ``ransomware'' attacks (such as 
GameOver Zeus or CryptoLocker) to be made via cryptocurrencies, which 
are attractive to criminal organizations due to their anonymity or 
pseudonymity. Increasingly, more traditional organized crime groups, 
such as drug trafficking organizations, are also turning to virtual 
currencies for payment and to move their money in the black market.
---------------------------------------------------------------------------
    \42\ Andy Greenberg, ``Hacker Lexicon: What is the Dark Web?'' 
Wired, November 19, 2014. http://www.wired.com/2014/11/hacker-lexicon-
whats-dark-web/.
---------------------------------------------------------------------------
    According to EUROPOL whose focus is serious international organized 
crime, ``cyber crime has been expanding to affect virtually all other 
criminal activities'':

``The emergence of crime-as-a-service online has made cybercrime 
horizontal in nature, akin to activities such as money laundering or 
document fraud. The changing nature of cybercrime directly impacts on 
how other criminal activities, such as drug trafficking, the 
facilitation of illegal immigration, or the distribution of counterfeit 
goods are carried out . . . General trends for cybercrime suggest 
considerable increases in scope, sophistication, number and types of 
attacks, number of victims and economic damage . . . This allows 
traditional OCGs [organized criminal groups] to carry out more 
sophisticated crimes, buying access to the technical skills and 
expertise they require.''\43\
---------------------------------------------------------------------------
    \43\ ``Massive Changes in the Criminal Landscape,'' Europol, 2015; 
and ``Counterterrorism & Cybersecurity: Insights from Europol Director 
Rob Wainwright,'' Center for Cyber and Homeland Security, April 30, 
2014. https://www.europol.europa.eu/newsletter/massive-changes-
criminal-landscape; and http://cchs.gwu.edu/counterterrorism-
cybersecurity-insights-europol-director-rob-wainwright.

    Cyber criminals possess substantial cyber capabilities and, 
increasingly, are working with or for nation-states such as Russia. 
This convergence of forces heightens the dangers posed by both groups 
(e.g., criminal organizations and nation-states). And from a monetary 
standpoint alone, the amounts at stake are staggering. Consider: 
Russia's slice of the 2011 global cyber crime market has been pegged at 
$2.3 billion.\44\
---------------------------------------------------------------------------
    \44\ ``Leading Russian Security Firm Group-IB Releases 2011 Report 
on Russian Cybercrime,'' Group-IB, April 24, 2012. http://www.group-
ib.com/?view=article&id=705.
---------------------------------------------------------------------------
``Hacktivists'' and Other Entities
    Cyber space largely levels the playing field, allowing individuals 
and small groups to have disproportionate impact. While some 
``hacktivists'' may possess considerable abilities, the bar here is 
relatively low, and virtually anyone with a measure of skills and a 
special interest can cause harm.
    Though great sophistication may not be needed to achieve disruption 
and draw attention to a particular concern, individuals and entities in 
this category can be a significant force, whether acting alone or 
loosely in tandem, essentially as a leaderless movement.
U.S. Response Measures
    This varied threat landscape has a direct impact on a wide variety 
of cybersecurity policy questions facing the Congress and the Executive 
branch, including on current issues such as Federal spending on 
cybersecurity, the implementation of the new information-sharing law, 
Federal support for our critical infrastructure sectors, and the 
``going dark'' debate over encryption in our electronic devices. In the 
remainder of my testimony, I will briefly highlight 2 important cyber 
issues that the GW Center for Cyber & Homeland Security is currently 
focusing on: Deterrence and active defense.
    First, I will discuss deterrence. Having just racked and stacked 
the wide range of cyber threats that presently exist, and that may 
evolve and emerge in the future, the next step is to confront, contain, 
and thwart them by imposing significant costs on our adversaries for 
engaging in unacceptable behaviors.\45\ Unless our adversaries 
experience such consequences, there will be little incentive for them 
to cease the actions and attacks in question. Changing their incentive 
structure requires signaling to hostile actors that the United States 
is both capable and willing to play offense. In turn, this means being 
more transparent about U.S. abilities and demonstrating the will to 
invoke them as required.
---------------------------------------------------------------------------
    \45\ Frank Cilluffo and Rhea Siers, ``Cyber Deterrence is a 
Strategic Imperative,'' The Wall Street Journal, April 28, 2015; http:/
/blogs.wsj.com/cio/2015/04/28/cyber-deterrence-is-a-strategic-
imperative/; and https://cchs.gwu.edu/sites/cchs.gwu.edu/files/
downloads/INSS%20Blueprint%20for%20Cyber%20Deterrence.pdf.
---------------------------------------------------------------------------
    As things now stand however, our adversaries are acting largely 
without penalty and thus continue to transgress. Moreover when an 
incident occurs, our tendency is to blame the victim. This is a deeply 
flawed state of affairs that must be reversed. In fact, we should go 
further than simple reversal by working not only to deter our 
adversaries but to dissuade and compel them as well. Further 
elaborating U.S. policy and position in such a manner would be 
complementary to on-going U.S. and international efforts to enumerate 
and flesh out global norms of conduct for cyber space.
    The second crucial shortcoming in current U.S. strategy and posture 
regards active defense, meaning the use of proactive measures by U.S. 
companies to defend themselves and their most critical assets against 
sophisticated and determined cyber adversaries. These adversaries 
include nation-states and their proxies. Although America's business 
community never asked to face off against foreign intelligence and 
security services (or those who would do their bidding), this is the 
position in which our companies find themselves. Accordingly, at 
minimum it is the responsibility of the U.S. Government to delineate 
and offer our private-sector partners an operating framework--that 
provides the parameters and supports that they need--in order to engage 
in active defense. The Center has formed a task force to examine these 
issues that is co-chaired by Admiral Dennis Blair, Secretary Michael 
Chertoff, Nuala O'Connor of the Center for Democracy & Technology, and 
me. We will be releasing a major report addressing these questions 
later this year.\46\
---------------------------------------------------------------------------
    \46\ ``Center Announces New Project on Active Defense against Cyber 
Threats,'' GW Center for Cyber and Homeland Security, February 4, 2016. 
http://cchs.gwu.edu/center-announces-new-project-active-defense-
against-cyber-threats.
---------------------------------------------------------------------------
Concluding Thoughts
    Looking ahead, many crucial questions on the threat side remain 
open, including: Will the nuclear weapons agreement concluded with Iran 
curb or embolden Iranian cyber operations against the United States and 
its allies over the longer term? Will the December 2015 cyber attack on 
Ukraine's electric grid, that caused a power outage in the western 
portion of the country, become a more commonplace tactic? Will hackers 
engage increasingly in data manipulation, as distinct from data theft? 
Equally important will be the attack vectors that, for whatever reason, 
we fail to anticipate. While we cannot know in advance every threat 
that may lurk around every virtual corner, we can certainly take the 
steps necessary to maximize our ability to detect, prevent, protect, 
and respond. In some instances, it may be that our ability to bounce 
back--our resilience--proves to be a valuable deterrent to our 
adversaries. At present however, there is still much work to be done 
before we can say that we have done all that we can. That work will be 
all the more crucial to accomplish as the Internet of Things expands 
exponentially the potential attack surface and leads the cyber domain 
to converge ever-further with the physical world. Secure design, 
architected from the get-go, will be crucial to resilience.\47\
---------------------------------------------------------------------------
    \47\ Michael Papay, Frank Cilluffo, Sharon Cardash, ``Opinion: 
Fortifying the Internet of Things means baking in security at the 
beginning,'' The Christian Science Monitor, March 6, 2015. http://
www.csmonitor.com/World/Passcode/Passcode-Voices/2015/0306/Opinion-
Fortifying-the-Internet-of-Things-means-baking-in-security-at-the-
beginning.
---------------------------------------------------------------------------
    Thank you again for this opportunity to testify on this important 
topic.\48\ I look forward to trying to answer any questions that you 
may have.
---------------------------------------------------------------------------
    \48\ I would like to thank the Center's Associate Director Sharon 
Cardash for her help in drafting my prepared testimony.

    Mr. Ratcliffe. All right. Thank you, Mr. Cilluffo. The 
Chair now recognizes Ms. Kolde for 5 minutes for her opening 
statement.

STATEMENT OF JENNIFER KOLDE, LEAD TECHNICAL DIRECTOR, FIRE EYE 
                      THREAT INTELLIGENCE

    Ms. Kolde. Thank you, Mr. Chairman, Ranking Member 
Richmond, Congressman Marino, Congressman Donovan, thank you 
for the opportunity to speak with you today.
    FireEye has a unique position within the security field. We 
have broad visibility across the threat landscape through a 
global network of over 10 million sensors. We have deep insight 
into threat actor activity through our Mandiant consulting and 
instant response practice, and we combine this visibility with 
contextual analysis and intelligence through FireEye 
intelligence in our newly-acquired iSIGHT partners.
    I have personally spent nearly 20 years in the information-
sharing field in both the Government and private sector, 
including nearly 10 years using threat intelligence to identify 
and track sophisticated threat groups. I would like to describe 
the changing threat landscape as we see it.
    FireEye currently tracks several hundred threat groups, 
including nation-state sponsor groups, cyber criminals, and 
terrorists. Across all of these groups, malicious activity 
continues to evolve more quickly than the ability of the 
private sector to safeguard assets, including financial data, 
personal health information, and intellectual property.
    We continue to see operations from nation-state actors. 
This includes increased activities from countries such as 
Russia, whose actions have become both more public and more 
aggressive, as well as from Iran and North Korea, who while not 
as sophisticated have shown a willingness to engage in 
destructive attacks.
    We also see operations from China-based groups, though it 
is premature to speculate whether or not this activity 
contravenes the recent agreements restricting commercial cyber 
espionage. At a minimum, we assess that China will continue to 
engage in cyber operations for the purpose of traditional 
espionage.
    We also see cyber crime continue unabated. This includes 
well-known activity such as identity theft, financial fraud, 
and theft of payment card data.
    However, cyber criminals are becoming more creative in 
their methods. Examples include hacking companies for insider 
business information in order to gain an advantage in the U.S. 
stock market and using extortion against corporations, whether 
that is ransomware used to encrypt corporate data or 
threatening to expose sensitive corporate information if the 
criminals are not paid.
    We have directly observed very little activity that we 
would ascribe to cyber terrorists and their actions to date 
have largely been unsophisticated, such as defacements of 
websites and denial-of-service attacks. However, we assess that 
terrorist groups remain interested in cyber operations and 
recruiting individuals with advanced skills or insider access 
and could potentially carry out an impactful attack using only 
unsophisticated tools.
    We also see an increase in the sophistication of the tools 
and techniques used by some of the nation-state and criminal 
groups that we monitor. This includes tools that can evade 
traditional operating system security and security software or 
that reside only in computer memory and leave very few forensic 
traces.
    We also see increased efforts by the attackers to hide in 
plain sight so that hacker activity is indistinguishable from 
legitimate user behavior without using advanced detection 
methods.
    These trends are concerning. Threat groups of all types 
continue to believe that cyber operations offer an asymmetric 
advantage. That is, groups with otherwise limited resources can 
obtain high rewards with low risk. Challenges inherent to our 
ability to effectively investigate, analyze, attribute, and 
prosecute activity leads to the sense that these groups can 
operate with impunity.
    The challenges we face are many, and any solution to this 
complex problem must be multifaceted. I offer the following as 
essential, though not comprehensive, components to that 
solution.
    First the public and private sectors must share information 
about malicious activity in a trusted, timely, and automated 
manner. However, the information shared cannot consist solely 
of technical indicators, but must be enhanced with contextual 
data that will allow defenders to prioritize alerts and respond 
faster and more effectively with appropriate countermeasures.
    Second, we must understand that it is infeasible to secure 
networks or assets to prevent all possible attacks. 
Organizations must understand that real risks and advanced 
attacks will occur. We must proactively hunt for malicious 
activity that may have breached our defenses. We must be 
prepared to detect and respond to malicious activity across the 
entire attack life cycle.
    Finally, we must continue to make it more difficult for 
attackers to reach their objectives. This should not be 
achieved by implementing compliance-type check lists, but 
through a risk-based approach where organizations identify 
critical assets and implement appropriate countermeasures based 
on a real-world understanding of how attackers operate.
    By improving our defenses and the ability to quickly detect 
malicious activity, we may slow down attackers to give 
defenders more time to respond or, better yet, deter some 
opportunistic attackers all together.
    Mr. Chairman, thank you for the opportunity, and I look 
forward to your questions.
    [The prepared statement of Ms. Kolde follows:]
                  Prepared Statement of Jennifer Kolde
                           February 25, 2016
    Mr. Chairman, Ranking Member Richmond, and Members of the 
subcommittee, thank you for the opportunity to contribute to today's 
hearing. I am the lead technical director for threat intelligence at 
FireEye, a private company that provides software and services to 
detect and respond to digital intrusions. My testimony draws on our 
company's substantial experience remediating the most devastating 
breaches around the world by nation-state threat actors and cyber 
criminals and our advanced sensor network that protects our clients 
every day.
    I have spent nearly 20 years in the information technology and 
information security fields, in roles from systems administration to 
network security to computer forensics and incident investigation. My 
experience includes 5 years as a computer scientist with the Federal 
Bureau of Investigation in support of cyber National security 
investigations. Following my Government service, I joined Mandiant--
later acquired by FireEye--to help protect the private sector.
    FireEye learns about the threat landscape through a unique 
combination of sources and methods:
  <bullet> Our security consulting practice,
  <bullet> Our global network of more than 10 million sensors, and
  <bullet> A world-wide team of intelligence analysts.
    Our consulting division, Mandiant, investigates and remediates the 
world's most devastating breaches; FireEye's endpoint and network 
sensors feed data to a repository of active cyber threat operations; 
and newly-acquired iSIGHT Partners offers unparalleled analytic 
insight. We use this robust set of data to correlate threat activity 
and characterize threat actors' capabilities and motivations. This 
combination of visibility and resources puts FireEye in a unique 
position to observe and analyze threat activity across a range of 
countries, industries, and customers, and to gain insight into 
adversarial operations during, after, and in some cases before an 
attack. I would like to describe the changing threat landscape as we 
see it.
                             threat actors
    I have spent nearly 10 years identifying and tracking sophisticated 
threat groups, both within the Government and the private sector. 
During that time I have watched the number of adversaries increase and 
their methods change dramatically. FireEye now tracks approximately 500 
threat groups, including 29 advanced persistent threat (APT) \1\ groups 
that we strongly suspect are supported by governments. Other tracked 
groups include criminals operating for financial gain, as well as 
others where we currently have insufficient information to characterize 
their activity.
---------------------------------------------------------------------------
    \1\ Advanced Persistent Threat (APT) actors are assessed to take 
direction from a nation-state to steal information or conduct network 
attacks, tenaciously pursue their objectives, and are capable of using 
a range of tools and tactics.
---------------------------------------------------------------------------
    This multitude of threat actors--suspected government actors and 
enterprise cyber criminals alike--continues to evolve more quickly than 
the ability of the private sector to safeguard assets, including 
financial data, personal health information, and intellectual property.
Governments
    FireEye has regularly observed cyber threat activity from 
individuals we believe are sponsored by government agencies. While 
China has always been a prominent player in this area, in recent years 
we have seen additional threats from countries including Russia, Iran, 
North Korea, and Syria. This is likely due both to increased visibility 
into these threats, as well as an actual uptick in activity as nations 
attempt to increase and refine their capabilities in the cyber realm.
China
    China-based groups have historically been the most prolific threat 
actors we observed in terms of the number of distinct threat groups and 
the number of victim organizations. The agreement reached in September 
between Chinese President Xi Jinping and President Barack Obama to 
restrict commercial cyber espionage has the potential to significantly 
realign the threat landscape. FireEye continues to monitor known and 
suspected activity from China-based groups, but we believe it is still 
too early to draw definitive conclusions about China's compliance or 
lack thereof with the agreement and how or whether China may change its 
operations. At a minimum, we assess that China will continue to engage 
in cyber espionage against the United States to obtain political and 
foreign policy information, to gain insight into the U.S. activities of 
activists and religious and ethnic minorities advocating change in 
China, and possibly to acquire security-related information from 
private companies with a clear tie to national defense.
Russia
    Russia has become increasingly aggressive over the past few years, 
both geopolitically and in cyber space. Russia has always held a 
reputation as a skilled and stealthy cyber opponent, but recently their 
activities have been more widely exposed and discussed, including by 
FireEye in our reporting on groups we call APT28 and APT29. Despite on-
going publicity surrounding their tools and operations, we have seen no 
significant drop in their activity. APT28 has used zero-day exploits 
and spear phishing to aggressively pursue military and political 
secrets in the United States, Europe, the Middle East, and the Asia-
Pacific region. APT29, which we have observed through incident response 
engagements, proved to be a skilled and adaptable opponent. Many groups 
will go silent or abandon victim networks when discovered. However, in 
this case APT29 battled to retain control of the environment using 
speed and scale that would outmatch all but the most skilled and 
advanced network defenders.
    Russia also appears to use its cyber skills in support of real-
world military or information warfare operations. Examples include 
suspicions that Russian state-sponsored hackers were behind December 
2015 power outages in the Ukraine, as well as a suspected ``false 
flag'' operation by APT28: While purportedly a pro-Jihadist activist 
group calling themselves the ``CyberCaliphate'' was responsible for an 
attack on French media outlet TV5Monde in April 2015, technical 
indicators suggest that APT28 was actually responsible.
Iran and North Korea
    Iran and North Korea are more recent players on the stage, though 
what they currently lack in capability and sophistication they have 
been willing to make up for in brazenness. Both have demonstrated the 
intent and willingness to employ disruptive operations through denial 
of service or destructive malware--Iran purportedly overwriting data on 
thousands of computers at Saudi Aramco in 2012, and North Korea in a 
similar attack on Sony Pictures Entertainment in 2014.
    To date, neither Iran nor North Korea has matched the scope of 
operations or level of sophistication seen by countries such as China 
or Russia. Iran is believed to have targeted U.S. defense companies, 
politicians, and policy makers, as well as political dissidents and 
reporters or members of the media. These types of attacks were 
documented in FireEye's report on ``Operation Saffron Rose'' and in the 
iSIGHT Partners--now part of FireEye--report on the ``Newscaster'' 
activity.
    Both Iran and North Korea have been successful despite relative 
isolation from the global computer security community. Iranian 
attackers have custom tools including some made by domestic security 
companies, but they also use publicly-available tools. Iranian threat 
groups frequently rely on spear phishing and social engineering 
techniques to trick victims into installing malware or providing 
usernames and passwords to fake login sites, as opposed to leveraging 
exploits to compromise computers.
    Interestingly, as Iran and North Korea attempt to increase their 
capabilities in the cyber realm, they appear to be taking lessons not 
only in tools and techniques, but also in stealth and ``false flag'' 
operations. Iran has frequently leveraged social media, creating fake 
profiles used to connect with targets to learn about victims' 
movements, activities, and other connections. Several operations 
believed to have been carried out by North Korea were executed to 
appear to be the responsibility of hacktivists or patriotic hackers.
Cyber Criminals
    Cyber crime continues to be a concern, impacting individual 
citizens through identity theft and corporations through large-scale 
financial fraud and associated costs, including network remediation and 
reissuance of payment cards. Theft of payment card data continues 
unabated, with merchants of all sizes affected. However, as the value 
of payment card and bank account data decreases in the criminal 
underground, cyber criminals are becoming more innovative in their 
methods to steal and monetize organizations' information. For example, 
FireEye identified criminal activity in 2014, carried out by a group we 
call FIN4, where that group stole insider information from 
pharmaceutical, health care, and consulting companies to gain a 
competitive advantage in capital markets in the United States.
    We are also seeing a rise in the use of ransomware-malware that 
encrypts the victim's data, requiring them to pay a ransom to the cyber 
criminal to ``unlock'' or decrypt their information. Criminals 
originally used ransomware targeted at individual computers to charge 
small unlocking fees, but we are now seeing criminals target 
organizations with more sizeable extortion demands to restore encrypted 
corporate data. These types of attacks could have significant impact if 
carried out against organizations that provide essential services or 
support critical infrastructure, including agencies and departments in 
the U.S. Government.
    Beyond ransomware, criminals may take a cue from recent nation-
state activity, and conduct extortion not merely by encrypting data, 
but by threatening to destroy computers or expose sensitive company 
data. The Sony Pictures incident, where both techniques were used, 
played out very publicly and very effectively for the attackers. Given 
law enforcement's limited ability to identify and prosecute 
perpetrators outside their borders or otherwise impose meaningful 
consequences, criminals may be emboldened to raise the stakes in 
exchange for a higher ransom.
Terrorists
    To date, FireEye has observed very little cyber activity that we 
would directly attribute to terrorist groups. Most of the cyber 
activity from groups claiming affiliation with terrorist organizations, 
including groups claiming affiliation with the Islamic State, has been 
unsophisticated. Our company does not monitor terrorist social media 
use, but we assess these groups are using social networks to recruit 
individuals with advanced cyber skills. Other potential recruitment 
targets would include insiders who could facilitate cyber operations, 
based on the behavior of cyber crime groups who assemble their teams 
this way.
    Terrorists are likely to continue using cyber operations to target 
and expose seemingly sensitive data, such as lists of Government and 
military employees, most of which is gained through careful collection 
of publicly-available information or by targeting personal accounts. We 
believe that most terrorist organizations currently do not have the 
capability to carry out sophisticated cyber attacks on their own, and 
would need to cultivate those capabilities through recruitment of 
highly-skilled individuals, or through sufficient funds to purchase or 
hire such expertise. Current capabilities are likely limited to blunt 
attacks such as denial-of-service or destruction of data or resources, 
possibly carried out in concert with a kinetic attack.
                          information sharing
    Information sharing is critical to the ability of the United States 
to successfully defend itself in cyber space. It will not, however, 
eliminate the risk of cyber attacks.
    To defeat the most advanced threat groups, the private and public 
sector must share information not only about technical indicators--
which are reactive--but about motivations, plans, and intentions that 
would enable forewarning. This information must be Unclassified and 
shared in near-real-time for network defenders to regain the upper hand 
against the best state-sponsored threat groups. Information sharing 
must be part of a comprehensive security strategy and combined with 
broader efforts to educate organizations about real risks, train 
security personnel to combat them effectively, and develop incentives 
so that the public and private sectors are motivated to invest in 
protecting data, assets, and critical infrastructure.
                         reward outweighs risk
    I have described how threat actors have increased in number and 
sophistication, and how groups of all types who once had only limited 
cyber capabilities have become more of a threat. This trend is due to 
multiple factors, including:
  <bullet> The asymmetric advantage of cyber operations. Groups with 
        otherwise limited military, political, or economic capabilities 
        can leverage cyber operations to damage an opponent or deliver 
        a political message, often with limited investment in resources 
        and to disproportionate effect.
  <bullet> The on-going perception that threat groups can largely 
        operate with impunity. The rewards to be had from conducting 
        cyber operations greatly outweigh the risks, for state-
        sponsored, criminal, and terrorist hacking groups alike.
    The perception of low risk and high reward for nation-state, 
criminal, and terrorist groups alike stems from a number of challenges 
related to the investigation, analysis, attribution, and prosecution of 
activity in the cyber realm:
  <bullet> Forensic data can be volatile in the best of circumstances, 
        and many groups take pains to limit or delete traces of their 
        activity, further undermining investigators' ability to 
        understand what occurred.
  <bullet> Cyber crime and cyber operations are not limited by 
        geographical boundaries, and groups may deliberately spread 
        their activity across multiple countries to mislead and 
        complicate investigation and prosecution.
  <bullet> The ability to discern a threat group's true purpose and 
        motivation becomes more difficult as nation-state and criminal 
        actors adopt each other's tools and techniques. Groups may also 
        attempt to actively misdirect investigators using ``false 
        flag'' efforts.
  <bullet> Attribution--the ability to link activity in the cyber realm 
        to a real-world person or group--remains challenging, whether 
        attempting to identify a criminal or a foreign government.
    The challenges we face in the current threat landscape are many, 
but they are not insurmountable. Complex problems require multi-faceted 
solutions. I offer the following suggestions to facilitate these 
efforts:
  <bullet> Continue to facilitate safe, trusted, and automated means 
        for the public and private sector to share information about 
        current and emerging threats. This sharing should encompass not 
        merely indicators, but also contextual data about the nature, 
        scope, and risk associated with those indicators. Context 
        enables prioritization and decision making, allowing defenders 
        to respond faster and more effectively.
  <bullet> Recognize that the ``fortress'' approach of attempting to 
        fully secure our networks and assets to prevent all possible 
        attacks is infeasible. Organizations must secure their 
        environments to the best of their ability, but understand that 
        breaches can and will occur, and that they must have tools and 
        resources in place to detect, respond to, and contain malicious 
        activity across the entire attack life cycle.
  <bullet> Identify ways that organizations can ``raise the bar'' 
        attackers must overcome to achieve their objectives. While the 
        complexities of investigation and attribution may make it 
        difficult to impact threat actors in the wake of an attack, we 
        can work together to make attacks more difficult and costly to 
        carry out. This process may deter opportunistic attackers and 
        slow down determined threats, giving defenders more time to 
        detect and respond to attacks.
    Mr. Chairman, Ranking Member Richmond, and Members of the 
subcommittee, I thank you for your attention and time today. I look 
forward to answering your questions.

    Mr. Ratcliffe. Thank you. The Chair now recognizes Mr. 
Bromwich for 5 minutes.

STATEMENT OF ADAM BROMWICH, VICE PRESIDENT, SECURITY TECHNOLOGY 
   AND RESPONSE, SYMANTEC, TESTIFYING ON BEHALF OF THE CYBER 
                        THREAT ALLIANCE

    Mr. Bromwich. Chairman Ratcliffe, Ranking Member Richmond, 
and Members of the committee, thank you for the opportunity to 
testimony today. Your focus on emerging threats is right on 
point, because more than perhaps any other security discipline, 
cybersecurity is constantly evolving.
    Many of the recent headlines about cyber attacks have 
highlighted data breaches in Government and across the spectrum 
of industries, but cyber attacks encompass more than just 
breaches. The incidents we see today raise from basic 
confidence schemes to sophisticated and potentially destructive 
intrusions into critical infrastructure systems.
    The attackers run the gamut and include highly-organized 
criminal enterprises, disgruntled employees, individual cyber 
criminals, so-called hacktivists, and state-sponsored groups. 
Common attack types range from distributed denial-of-service, 
or DDOS, to highly-targeted attacks, to widely-distributed 
financial fraud scams.
    A DDOS attack is an attempt to overwhelm a system with 
data, while targeted attacks typically try to trick someone 
into opening an infected file or clicking on a bad link. Of 
course, scams and blackmail schemes for profit continue.
    One of the most common is ransomware, which locks the 
victim's computer and displays a screen that purports to be 
from law enforcement. The attackers demand payment of a fine 
for having illegal content on the computer. But criminals are 
always looking for new ways to make money. They have moved 
beyond ransomware and are now frequently using a more insidious 
and harmful form of malware known as crypto lockers. While most 
scams are classic confidence schemes, ransom script is 
straight-up blackmail. Pay a ransom or your computer files will 
be lost.
    The criminals use high-grade encryption technology to 
scramble the victim's computer, and only the attacker has the 
key to unlock it. In the past month, Hollywood Presbyterian 
Hospital in California fell victim to just this kind of attack. 
Over a 10-day period, staff was forced to use pen and paper 
until the hospital paid the criminals a $17,000 ransom for the 
decryption key needed to unlock their computers. Some medical 
devices were reportedly off-line. Wait times increased at the 
emergency room. Some patients were directed to other hospitals.
    The attacker surface is always shifting, and the enormous 
growth of connected devices, commonly referred to as the 
Internet of Things, or IOT, will bring with it a new generation 
of attacks. Last summer, the remote compromise of a Jeep 
automobile by a pair of security researchers received a great 
deal of attention. Receiving less attention, but equally 
concerning are several alerts about vulnerabilities in drug and 
fusion pumps that the Department of Homeland Security issued 
over the past year. If a device is running software and it is 
connected to the internet, vulnerabilities can enable attackers 
to take control.
    Attack methods are always evolving and improving. The most 
common attack method, spearfishing, uses customized, targeted 
e-mails containing malware or malicious links. Social media is 
an increasingly valuable tool for attackers, as people tend to 
trust links in postings that appear to come from a friend's 
social media feed. We have also seen the rapid growth of 
targeted, web-based attacks known as watering hole attacks.
    These techniques, while originally used only by 
sophisticated and well-resourced attackers, are now available 
as tool kits that can any criminal can purchase and use. 
Attacks are getting more sophisticated, but so, too, are 
security tools. Most attacks, including recent high-profile 
breaches, could have been prevented if organizations 
implemented the latest cybersecurity technology and best 
practices.
    To block advanced threats and zero-day attacks, 
intelligence machine learning and advanced exploit prevention 
technologies are necessary. These tools use automation to train 
a system to identify an attack, even one that has never been 
seen before. It is also increasingly critical to use big data 
analytics to evaluate global software patterns. At Symantec, 
these analytics are able to identify and block entirely new 
attacks purely by evaluating relationships with other devices 
and other files across a global network of hundreds of millions 
of computers.
    Cooperation is also key to improving cybersecurity, and we 
participate in numerous industry consortia and public-private 
partnerships to combat cyber crime. These include the National 
Cyber Forensics and Training Alliance, or NCFTA, the FBI, 
Europol, Interpol, the North Atlantic Treaty Organization, and 
Ameripol. We have also been involved in numerous operations to 
take down criminal networks, including the operations that took 
down the ransomware network CryptoLocker, the Dridex financial 
fraud botnet, and the Ramnit botnet.
    Just yesterday, Symantec participated in a collaborative 
cross-industry operation that targeted an aggressive threat 
group known as Lazarus. This is the same group thought to be 
behind the Sony attack. The initiative called Operation 
Blockbuster significantly bolstered defenses against the cyber 
espionage group and it is disruptive campaigns.
    Cooperation within the security industry is important, and 
in 2014, Symantec, Palo Alto Networks, Fortinet and Intel 
Security formed the Cyber Threat Alliance to better distribute 
detailed information about advanced attacks. CTA shares high-
value, actionable threat intelligence while still maintaining 
the privacy and confidentiality of all customer data.
    The partnership works because it is not about one vendor 
trying to gain advantage. We are all contributing and sharing 
with the community to better uncover, understand, and protect 
against advanced attacks. The cyber threat landscape is always 
evolving, but so, too, are new security technologies. 
Preventing cyber crime is a shared effort, and your work to 
inform the public is an important part of that.
    We appreciate the opportunity to testify today, and I am 
happy to take any questions you have.
    [The prepared statement of Mr. Bromwich follows:]
                  Prepared Statement of Adam Bromwich
                           February 25, 2016
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
committee, my name is Adam Bromwich and I am the vice president of 
Symantec's Security Technology and Response (STAR) team. I lead a 
global team of engineers, researchers, and analysts who develop our 
security technologies, attack intelligence, and security content. My 
team is on the front lines of cybersecurity, identifying the latest 
attack patterns and campaigns, deploying protection to our customers 
around the clock from research centers across the globe, and working 
closely with law enforcement agencies to track cyber criminal groups. 
Prior to this role, I led the development and launch of our Insight 
reputation technology, a fundamentally new protection approach that 
leverages big data analytics and anonymous software adoption patterns 
from over 50 million endpoints to automatically compute safety ratings 
for virtually every software file and web site on the internet. I also 
served as director of advanced concepts, an incubator group within 
Symantec Research Labs, where I developed new products including the 
Norton Online Family child safety software. I received my Bachelor of 
Arts degree from Princeton University and an MBA from Yale University.
    Symantec protects much of the world's information, and is the 
largest security software company in the world with 33 years of 
experience developing cybersecurity technology and helping consumers, 
businesses, and governments secure and manage their information and 
identities. Our products and services protect people's information and 
their privacy across platforms--from the smallest mobile device, to the 
enterprise data center, to cloud-based systems. We have established 
some of the most comprehensive sources of cyber threat data in the 
world through our Global Intelligence Network, which is comprised of 
hundreds of millions of attack sensors recording hundreds of thousands 
of events per second, and more than 1,000 dedicated security engineers 
and analysts. We maintain 9 Security Response Centers and 6 Security 
Operations Centers around the globe. Every day we scan 30 percent of 
the world's enterprise email traffic, and process more than 1.8 billion 
web requests. All of these resources combined allow us to capture 
world-wide security data that give our analysts a unique view of the 
entire cyber threat landscape.
    The title of today's hearing is instructive, and I am glad to see a 
focus on ``emerging'' threats. More than perhaps any other security 
discipline, cybersecurity is not static. Attackers are always 
innovating and threats evolve quickly. Just the same, defenses cannot 
be static. In my testimony today, I will discuss:
  <bullet> The current and emerging threat environment;
  <bullet> Cutting-edge technologies to counter the latest threats;
  <bullet> How we work with the Government to improve cybersecurity and 
        stop criminals; and
  <bullet> How we partner with our industry colleagues to counter cyber 
        attacks.
                 i. the current cyber threat landscape
    Many of the recent headlines about cyber attacks have focused on 
data breaches in Government and across the spectrum of industries. 
Indeed, the volume of recent thefts of personally identifiable 
information (PII) is unprecedented--over just the past 3 years alone, 
the number of identities exposed through breaches surpassed 1 billion. 
Yet while the focus on data breaches and the identities put at risk is 
certainly warranted, we also must not lose sight of the other types of 
cyber attacks that are equally concerning and can have damaging 
consequences. There are a wide set of tools available to the cyber 
attacker, and the incidents we see today range from basic confidence 
schemes to massive denial-of-service attacks to sophisticated (and 
potentially destructive) intrusions into critical infrastructure 
systems. The economic impact can be immediate with the theft of money, 
or more long-term and structural, such as through the theft of 
intellectual property. It can ruin a company or individual's reputation 
or finances, and it can impact citizens' trust in the internet and 
their Government.
    While many assume that breaches are the result of sophisticated 
malware or a well-resourced state actor, the reality is much more 
troubling. According to a 2015 report from the Online Trust Alliance, 
90 percent of recent breaches could have been prevented if 
organizations implemented basic cybersecurity best practices.\1\ 
Moreover, some breaches are actually second-generation activity--
criminals leverage previously stolen personal information to compromise 
an individual's account.
---------------------------------------------------------------------------
    \1\ https://www.otalliance.org/news-events/press-releases/ota-
determines-over-90-data-breaches-2014-could-have-been-prevented.
---------------------------------------------------------------------------
    The attackers run the gamut and include highly-organized criminal 
enterprises, disgruntled employees, individual cybercriminals, so-
called ``hacktivists,'' and state-sponsored groups. The motivations 
vary--the criminals generally are looking for some type of financial 
gain, the hacktivists are seeking to promote or advance some cause, and 
the state actors can be engaged in espionage (traditional spycraft or 
economic) or infiltrating critical infrastructure systems. These lines, 
however, are not set in stone, as criminals and even state actors might 
pose as hacktivists, and criminals often offer their skills to the 
highest bidder. Attribution has always been difficult in cyber space, 
and is further complicated by the ability of cyber actors to mask their 
motives and objectives through misdirection and obfuscation.
Common Types of Attacks
            Distributed Denial-of-Service (``DDoS'')
    Distributed denial-of-service (DDoS) attacks attempt to deny 
service to legitimate users by overwhelming the target with activity. 
The most common method is to flood a server with network traffic from 
multiple sources (hence ``distributed''). These attacks are often 
conducted through ``botnets''--armies of compromised computers that are 
made up of victim machines that stretch across the globe and are 
controlled by ``bot herders'' or ``bot masters.''\2\
---------------------------------------------------------------------------
    \2\ ``Bots and Botnets--A Growing Threat,'' Symantec, http://
us.norton.com/botnet/.
---------------------------------------------------------------------------
    DDoS attacks have grown larger year over year, from the equivalent 
of a garden hose to a fire hose to the outflow pipes of the Hoover dam. 
Even the most prepared networks can buckle under that volume of data 
the first time it is directed at them, which is why a few years ago 
even some of the Nation's biggest financial institutions initially 
suffered outages when they were victims of a DDoS campaign. In addition 
to increasing in volume, the attacks are getting more sophisticated and 
vary the methods used, which makes them harder to mitigate.
    The purpose of most attacks is to disrupt, not to destroy. However, 
some sophisticated attackers will use a DDoS attack to distract an 
organization's security team while the criminals unleash a more 
sophisticated attack. For instance, organized crime groups have been 
known to initiate DDoS attacks against banks to divert the attention 
and resources of the bank's security team while the main attack is 
launched, which can include draining customer accounts or stealing 
credit card information.
            Targeted Attacks
    Targeted attacks are increasingly common. Some are directed at a 
company's servers and systems, where attackers search for unpatched 
vulnerabilities on websites or undefended connections to the internet. 
But many rely on social engineering, conning people into clicking on a 
link, opening a file, or taking some other action that will allow an 
attacker to compromise their device. The attack can be targeted at 
almost any level, even at an entire sector of the economy or a group of 
similar organizations or companies. Attacks also can target a 
particular company or a unit within a company (e.g., research and 
development or finance) or even a specific person.
    Most of the data breaches and other attacks that have been in the 
news were the result of a targeted attack, but the goal of the attacker 
can vary greatly. One constant is that after attackers select a target 
they will set out to gain access to the systems they want to compromise 
and once inside there are few limits on what they can do if the target 
is not well-protected. The malware used today is largely commoditized, 
and while we still see some that is custom-crafted, most of the attacks 
rely on attack kits that are sold on the cyber black market. But even 
these commodity attack kits are highly sophisticated and are designed 
to avoid detection--some even come with guarantees from the criminal 
seller that they will not be stopped by common security measures. This 
makes it all the more important--but also more challenging--to stay 
ahead of the attackers.
            Scams, Blackmail, and Other Cyber Theft
    Like most crime, cyber attacks are often financially motivated, and 
some of the most common (and most successful) involve getting victims 
to pay out money, whether through trickery or direct threats. One early 
and widely successful attack of this type was known as ``scareware.'' 
Scareware is a form of malware that will open a window on your device 
that claims your system is infected, and offer to ``clean'' it for a 
fee. Some forms of scareware open pop-ups falsely claiming to be from 
major security companies (including Symantec), and if a user clicks on 
the window they are taken to a fake website that can look very much 
like that of the real company. Of course, in most cases the only 
infection on your computer is the scareware itself. Victims who fall 
for the scam are lucky if they only lose the $20 or $30 ``cost'' for 
the fake software, but most are out much more as they typically provide 
credit card information to pay the scammer in the mistaken belief they 
are purchasing legitimate security software. Not only did they 
authorize a payment to the scammer, but they also provided financial 
information that could then be sold on the criminal underground. And by 
allowing the scammer to install the supposed cleaning software on their 
device, they give the criminal the ability to install additional 
malware and potentially steal more financial information or turn their 
system into a zombie soldier in a botnet.
    First widely seen in 2007, scareware began to diminish in 2011 
after users became alerted to the scams and they became much less 
effective. Criminals next turned to ``ransomware,'' which has grown 
significantly since 2012. Ransomware is another type of deception where 
the malware locks the victim's device and displays a screen that 
purports to be from a law enforcement entity local to the user. The 
lock screen states that there is illegal content on the computer--
everything from pirated movies to child pornography--and instructs the 
victim to pay a ``fine'' for their ``crime.'' The criminals claim that 
the victim's device will be unlocked once the ``fine'' is paid, but in 
reality the device frequently remains locked. Both of these types of 
attacks can be removed from your computer and we offer instructions and 
free tools on our Norton.com website to assist victims in doing so.
    Criminals have now moved beyond even ransomware and are using a 
more insidious and harmful form of malware known as ``ransomcrypt.'' 
While scareware and ransomware are more classic confidence schemes, 
ransomcrypt is straight-up blackmail: Pay a ransom or your computer 
files will be erased. And unlike scareware and ransomware, there is 
often no way to get rid of it--the criminals use high-grade encryption 
technology to scramble the victim's computer, and only they have the 
key to unlock it. Unless the system is backed up, the victim faces the 
difficult choice of paying the criminals or losing all the data. Last 
year one police department in Maine paid a ransom in order to regain 
control of its data.\3\ The police chief said ``[w]e needed our 
programs to get back on-line.''\4\ A more recent example is the 
compromise of the systems at Hollywood Presbyterian Hospital. Over a 
10-day period, staff was forced to use pen and paper until the hospital 
paid the criminals a $17,000 ransom for the decryption key needed to 
unlock their computers. Some medical devices were reportedly off-line, 
wait times increased at the emergency room, and some patients were 
directed to other hospitals.
---------------------------------------------------------------------------
    \3\ Stephanie Mlot, ``Maine Police Pay Ransomware Demand in 
Bitcoin,'' PCmag, April 14, 2015, http://www.pcmag.com/article2/
0,2817,2481356,00.asp.
    \4\ Id.
---------------------------------------------------------------------------
Emerging Threats
    Attackers are constantly looking for new devices to compromise and 
new vectors to use to attack them, and the enormous growth of connected 
devices, commonly referred to as the Internet of Things or IoT, is 
significantly expanding the available attack surface. Last summer the 
remote compromise of a Jeep by a pair of security researchers received 
a great deal of attention, and with good reason.\5\ The video of the 
reporter driving on the highway while unable to control the car as 
traffic rushed past was frightening and powerful. Receiving less 
attention, but equally concerning, are several alerts about 
vulnerabilities in drug infusion pumps that the Department of Homeland 
Security's Industrial Control System Computer Emergency Response Team 
issued over the past year.\6\
---------------------------------------------------------------------------
    \5\ Andy Greenberg, ``Hackers Remotely Kill a Jeep on the Highway--
With Me in It,'' Wired, July 21, 2015, http://www.wired.com/2015/07/
hackers-remotely-kill-jeep-highway/.
    \6\ See, e.g., https://ics-cert.us-cert.gov/advisories/ICSA-15-337-
02 (January 21, 2016); https://ics-cert.us-cert.gov/advisories/ICSA-15-
125-01B (June 10, 2015).
---------------------------------------------------------------------------
    These are just 2 examples of vulnerabilities in connected devices, 
and how the explosive growth of such connections can lead to physical 
harm. The potential for scams and other financial fraud is just as 
great. We need to be prepared for ransomware targeted at a smartwatch--
or a connected thermostat, refrigerator, or automobile. Criminals know 
that most consumers would pay a few hundred dollars in blackmail to 
regain control of a $50,000 vehicle that was rendered unusable by a 
piece of targeted malware.
    Yet while the devices that could be compromised are new, many of 
the underlying reasons they are susceptible to attack are not. In fact, 
many of the new connected devices are not being built with security as 
a core design principle, and too many of the deployed devices are not 
protected or updated. Last year we released a report titled 
``Insecurity in the Internet of Things''\7\ that analyzed 50 ``smart 
home'' devices. The findings were shocking: Among other security 
issues, none of the devices enforced strong passwords, followed 
appropriate authentication protocols, or protected accounts against 
brute-force attacks. Almost 20 percent of the mobile apps used to 
control the tested IoT devices did not encrypt communications to the 
cloud--which means they were transmitting data in clear text across the 
internet.
---------------------------------------------------------------------------
    \7\ https://www.symantec.com/content/dam/symantec/docs/white-
papers/insecurity-in-the-internet-of-things.pdf.
---------------------------------------------------------------------------
    All of these potential weaknesses are already well-known to the 
security industry, yet known mitigation techniques are often neglected 
on these devices. These findings were consistent with those of a 
previous report we issued in 2014, which examined security in health 
and fitness tracking devices, many of which transmitted data (including 
passwords) in clear text and failed to conduct proper authentication 
before connecting with outside devices or systems.\8\ These devices can 
be protected, and they can be built with that in mind, but that needs 
to start at the design stage to lay the groundwork for strong security 
over the life of the device.
---------------------------------------------------------------------------
    \8\ https://www.symantec.com/content/dam/symantec/docs/white-
papers/how-safe-is-your-quantified-self.pdf.
---------------------------------------------------------------------------
    Another worrisome trend is the increase in destructive malware such 
as the one used against Sony in 2014. In the past attackers were 
focused on stealing data, holding it ransom, or conducting espionage. 
But the Sony malware did much more--it completely erased hard drives 
and rendered computers unusable.\9\ While still the minority of 
attacks, we expect to see more of them in the future. This only further 
highlights the need for organizations to be proactive about security 
and to utilize modern tools to protect their systems and contain any 
intrusion.
---------------------------------------------------------------------------
    \9\ Sean Gallagher, ``Inside the `wiper' malware that brought Sony 
Pictures to its knees,'' Ars Technica, December 3, 2014, http://
arstechnica.com/security/2014/12/inside-the-wiper-malware-that-brought-
sony-pictures-to-its-knees/.
---------------------------------------------------------------------------
Methods Attackers Use to Compromise Systems
    All of the attacks outlined above started with a common factor--a 
compromised device. From this one device, attackers often are able to 
move within a system until they achieve their ultimate goal. But the 
threshold question is how do they get that foothold--how do they make 
that initial compromise that allows them to infiltrate a system?
    We frequently hear about the sophistication of various attackers 
and about ``Advance Persistent Threats'' or ``APTs,'' but the 
discussion of cyber attacks--and of cyber defense--often ignores the 
psychology leading up to the exploit. Most attacks rely on social 
engineering--in the simplest of terms, trying to trick people into 
doing something that they would never do if fully cognizant of their 
actions. For this reason, we often say that the most successful attacks 
are as much psychology as they are technology.
    Spear phishing, or customized, targeted emails containing malware, 
is the most common form of attack. Attackers harvest publicly-available 
information and use it to craft an email designed to dupe a specific 
victim or group of victims. The goal is to get victims to open a 
document or click on a link to a website that will then try to infect 
their computers. While good security will stop most of these attacks--
which often seek to exploit older, known vulnerabilities--many 
organizations and individuals do not have up-to-date security or 
properly patched operating systems or software. And many of these 
attacks are extremely well-crafted; in the case of one major attack, 
the spear phishing email was so convincing that even though the 
victim's system automatically routed it to junk mail, he retrieved it 
and opened it--and exposed his company to a major breach.
    Social media is an increasingly valuable tool for cyber criminals 
in two different ways. First, it is particularly effective in direct 
attacks, as people tend to trust links and postings that come from a 
friend's social media feed (or appear to) and rarely stop to question 
if that feed may have been compromised or spoofed. Thus, attackers 
target social media accounts and then use them to ``like'' or otherwise 
promote a posting that contains a malicious link. Social media is also 
widely used to conduct reconnaissance for spear phishing or other 
highly-targeted attacks as it often provides just the kind of personal 
details that a skilled attacker can use to get a victim to let his or 
her guard down.
    Beginning in 2012, we saw the rapid growth of a new type of 
targeted web-based attack, known as a ``watering hole'' attack. Like 
the lion in the wild who stalks a watering hole for unsuspecting prey, 
cyber criminals have become adept at lying in wait on legitimate 
websites and using them to try to infect visitors' computers. They do 
so by compromising legitimate websites that their victims are likely to 
visit and modifying them so that they will surreptitiously try to 
infect visitors or redirect them to a malicious site. For example, one 
attacker targeted mobile application developers by compromising a site 
that was popular with them. In another case, we saw employees from 500 
different companies in the same industry visit one compromised site in 
just 24 hours, each running the risk of infection.\10\ Cyber criminals 
gained control of these websites through many of the same tactics 
described above--spear phishing and other social engineering attacks on 
the site managers, developers, or owners. Many of these websites were 
compromised through known attack vectors, meaning that good security 
practices could have prevented them from being compromised.
---------------------------------------------------------------------------
    \10\ Symantec, ``Internet Security Threat Report, Volume XVIII,'' 
April 16, 2013, Pg. 21.
---------------------------------------------------------------------------
                       ii. modern security tools
    Attacks are getting more sophisticated, but so too are security 
tools. Security still starts with basic measures such as strong 
passwords or multi-factor authentication and up-to-date patch 
management. But while these steps may stop many older, simpler attacks, 
they will be little more than a speed bump for even a moderately 
sophisticated attacker.
    Real protection requires a modern security suite that is being 
fully utilized. To block advanced threats and zero-day attacks, 
sophisticated machine learning and advanced exploit prevention 
technologies are necessary. These approaches are able to use automation 
to train a system to identify an attack, even one that has never been 
seen before. It is also increasingly critical to use big data analytics 
to evaluate global software patterns to create real-time intelligence. 
Today these analytics are able to identify and block entirely new 
attacks by evaluating how they are distributed and their relationships 
with other devices and other files.
    Data protection is equally important, and a comprehensive security 
program includes data loss prevention (DLP) tools that index, track, 
and control the access to and movement of huge volumes of data across 
an organization. Perhaps most importantly, DLP tools will prevent that 
data from moving outside an organization. Organizations should also use 
encryption technology on particularly sensitive data, which renders it 
unreadable to anyone who does not have the specific cryptologic key.
    Device-specific protections are also important. For example, in the 
retail world, there are tools that can be applied to point-of-sale 
systems that will virtually lock down the system and only allow it to 
perform those limited functions that are absolutely necessary for 
completing a sales transaction. In the IoT world, there are 
authentication, encryption, and end-point protection tools that are 
designed to run on small and low-power devices. These tools can protect 
everything from a connected vehicle to the small sensors built into a 
bridge or that monitor critical machinery.
    In short, good security does not happen by accident--it requires 
planning and continued attention. But criminals will always be 
evolving, and security must as well.
       iii. public-private partnerships to enhance cybersecurity
    Every day we hear about the impact of cyber crime, but we do not 
often hear about the many successes that law enforcement and the 
private sector have had in stopping these crimes and bringing these 
criminals to justice. Recently, we have seen a string of successful 
arrests and prosecutions of some of the most notorious cyber criminals 
in the world. In July 2015, a New York judge sentenced Alexander Yucel, 
the creator of the ``Black Shades'' Trojan to 5 years in prison and the 
forfeiture of $200,000. Yucel was swept up by the Federal Bureau of 
Investigation (FBI) and Europol last year along with dozens of other 
individuals in the United States and abroad. Symantec worked closely 
with the FBI in this coordinated takedown effort, sharing information 
that allowed the agency to track down those suspected of involvement. 
And in June 2015, Ercan ``Segate'' Findikoglu, the man who prosecutors 
say orchestrated one of the biggest cyber bank heists in American 
history was extradited to the United States to stand trial for stealing 
more than $55 million by hacking bank computers and withdrawing 
millions in cash from ATMs.
    In fact, over the last few years we have had a number of successful 
takedown operations against prominent financial fraud botnets. In June 
of 2014, the FBI, the United Kingdom (UK) National Crime Agency, and a 
number of international law enforcement agencies mounted a major 
operation against the financial fraud botnet Gameover Zeus and the 
ransomware network Cryptolocker. Gameover Zeus was the largest 
financial fraud botnet in operation in 2014 and is often described as 
one of the most technically sophisticated variants of the ubiquitous 
Zeus malware. Symantec provided technical insights into the operation 
and impact of both Gameover Zeus and Cryptolocker, and worked with a 
broad industry coalition and the FBI during this case. As a result, 
authorities were able to seize a large portion of the infrastructure 
used by the cyber criminals behind both threats.
    And in February of 2015, a Europol-led operation struck against the 
Ramnit botnet and seized its servers and infrastructure. Ramnit 
facilitated a vast cyber crime operation, harvesting banking 
credentials and other personal credentials from its victims. The group 
was in operation for at least 5 years and in that time evolved into a 
major criminal operation, infecting more than 3.2 million computers. 
These law enforcement operations and others have knocked out or 
severely curtailed the operations of some of the most prominent 
financial fraud groups in the world. In fact, the number of bots 
declined by 18 percent in 2014 compared to the previous year. In large 
measure, this decline is because the FBI, the Europol European 
Cybercrime Centre (EC3), and other international law enforcement 
agencies, working with Symantec and other technology companies, 
disrupted and shut them down.
    Because cyber space is a domain without borders, where crimes are 
often committed at a great distance, every device in the United States 
is a potential border entry point, making investigation and prosecution 
of cyber crimes a difficult task. This reality makes international 
engagement on cybersecurity essential. For example, Symantec partnered 
with AMERIPOL and the Organization of American States to publish a 
report that provides the most comprehensive snapshot to date of 
cybersecurity threats in the Latin America and Caribbean region. The 
goal was to raise awareness of cyber crime issues and promote the 
importance of cybersecurity throughout the region as a National and 
economic security imperative.
    Similarly, Symantec is partnering with the African Union to develop 
a report looking at the cybersecurity threats and trends in Africa. 
That report will be published later this year.
    Symantec also maintains relationships in the United States and 
around the world with international cyber response organizations and 
law enforcement entities including INTERPOL, EUROPOL, and dozens of 
National Computer Emergency Response Teams (CERTs) and police forces, 
by sharing the latest technological trends, the evolution of the threat 
landscape, and the techniques that cyber criminals use to launch 
attacks. Our latest partnership, signed in December 2015, is with the 
North Atlantic Treaty Organization (NATO), and is focused on boosting 
2-way threat information sharing.
  iv. private-sector partnerships to enhance cybersecurity--the cyber 
                            threat alliance
    In 2014, Symantec, Fortinet, Intel Security, and Palo Alto Networks 
formed the Cyber Threat Alliance (CTA) to work together to share threat 
information. The goal was to better distribute detailed information 
about advanced attacks and thereby raise the situational awareness of 
CTA members and improve overall protection for our customers. Since the 
founding of the CTA, several contributing members have joined, 
including Barracuda Networks, Reversing Labs, Zscaler, and ElevenPaths 
(part of Telefonica). Prior industry sharing efforts were often limited 
to the exchange of malware samples, and the CTA sought to change that. 
Over the past 2 years the CTA has consistently shared more actionable 
threat intelligence such as information on zero-day vulnerabilities, 
command-and-control server information, mobile threats, and indicators 
of compromise related to advanced threats. By raising the industry's 
collective intelligence through these new data exchanges, CTA members 
have delivered greater security for individual customers and 
organizations. In short, the CTA is not about one vendor trying to gain 
advantage--we are all contributing and sharing with the community.
    It is important to note that we have done this while maintaining 
the privacy of all our customer data and in full compliance with our 
companies' respective privacy policies. At Symantec, we take very 
seriously our obligation to protect our customers' privacy and maintain 
the confidentiality of the data they choose to share with us, and our 
analysts are rigorous in ensuring that all shared data is anonymized. 
In the digital world, security and privacy are intertwined, and the CTA 
is operational proof that the two can complement each other.
    The CTA has worked because there are minimum contribution 
requirements for all members. Each must share at least 1,000 samples of 
new Portable Executable (PE) malware per day that were not otherwise 
seen over the preceding 48 hours. Further, they must provide one or 
more additional sets of data relating either to mobile malware samples, 
command-and-control servers, or vulnerabilities. Member company 
analysts meet every month to exchange information and plan joint 
reports, and the company CEOs meet quarterly. When the group decides to 
work on a research paper, company analysts work together more 
frequently--often several times a week just before publication.
    The CTA's recent research paper on the Cryptowall ransomware trojan 
is a good example of what high-impact information sharing can bring. 
Each member shared their Indicators of Compromise (IOCs) around a 
particular threat, filling in intelligence gaps and allowing an 
expanded understanding of the criminal networks and their methods of 
operation. In addition to the research paper, the effort led to more 
comprehensive protection for all of our customers.
    Efforts like the Cryptowall paper, of course, require significant 
resources from the member companies. And while members work together on 
research, they also compete in the marketplace. But the CTA has shown 
that with the proper planning and due care for company-specific 
considerations, even competitors can come together and raise the 
security level for all internet users.
                               conclusion
    The cyber threat landscape is always evolving--but so too are new 
security technologies. Cyber criminals will always seek new ways to 
compromise computers, but that does not mean they are always winning. 
In fact, we see attackers trying new techniques such as zero-day 
exploits because protection has become difficult to evade. These 
criminals did not invest the time and resources to develop new attack 
methods because they wanted too, they did it because they had too--
because consumers were spotting their scams and security tools were 
blocking them. With cybersecurity, the old adage is true--there is no 
destination, just a journey. By driving up the cost of doing business 
for criminals we can make their journey all the more difficult and less 
lucrative. Symantec appreciates the committee's on-going interest in 
cybersecurity, and we look forward to continuing to work with you in 
the future.

    Mr. Ratcliffe. Thank you, Mr. Bromwich. The Chair now 
recognizes Dr. Porche for his opening statement.

 STATEMENT OF ISAAC R. PORCHE, III, ASSOCIATE DIRECTOR, FORCES 
  AND LOGISTICS PROGRAM, THE RAND ARMY RESEARCH DIVISION, THE 
                          RAND COMPANY

    Mr. Porche. Thank you. Chairman Ratcliffe, Ranking Member 
Richmond, distinguished Members of the subcommittee, thank you 
for inviting me to this important discussion on cyber space and 
cybersecurity.
    Let me start--since the creation of the internet's 
predecessor, the ARPANET, kaleidoscopic change has been the 
single constant in the information environment. What started 
out as a relatively wonky communications tool for a small group 
of scientists and engineers is now a global information 
infrastructure.
    Information and communications technology changes rapidly, 
and it is difficult for even nimble corporations to keep up 
with modifications to stop the next threat or to close the next 
discovered vulnerability.
    The challenge for the U.S. Government in cyber space is 
even greater. First, I discuss two trends that are driving this 
challenge. The first trend is that cyber space, which is 
expanding every day as more and more devices are brought on-
line, is becoming increasingly vulnerable as cybersecurity 
resources are stretched thin. We are straining to keep pace 
with the increasing complexity as new devices come to the 
market and become interconnected. Meanwhile, cyber space is 
hosting increasingly vast amounts of data.
    A metaphoric term, cyber space is like a balloon. It is 
constantly being filled with air, and constantly trying to 
prick the balloon are considerable numbers of people and 
organizations, terrorists, nation-states. This is the second 
trend. To continue with the metaphor, pins are like a dime a 
dozen. To deal with this, we need cybersecurity professionals 
working on building a tougher skin for the balloon, taking pins 
off the market, tracking down and stopping would-be pin-
prickers.
    But aside from hiring more professionals, what are the 
options for improving cybersecurity? In earlier RAND work that 
I published, we identify two needs. The first, enable 
substantially better information sharing and collaboration 
among key departments and agencies in the private sector. The 
Cybersecurity Information-Sharing Act of 2015 was needed, but 
small and careful step towards this goal. So why is sharing 
discovered vulnerabilities, defensive measures and best 
practices so important? Because bad actors benefit from slow 
identification and slow mitigation of the threat.
    Given the time taken to identify a malicious intrusion and 
determine its extent, which is usually measured in months, the 
bad actors are long gone, along with your data. If Government 
entities and the private sector are sharing information quickly 
and often, they have a better chance of being able to 
anticipate and prepare for the eventual attack.
    Also we have to go beyond just identifying and responding 
to attacks more quickly. Threats have to be anticipated. The 
behavior of threat actors has to be identified. Intelligence on 
threat actors and their intentions is a necessary ingredient to 
significantly improve the chances of predicting and identifying 
the next attack.
    A challenge for achieving this kind of information sharing 
is cooperation, and much of the public is simply not 
comfortable with the idea of mass Government surveillance. 
Specific attitudes towards this issue are nuanced and complex, 
but the Pew Research Center reported 65 percent of U.S. adults 
believe that there are not adequate limits on the internet data 
that the Government collects. Frankly, even the most well-
meaning proposals to increase information sharing between the 
Government and the private sector come across to some as 
something out of Orwell's ``1984.''
    Public debate and discussion of how to balance the needs of 
security and privacy is a critical step. Information sharing is 
one perpetual need. A second is to achieve unity of effort 
across the U.S. Government, where different agencies and 
different organizations have different cyber responsibilities. 
Cyber defense requires a coherent response and the bureaucratic 
swim lines don't always contribute to synergy for that goal.
    Ultimately, perhaps ideally what is needed is the ability 
to track cyber intruders, criminals, and other hostile actors 
with the same freedom of maneuver and speed these adversaries 
enjoy in cyber space today. Achieving this goal will required 
sustained, long-term efforts to develop policy and technology.
    At present, many ideas for using technology to improve 
cybersecurity, such as pooling and mining vast stores of data, 
alarm all of us who believe in a right to privacy from 
Government intrusion, and perhaps new authorities will be 
required to make this happen. There also needs to be 
appreciation that everyone has a role to play in improving 
cybersecurity--the U.S. Government, developers and purveyors of 
internet-connected software and hardware, and individual 
consumers.
    In conclusion, there is no simple solution to the threat 
posed by adversaries in cyber space, but one critical challenge 
that must be overcome is to determine how to protect the 
cybersecurity of a democratic society that demands both freedom 
and privacy in its use of computer systems and networks from 
the threats posed by enemies who respect no boundaries, who can 
act largely with impunity, and despite National and 
international norms and legal frameworks.
    The ideas for commissions to discuss security and privacy 
are forward-thinking proposals, being put forth both by 
Congress and by the President, and I look forward to learning 
more about the details of these efforts.
    Regarding current events, it is fair to say that today's 
debate about whether device-makers should be required to build 
backdoors into operating systems so law enforcement can collect 
data has jump-started this much-needed discussion. This kind of 
public debate is a good thing.
    Thank you for your time, and I am happy to answer 
questions.
    [The prepared statement of Dr. Porche follows:]
           Prepared Statement of Isaac R. Porche, III\1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT453.html.
---------------------------------------------------------------------------
                           February 25, 2016
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
subcommittee, thank you for inviting me to address important emerging 
concerns related to cyber space and cybersecurity. Specifically, I will 
discuss how cyber space continues to change, expand, and remain 
inherently vulnerable. I will discuss both the kind of information 
sharing that is needed to help defend cyber space proactively and how 
the public's privacy concerns affect that very information sharing. 
Finally, I will mention the needed next steps, including more 
discussion of the need to balance security and privacy, potential 
technological approaches, and the potential need for future 
legislation.
                              introduction
    Since the creation of the ARPANet--the internet's predecessor--
kaleidoscopic change has been the single constant of the information 
environment. What started out as a relatively wonky communications tool 
for a smallish group of engineers, scientists, and computer experts is 
now a global information infrastructure: ``a world-wide broadcasting 
capability, a mechanism for information dissemination, and a medium for 
collaboration and interaction between individuals and their computers 
without regard for geographic location.''\3\
---------------------------------------------------------------------------
    \3\ Barry M. Leiner, Vinton G. Cerf, David D. Clark, Robert E. 
Kahn, Leonard Kleinrock, Daniel C. Lynch, Jon Postel, Larry G. Roberts, 
and Stephen Wolff, ``Brief History of the Internet,'' 
InternetSociety.org, undated.
---------------------------------------------------------------------------
    Today, it is useful to think of the information environment as two 
partially intersecting areas: Social networks and cyber space (Figure 
1). Social networks are the webs of interactions and relationships 
among individuals. They are continuing to grow in size, relevance, and 
influence, affecting not only how we communicate with one another but 
if and how we find employment, housing, and romantic relationships; but 
social networks are also influencing the evolution of modern conflict. 
The so-called Islamic State, for example, has successfully used the 
social-networking platform Twitter to persuade distant potential 
recruits to literally--physically--mobilize.

``Cyber space is the technical foundation on which the world relies to 
interact, exchange information, conduct business, and so on. It is, 
according to the Joint Chiefs of Staff, a global domain within the 
information environment consisting of the interdependent networks of 
information technology infrastructures and resident data, including the 
internet, telecommunications networks, computer systems, and embedded 
processors and controllers.''\4\
---------------------------------------------------------------------------
    \4\ Joint Chiefs of Staff, Cyberspace Operations, Joint Publication 
3-12R, February 5, 2013.

    Cyber space is both a global domain and a global commons whose 
reach is being constantly expanded not only by wired and wireless 
connections, but by sneaker-netted connectors that close all air 
gaps.\5\ Everything from home thermostats to the critical 
infrastructure that is vital to daily life--water, power, 
manufacturing, etc.--is within its reach. It is ``shared by all'' and 
currently dominated by none. Eventually, controlling cyber space (and 
the intersecting electromagnetic spectrum) could be tantamount to 
controlling the information environment.
---------------------------------------------------------------------------
    \5\ Sneakernet is an informal term that describes using physical 
media (e.g., thumb drives, CDs) rather than a computer network to move 
electronic information from one computer to another. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The rapid pace of change makes it difficult for even nimble 
corporations to keep up with emerging threats and to close newly-
discovered vulnerabilities, and the challenge for the U.S. Government 
is even greater. Governmental controls and processes make rapidly 
acquiring materiel difficult, and it is also difficult to make rapid 
changes in personnel structure. Thus, keeping up with major changes, 
such as the merging of the wired and wireless worlds, poses formidable 
challenges to all.\6\
---------------------------------------------------------------------------
    \6\ Most of the language and analysis in this section is drawn from 
Porche et al., 2013.
---------------------------------------------------------------------------
                       two trends in cyber space
    For a moment, think of cyber space as a balloon that's constantly 
being filled with more and more air. As the balloon gets bigger, the 
amount of surface area that is vulnerable to a pinprick increases, the 
skin of the balloon stretches and gets thinner, and the volume of air 
trapped inside grows. I use the balloon metaphor to help illustrate 
three key points about today's cybersecurity environment:
  <bullet> First, like the surface of the balloon, the ``attack surface 
        area'' of cyber space is expanding every day as more and more 
        devices are brought on-line. Some estimate that, right now, 
        there are billions of internet-connected devices--a number that 
        could surpass a trillion in just 10 years.\7\ Each smartphone, 
        computer, tablet, television, refrigerator, and ``intelligent'' 
        vehicle is a potential cyber target.
---------------------------------------------------------------------------
    \7\ Estimates vary. In 2014, Gartner, Inc., forecasted that 6.4 
billion internet-connected devices would be in use world-wide in 2016, 
and that 20.8 billion would be in use by 2020. ``In 2016,'' Gartner 
predicted, ``5.5 million new things will get connected every day'' 
(``Gartner Says 4.9 Billion Connected `Things' Will Be in Use in 
2015,'' Gartner.com, press release, November 11, 2014). In 2015, 
Business Insider estimated that 10 billion devices were connected 
world-wide and that 34 billion will be connected by 2020 (Jonathan 
Camhi, ``BI Intelligence Projects 34 Billion Devices Will Be Connected 
by 2020,'' BusinessInsider.com, November 6, 2015). In 2015, Juniper 
Research suggested that the number of internet-connected devices will 
reach 38.5 billion in 2020 (`` `Internet of Things' Connected Devices 
to Almost Triple to Over 38 Billion Units by 2020,'' 
JuniperResearch.com, press release, July 28, 2015). According to the 
2016 Georgia Tech Emerging Cyber Threats Report, there could be a 
trillion devices by 2025 (Institute for Information Security and 
Privacy, Emerging Cyber Threats Report 2016, Georgia Institute of 
Technology, 2015).
---------------------------------------------------------------------------
  <bullet> Second, like the skin of the balloon, cybersecurity 
        resources--which are already stretched thin--must try to keep 
        pace with increasing complexity as new devices come to market 
        and become interconnected. For example, if you upgrade your old 
        home security system to a new one that connects to your 
        smartphone, you have complicated the task of protecting your 
        home by introducing several cyber vulnerabilities.
  <bullet> Third, like the air inside the balloon, the amount and type 
        of data we are all actively and passively uploading to the 
        Internet is constantly expanding. One popular traffic app for 
        smartphones constantly monitors your location, even when you 
        are not using the app. You have to actively turn this feature 
        off if you do not want your phone to share your location with 
        the app--and with the app's partners--every single minute. The 
        entire ``digital universe'' is already billions of terabytes 
        and constantly growing. Estimates of the annual growth of this 
        universe vary, but the increases appear to be exponential (see 
        Figure 2).\8\
---------------------------------------------------------------------------
    \8\ The estimates and projections in the section are drawn from 
Isaac R. Porche III, Bradley Wilson, Erin-Elizabeth Johnson, Shane 
Tierney, and Evan Saltzman, Data Flood: Helping the Navy Address the 
Rising Tide of Sensor Information, Santa Monica, Calif.: RAND 
Corporation, RR-315-NAVY, 2014. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    So, cyber space is expanding, becoming increasingly vulnerable, and 
hosting increasingly vast amounts of (sometimes critical) data. That's 
the first trend. The second trend is that the number of bad actors 
seeking to exploit cyber space for criminal or malicious purposes is 
growing too: ``Since the mid-2000s,'' RAND Corporation experts warn, 
``the hacking community has been steadily growing and maturing.''\9\ In 
2014, more than a billion personal data records were compromised by 
cyber attacks--a 78 percent ``surge'' in the number of personal data 
records compromised compared with 2013.\10\
---------------------------------------------------------------------------
    \9\ Lillian Ablon, Martin C. Libicki, and Andrea A. Golay, Markets 
for Cybercrime Tools and Stolen Data: Hackers' Bazaar, Santa Monica, 
Calif.: RAND Corporation, RR-610-JNI, 2014.
    \10\ Arjun Kharpal, ``Year of the Hack? A Billion Records 
Compromised in 2014,'' CNBC.com, February 12, 2015.
---------------------------------------------------------------------------
    Considerable numbers of people and organizations--including highly 
organized groups with cartel, terrorist, or even nation-state 
connections\11\--are constantly trying to prick the balloon, and pins 
are a dime a dozen. Tools for bad actors in cyber space are, quite 
literally, commodities:
---------------------------------------------------------------------------
    \11\ Ablon, Libicki, and Golay, 2014.
---------------------------------------------------------------------------
    They can be--and are being--bought and sold. For example, cyber 
criminals have sold login credentials for Facebook in bulk,\12\ even as 
more and more sites are encouraging users to log in using their 
Facebook accounts. Training in malicious hacking can be acquired easily 
and for free on-line on sites you probably visit a few times a week, 
like YouTube. Experts agree that the coming years will bring more 
activity in so-called darknets, and more use of crypto-currencies; that 
the ability to stage cyber attacks will continue to outpace the ability 
to defend against them;\13\ and that there will be more hacking for 
hire.\14\ Furthermore, a body of research is emerging called automatic 
exploit generation (AEG) that seeks algorithms that automatically 
generate large quantities of exploitable bugs.\15\
---------------------------------------------------------------------------
    \12\ Amit Klein, ``Fraudsters Selling Login Credentials for 
Facebook, Twitter in Bulk,'' SecurityIntelligence.com, February 8, 
2012.
    \13\ This is a viewpoint echoed by former Deputy Secretary of 
Defense William Lynn in Foreign Affairs: ``In cyber space, the offense 
has the upper hand . . . [T]he U.S. Government's ability to defend its 
networks always lags behind its adversaries' ability to exploit U.S. 
networks' weaknesses . . . In an offense-dominant environment, a 
fortress mentality will not work. (William J. Lynn III, ``Defending a 
New Domain: The Pentagon's Cyberstrategy,'' Foreign Affairs, September/
October 2010.)
    \14\ Ablon, Libicki, and Golay, 2014.
    \15\ According to Matthew Ruffell's overview of AEG (Matthew 
Ruffell, ``Applying Bytecode Level Automatic Exploit Generation to 
Embedded Systems,'' Christchurch, New Zealand: University of 
Canterbury, October 16, 2015), Brumley et al. discovered in 2008 that 
it was possible to automatically generate an exploit by analyzing a 
vulnerable binary program and the patched binary program by comparing 
the two and pinpointing what code had been changed and ultimately 
output an exploit. See David Brumley, Pongsin Poosankam, Dawn Song, and 
Jiang Zheng, ``Automatic Patch-Based Exploit Generation Is Possible: 
Techniques and Implications,'' IEEE Symposium on Security and Privacy, 
2008, May 18-22, 2008, pp. 143-157.
---------------------------------------------------------------------------
              why these trends in cyber space will persist
    A number of factors guarantee that cyber space will continue to 
expand, continue to become increasingly vulnerable, and continue to 
host increasingly vast amounts of (sometimes critical) data:
  <bullet> the shift to digitized information (e.g., voice, video, and 
        data)
  <bullet> the miniaturization of computing and data-storage devices 
        that carry digitized information, coupled with low costs, which 
        has fostered an explosion of increasingly networked digital 
        devices
  <bullet> continued growth in wired and wireless networks and 
        electronic systems, which make it possible to access, via the 
        internet, systems that used to be isolated (i.e., off-line)
  <bullet> the accelerating deployment of digital control systems that 
        operate physical systems, from cars to aircraft, from home 
        thermostats to the power grid, and so on
  <bullet> the increasing popularity of on-line media and social 
        networking, which, according to one study, has led some people 
        to spend more time each day on a phone or laptop (an average of 
        8 hours and 41 minutes) than sleeping\16\
---------------------------------------------------------------------------
    \16\ Madlen Davies, ``Average Person Now Spends More Time on Their 
Phone and Laptop than Sleeping, Study Claims,'' DailyMail.co.uk, March 
11, 2015.
---------------------------------------------------------------------------
  <bullet> the combined decrease in cost, increase in speed, and 
        standardization of interoperating electronic systems, which not 
        only make these systems more accessible to anyone but also 
        increase the potential for exploitation.
    These and other trends enable any government or state to use 
capabilities that were once available only to developed countries with 
large defense budgets, although it should be noted that these 
capabilities simultaneously increase the exposure of those countries. 
Additionally, individuals who were previously considered noncombatants 
can now join the battle and wage silent, electronic war. Finally, as 
information systems become ubiquitous, our reliance on them increases 
apace. Today's modern economic, political, and military systems depend 
more than ever on information and instructions generated in cyber space 
nodes and transmitted across a vast network. Such reliance invites 
conflict and exploitation.
options to address the emerging landscape in cyber space and obstacles 
                          to implementing them
    So, who do we have working on building a tougher skin for the 
balloon, taking pins off the market, and tracking down and stopping 
would-be pin-prickers? We have good guys: Cybersecurity professionals, 
``white hat'' hackers, and other individuals who are identifying and 
patching vulnerabilities and who are trying to take down the bad 
actors. However, at the moment, in the U.S. Government, there simply 
are not enough of these good guys to go around.\17\ Educating, 
recruiting, training, and hiring cybersecurity professionals takes 
time, and the most-capable professionals--the elite commercial ``cyber 
ninjas''--can command salaries that the Government simply cannot 
match.\18\
---------------------------------------------------------------------------
    \17\ Joe Davidson, ``Lack of Digital Talent Adds to Cybersecurity 
Problems,'' Washington Post, July 19, 2015.
    \18\ Martin C. Libicki, David Senty, and Julia Pollak, Hackers 
Wanted: An Examination of the Cybersecurity Labor Market, Santa Monica, 
Calif.: RAND Corporation, RR-430, 2014.
---------------------------------------------------------------------------
    Aside from hiring more good guys, what are our options for 
improving cybersecurity? One of the best options is improving 
information sharing and cooperation between and among Government 
entities and the private sector. The Cybersecurity Information Sharing 
Act of 2015, which contains elements to help facilitate information 
sharing, is one effort that could stimulate the kind of information 
sharing that is needed.\19\ Why is sharing of discovered 
vulnerabilities, defense measures, and best practices so important? 
Because bad actors benefit from slow identification and slow mitigation 
of a threat.\20\ Given the time taken to identify a malicious intrusion 
and determine its extent, which is usually measured in months, the bad 
actors are long gone, along with your data.\21\ If Government entities 
and the private sector were sharing information quickly and often, they 
have a better chance of being able to anticipate and prepare for an 
eventual attack. So, beyond just identifying and responding to attacks 
more quickly, threats have to be anticipated and the behavior of threat 
actors known. Intelligence on threat actors and their intentions is a 
necessary ingredient to significantly improve the chances of predicting 
and identifying the next act.
---------------------------------------------------------------------------
    \19\ This includes sharing of knowledge about cybersecurity threats 
(including vulnerabilities), indicators of cybersecurity threats (e.g., 
malicious reconnaissance), and sharing of defensive measures and best 
practices.
    \20\ Many attacks come after the announcement of a vulnerability 
and release of a patch: ``When software vendors announce and ship 
patches, hackers analyze the patches and can often develop exploits for 
the problem faster than companies can install the patch'' (James A. 
Lewis, Raising the Bar for Cybersecurity, Washington, DC: Center for 
Strategic and International Studies, February 12, 2013).
    \21\ According Mandiant's 2015 threat report, A View from the Front 
Lines, the median duration that threat groups were present on a 
victim's network before detection was 205 days.
---------------------------------------------------------------------------
    Unfortunately, several factors make this kind of information 
sharing and cooperation a lot easier to talk about than to actually 
implement. First is the fact that cyber space is largely a private-
sector construct, subject to private-sector concerns. Working against 
the pursuit of perfect (or even good-enough) security is the need to 
get software and hardware to the market quickly, at a competitive 
price, and with all the innovative features none of us yet know that we 
absolutely cannot live without. As of June 2015, developers were 
submitting more than 1,000 apps to Apple every day for evaluation.\22\ 
At that kind of volume, Apple cannot be expected to validate that every 
single app it approves is perfectly secure--no matter how it is used, 
no matter what other apps the user runs, and whether those apps are 
updated as needed. The result is a sprawling universe of software and 
hardware, some of which is, as the 2016 National threat assessment put 
it, ``designed and fielded with minimal security requirements and 
testing . . . [such that they] could lead to widespread vulnerabilities 
in civilian infrastructure and [U.S. Government] systems.''\23\
---------------------------------------------------------------------------
    \22\ Jerin Matthew, ``Apple App Store Growing by Over 1,000 Apps 
per Day,'' IBITimes.co.uk, June 6, 2015.
    \23\ James R. Clapper, Director of National Intelligence, 
``Statement for the Record: Worldwide Threat Assessment of the U.S. 
Intelligence Community,'' presented to the Senate Armed Services 
Committee, February 9, 2016.
---------------------------------------------------------------------------
    The second obstacle to this kind of information sharing and 
cooperation is that most of the U.S. public is simply not comfortable 
with the idea of mass Government surveillance. Specific attitudes 
toward this issue are nuanced and complex, but the Pew Research Center 
reported that, in 2015, 65 percent of U.S. adults believed that ``there 
are not adequate limits on the telephone and internet data that the 
government collects.''\24\ Frankly, even the most well-meaning 
proposals to increase information sharing between the Government and 
the private sector can feel like something out of George Orwell's 1984.
---------------------------------------------------------------------------
    \24\ Mary Madden and Lee Rainie, ``Americans' Attitudes About 
Privacy, Security, and Surveillance,'' PewInternet.org, May 20, 2015.
---------------------------------------------------------------------------
    However, despite private-sector imperatives and public concerns 
about a ``Big Brother'' nation, there are real, serious threats to, 
from, and in cyber space: Threats to American citizens, American 
businesses, and critical National infrastructure. It will be 
increasingly difficult for the U.S. Government, along with State and 
local agencies--including law enforcement--to pursue and prosecute 
cyber criminals and other nefarious actors without some kind of 
continued information sharing and cooperation that has occurred 
routinely in the past. The likely court fight emerging now between the 
Federal Bureau of Investigation and Apple over unlocking the phone of 
one of the San Bernardino attackers is a timely example. It is 
worrisome to privacy advocates that are concerned that this is a ``test 
case for the general principle that [the Government] should be able to 
compel tech companies to assist in police investigations.''\25\
---------------------------------------------------------------------------
    \25\ Ben Adida, ``On Apple and the FBI,'' Benlog.com blog post, 
February 18, 2016.
---------------------------------------------------------------------------
         bureaucratic and legal issues that can hamper defense
    Defending against sophisticated attacks against critical 
infrastructure (such as Stuxnet, a computer ``worm'' allegedly designed 
to sabotage Iran's nuclear program) requires excellent capabilities 
marshaled into a coherent and coordinated response. The United States 
has plenty of the former but, in my view, has difficulty conducting the 
latter. Responsibilities can overlap or conflict. For example, stealing 
financial information is a crime, and the Federal Bureau of 
Investigation is charged with dealing with such criminal activity. 
However, the Department of Homeland Security has a mandate to protect 
the civilian agencies of the Federal Executive branch and to lead the 
protection of critical cyber space.\26\
---------------------------------------------------------------------------
    \26\ Further, the Defense Department has responsibility for 
defending U.S. National interests against cyber attacks of 
``significant consequence.''
---------------------------------------------------------------------------
    Good intelligence has always been a prerequisite to good defense, 
but many attacks come from overseas locations. Therefore, efforts to 
garner intelligence outside the United States would involve the 
agencies authorized to do so. Many regard the National Security Agency 
as the most capable Government entity when it comes to analyzing and 
defending against cyber attacks. But legal limits constrain what the 
U.S. Department of Defense and intelligence community can do. Much 
illicit activity masks itself in emails, but privacy laws preclude how 
much the Government can monitor such transmissions.
    None of this is to say that these carefully defined limitations 
cannot be overcome. Indeed, a number of proposed pieces of legislation 
attempt to deal with them. However, the challenge is great and is 
compounded by the speed needed to respond to increasingly sophisticated 
threats. Worms can be scrubbed from systems if its administrators know 
the systems have been breached. But they need to act within the window 
of opportunity, whether that is days, weeks, or months. Otherwise, the 
worm will have done its damage and then erased itself.\27\
---------------------------------------------------------------------------
    \27\ The language and analysis in this section is drawn from Isaac 
R. Porche, Jerry M. Sollinger and Shawn McKay, A Cyberworm that Knows 
No Boundaries, Santa Monica, Calif.: RAND Corporation, OP-342-OSD, 
2011.
---------------------------------------------------------------------------
                             the way ahead
    To better prepare to mitigate the emerging threats and improve the 
cybersecurity of this country, two overarching goals should be pursued 
continuously:
  <bullet> First, enable substantially better information sharing and 
        collaboration among key departments and agencies (Department of 
        Justice, Department of Homeland Security, Department of 
        Defense, and Office of the Director of National Intelligence) 
        and the private sector. The Cybersecurity Information Sharing 
        Act of 2015 was a needed, but small and careful, step toward 
        this goal, in part because it encourages the private sector 
        (via liability protections) and U.S. Government to share 
        knowledge of cybersecurity threats, including Classified 
        vulnerabilities, best practices, and defensive measures. This 
        law could better enable the community to anticipate attacks and 
        have a more proactive defense posture.
  <bullet> Second, achieve unity of effort across the U.S. Government. 
        Today, different Government agencies have different cyber 
        responsibilities. This makes perfect sense in many ways, 
        because different agencies have different capabilities, so they 
        should be tasked to do what they are good at doing. The trick 
        is to harness all the capabilities to a common end, and therein 
        lies the problem. Cyber defense requires a coherent response, 
        and the bureaucratic responsibilities as currently articulated 
        hinder progress toward that goal. President Obama's appointment 
        of a Chief Information Security Officer for the country--part 
        of his newly-announced Cybersecurity National Action Plan\28\--
        is another careful small step toward some needs.\29\
---------------------------------------------------------------------------
    \28\ 28 The White House, Office of the Press Secretary, ``Fact 
Sheet: Cybersecurity National Action Plan,'' February 9, 2016. A 
related news article noted that ``the Obama administration is creating 
a new high-level federal official to coordinate cybersecurity across 
civilian agencies and to work with military and intelligence 
counterparts, as part of its 2017 budget proposal announced Tuesday'' 
(Tami Abdollah, ``Obama Administration Plans New High-Level Cyber 
Official,'' ABCNews.com, February 9, 2016).
    \29\ For example, Government information technology modernization.
---------------------------------------------------------------------------
    Ultimately, perhaps ideally, what is needed is the ability to track 
cyber intruders, criminals, and other hostile actors in cyber space 
with the same freedom of maneuver (and speed) these adversaries enjoy. 
Achieving this goal will require a sustained, long-term effort. New 
authorities will be required, along with substantial revisions to the 
U.S. Code (a daunting challenge). Public debate will be lively. Indeed, 
I have long argued that public debate is a critical first step:

``Government intrusion into private affairs, even for reasons of the 
common defense, evokes an emotional response . . . A first step 
requires an honest, public debate [that] calls into question the very 
firewalls between public and private sectors that are intrinsic to 
democracy.''\30\
---------------------------------------------------------------------------
    \30\ Isaac Porche, ``Stuxnet Is the World's Problem,'' Bulletin of 
the Atomic Scientists, December 19, 2010.

    Furthermore, what is needed is a discussion of how to best balance 
the need for security and privacy. There are many ways to facilitate 
this kind of discussion, and the proposal put forth by Full Committee 
Chairman Michael McCaul and Senator Mark Warner is one way to move 
forward, though there could be others.
    It is fair say that today's debate about whether device makers 
should be required to build ``back doors'' into operating systems so 
law enforcement and intelligence agencies can collect data has jump-
started this much-needed discussion. This is a good thing.
    In the short term, the next steps are multipronged. Congress needs 
to continue to develop strong, smart policies and laws designed to 
improve cybersecurity--laws like the Cybersecurity Information Sharing 
Act of 2015. Although there is an immediate need for such policies and 
laws, Congress would be well-advised to incrementally design these 
policies and laws, and communicate them to the public, to earn the 
public's confidence in the Government's ability and intentions. 
Specifically, the public must be convinced that the Government's 
information needs are balanced with individuals' desire for privacy. At 
present, many ideas for, and approaches to, using technology to improve 
cybersecurity--such as pooling and mining vast stores of data--alarm 
those who believe in a right to privacy from Government intrusion.\31\
---------------------------------------------------------------------------
    \31\ For example, big data analytics in support of cybersecurity.
---------------------------------------------------------------------------
    There also needs to be appreciation that everyone has a role to 
play in improving cybersecurity:
  <bullet> The U.S. Government should continue to facilitate and 
        encourage information sharing and cooperation between and among 
        Government entities and the private sector to protect citizens, 
        businesses, and critical infrastructure against cyber threats. 
        Department of Homeland Security Secretary Jeh Johnson has just 
        recently announced preliminary guidance for information sharing 
        between the private sector and the U.S. Government.\32\ 
        Eventually, the U.S. Government should also find ways to 
        exploit all forms of data and intelligence to identify and 
        anticipate both threats and bad actors, without unacceptably 
        infringing on individuals' desire for privacy.
---------------------------------------------------------------------------
    \32\ Aaron Boyd, ``DHS Releases Initial Guidelines for Cyber Threat 
Info-Sharing,'' FederalTimes.com, February 17, 2016.
---------------------------------------------------------------------------
  <bullet> Developers and purveyors of internet-connected software and 
        hardware--including large corporations, individual app 
        developers, and everyone in between--need to be equipped to 
        understand the security impacts of their work.\33\ Today, a 
        software developer does not need to have a degree, or any 
        formal training, or any license whatsoever to write programs 
        that control our infrastructure. There are few, if any, 
        engineering fields that find themselves in a similar 
        predicament. For example, the design of a drawbridge requires 
        the oversight and approval of a licensed civil engineer, 
        whereas anyone, in theory, can design the software that 
        controls that bridge. Cybersecurity is everyone's 
        responsibility, from the chief information security officer to 
        the individual app developer.\34\
---------------------------------------------------------------------------
    \33\ Threats and vulnerabilities can originate anywhere, including 
the usual suspects (e.g., known hackers) or even well-intentioned 
amateur code writers. A malicious hacker with a laptop and a seat in an 
internet cafe has everything needed to launch an attack in cyber space. 
Alternatively, a well-intentioned but naive ``app writer'' can 
accidentally propagate a useful utility that unlocks backdoor access.
    \34\ Many technology companies insist that they have to train all 
new employees, whether hired with a degree or not, on techniques for 
secure development. There is a gap in our educational system at all 
levels.
---------------------------------------------------------------------------
  <bullet> Individual consumers should do more to protect their 
        software, hardware, and private information. Simply put, most 
        of us are either too busy or insufficiently educated (likely 
        both) to spend our days and nights patching every device in the 
        home. We often keep old and impossible-to-secure devices and 
        computers up and running. As the President's Cybersecurity 
        National Action Plan notes, there is too much old, outdated 
        equipment on-line today, which makes for easily targeted entry 
        points and ``botnet soldiers.''\35\
---------------------------------------------------------------------------
    \35\ The White House, Office of the Press Secretary, 2016.
---------------------------------------------------------------------------
    There is no simple solution to the threat posed by adversaries in 
cyber space. However, one critical challenge that must be overcome--
soon--is determining how to protect the cybersecurity of a democratic 
society that demands both freedom and privacy in its use of computer 
systems and networks from the threat posed by enemies who respect no 
boundaries and can act largely with impunity, despite National and 
international norms and legal frameworks.
    Thank you for your time and I am happy to answer any questions.

    Mr. Ratcliffe. Thank you, Dr. Porche. I now recognize the 
gentleman from Pennsylvania, Mr. Marino, for 5 minutes of 
questions.
    Mr. Marino. Thank you, Chairman. Good afternoon, and thank 
you all for being here.
    I am going to ask a couple questions that I would like each 
of you to respond to, so maybe we could start with Mr. 
Cilluffo, please. I am constantly doing town hall meetings and 
meet with businesses and even individuals, and I am amazed at 
the number of people in corporations that really do not 
understand what can happen to their personal computers, to 
their business operations, and so forth.
    So we need to somehow ramp up the ability to educate the 
public. How do we do that?
    Mr. Cilluffo. Congressman Marino, that is an excellent 
question, and I think it is one we are all struggling with 
here. But unfortunately, I think there are enough recent 
incidents where--shame on us if we keep hitting that snooze 
button, whether it is the Hollywood Presbyterian example--this 
is an example where you had individuals' medical records locked 
up, and it actually had actual operational effect on the OR and 
the emergency room of the hospital. It had real impact.
    The cyber attack in the Ukraine on the grid, this 
actually--people didn't have power. So these are no longer 
zeros and ones that are invisible to average citizens, but we 
are starting to see that cyber attacks affect not only the 
cyber domain, but the physical domain and the physical world.
    That said, right now, intellectual property theft is 
probably the most rampant concern that we all have. Businesses 
realize that. Unfortunately in your own State, some realize 
that when it was too late.
    Mr. Marino. Okay. Ms. Kolde, how do we educate people?
    Ms. Kolde. Thank you. I think that the education needs to 
occur across all levels of education, in terms of cyber 
education, as well as all levels of the business organizational 
infrastructure. I think we need greater awareness among 
individual computer users of the risks of on-line operations, 
doing your banking on-line and so forth, and what you can do to 
protect yourself and your identity and your financial assets.
    From the corporate or the organizational standpoint, there 
needs to be additional education at the business level, the 
management level, of the risks to business. Cyber is one 
additional risk that any corporation faces and should be taken 
into account, along with other operational risks that a 
business must deal with.
    In addition, we need better education across technical 
personnel, those who are charged with managing information 
systems and securing networks, as to both best practices and 
the potential risks that can occur to that organization and 
ways to defend against them.
    Mr. Marino. Okay, I am going to switch now because I only 
have a couple minutes. But wouldn't it be a good idea for every 
laptop, phone, desktop computer that is put out there, that the 
industry can agree on some type of short learning introduction 
on that computer before you start doing anything that someone 
has to read and pay attention to? Just a thought.
    Mr. Bromwich. Yes, actually I was going to answer that kind 
of question, actually, which is I think there is been a big 
focus on--I think on attacks in the news. I think the public 
understands the attacks, but they don't understand at all the 
technologies that they need to have, like multi-factor 
authentication.
    These technologies are actually fairly simple and 
straightforward. They can be made easy to adopt. I think it is 
a matter of the public understanding--telling the public, 
communicating to the public how important it is to adopt these 
technologies.
    I think we can educate consumers on these attacks more, but 
ultimately the technology has to be there to do the protection 
for them. I don't think it is enough to ask a consumer to 
always just be vigilant or, you know, change their password 
frequently. We need to provide them the technologies that make 
this a seamless process.
    Mr. Marino. Dr. Porche, I want to switch to a question that 
shoots off this. What is the Federal Government's ability or 
lack thereof to address, prevent, and/or curtail a cyber attack 
on a large scale?
    Mr. Porche. I think the Federal Government has strengths 
that affect everyone in this country, in that the Federal 
Government has information and resources to gather about what 
the threats are. One of the themes in my testimony was--or at 
least I tried to put forth--is get in front of the threat, 
anticipate what is going to happen. Your success goes up so 
much higher when you have a better idea of what is coming 
around the pike, as opposed to a simple reaction. I don't know 
anybody else who can help with that concept.
    Also as came out in the CISA 2015 bill, sort of a 
clearinghouse that DHS can play in gathering all the 
information that can be spread out. I mean, no one has the 
power to gather the information more than the Federal 
Government, and no one is in a position to have to protect it 
more carefully because of the power of the Federal Government. 
So it is a good balancing act. But the resources of the Federal 
Government to gather information are incredible.
    Mr. Marino. Thank you. I yield back.
    Mr. Ratcliffe. I thank the gentleman. The Chair now 
recognizes the Ranking Minority Member of the subcommittee, Mr. 
Richmond, for his questions.
    Mr. Richmond. Thank you. I would address it to Dr. Porche, 
and if any other Members want to comment on it, that is fine. 
Dr. Porche, you know that my district probably in terms of 
critical infrastructure, we have 3 major sea ports, we have 
probably the largest petrochemical footprint of any district in 
the country, we have major cross-country pipelines, and then we 
have major interstate and rail, and with all different owners 
and players that control each.
    So I guess the question is, what are some of the unique 
cybersecurity challenges that critical infrastructure owners 
and operators face? Are there any particular emerging cyber 
threats that are unique to critical infrastructure?
    Mr. Porche. Yes, sir, thank you. Growing up in Baton Rouge, 
down the street from the Exxon refinery plant, I am intimately 
aware of the critical infrastructure and what can happen there.
    There are some unique things about critical infrastructure. 
For one, although it is not a popular target for people trying 
to make a profit, that is good and bad, because the flipside is 
that the people who--the adversaries who are interested in 
potentially targeting critical infrastructure could potentially 
be more sophisticated adversaries.
    So critical infrastructure today might have to deal with a 
more sophisticated threat than, let's say, a hardware store 
might have to, although the impact could be the same in terms 
of what could happen.
    The other issue with critical infrastructure is, you know, 
there could be vulnerabilities planted or just designed in that 
exist for years before they are noticed. Critical 
infrastructure may employ things like programmable logic 
controllers and older equipment that is not the latest PC, and 
so now you are dealing with a different way to protect 
different types of information technology.
    So awareness of what is going on in that critical 
infrastructure is vital. Understanding what is normal and what 
is abnormal is critical and help, because the critical 
infrastructure needs to be protected from potentially skillful 
adversaries who have resources.
    Mr. Richmond. Anyone want to comment or----
    Mr. Bromwich. Yes, I would just say that the protection 
that critical infrastructure needs is slightly different from 
what a typically enterprise would need, and so it actually 
raises the bar for critical infrastructure. They have to be a 
lot more educated and knowledgeable about the technology. 
Today, they are taking common Windows computers and using them 
for really important tasks, when they could be really narrowing 
down the technology they use and reducing the attack surface. 
So that is an important consideration for critical 
infrastructure.
    Mr. Cilluffo. Mr. Richmond, a couple of other quick 
thoughts. I mean, industrial control systems, which are 
agnostic to a particular critical infrastructure, this is an 
area where you are seeing a major spike in activity. The good 
news is, is that the energy sector writ large and the electric 
sector in particular is doing some good work with their 
information-sharing and analysis centers, but they are not as 
far along as, say, the financial services sector is, where you 
have the Financial Services Information-Sharing and Analysis 
Center, the FSISAC, where they are actually sharing information 
in real-time to do patches and the like through tools that are 
referred to as STIX and TAXII that the Department of Homeland 
Security and others have made available to the private sector.
    So I do think that the good news is, is they recognize 
obviously the implications and the impact. The bad news is, is 
the threat vector is expanding, the attack surface is growing, 
and quite honestly, the greatest solution in my eyes will be to 
bake security into the design of the infrastructures itself.
    So the more you can think about this on the front end, 
rather than Lego and attaching security on the back end, would 
be money and time well spent.
    Mr. Richmond. You mentioned that they are not where the 
financial services sector is in terms of information sharing, 
collaboration and all of that. What do you think we need to do 
to get them there? Do you think we have to do it through 
legislation incentives, you know, stick or carrot? I mean, what 
do you think?
    Mr. Cilluffo. I am always for carrots before sticks, so I 
do think there are some innovative approaches we can examine in 
terms of tax incentives and other means in the like. I know 
that is a very difficult and politically charged set of issues, 
but I don't think the regulatory check the box--that is looking 
through rear-view mirrors. It is looking at what we saw 
yesterday.
    The reality is, is the bad guys are thinking ahead, and 
they are learning from our mistakes. They are learning from 
their own mistakes, their own dry runs. They are consistently 
learning and adapting their tactics and techniques.
    So I do think the reason the financial services sector 
stepped up is the old Willie Sutton principle. Why rob banks? 
That is where the money is. They are getting hit. They feel it. 
It hits their bottom line. It impacts confidence and trust.
    Clearly, I think with the energy sector and when you are 
looking at the potential implications from a public safety 
standpoint, that ought to also be at the top of the list. But I 
think first we want to see them come together as an 
organization, and like I said, there has been some real 
momentum. I don't want to take away from that, but not as far 
along as the financial services sector.
    Mr. Richmond. Thank you, and I yield back.
    Mr. Ratcliffe. Thank the gentleman. The Chair now welcomes 
and recognizes the Chairman of the full committee, Mr. McCaul.
    Chairman McCaul. Thank you, Mr. Chairman. I ask unanimous 
consent that my statement be put into the record.
    Mr. Ratcliffe. Without objection, so ordered.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           February 25, 2016
    Our country is under constant attack from adversaries seeking 
access to our critical infrastructure and personal data. They are using 
our own information systems against us. The reality is this: The web 
has become a weapon, and nation states, criminal enterprises, and 
terrorist organizations are acting with increasing sophistication on 
the on-line battlefield. We must understand these cyber threats in 
order to protect our homeland against them.
    Today, we expect to hear about the threats we face in today's cyber 
landscape. But I hope our witnesses will also discuss how America 
should confront them. We cannot stand on the sidelines while faceless 
enemies penetrate our networks. Nor can we afford to fail out of 
negligence or apathy. Our message to cyber assailants should be clear--
America will not retreat; we will defend ourselves.
    I applaud the President's recent Cybersecurity National Action Plan 
for proposing increased attention and resources to combat these 
threats. However, I still have questions about the overall strategy 
guiding these efforts. The administration must release the National 
Cybersecurity Incident Response plan, which is required by law in the 
National Cybersecurity Protection Act of 2014, which I sponsored. The 
administration says the plan will be out this spring, and I urge them 
to get it done.
    The President's recent cyber proposal is an approach I have been 
pushing for us to adopt for more than a decade as a member of the 
Cybersecurity Caucus. I am disappointed, though, that it took until his 
last year in office for the President to release it. In cyber space, we 
know all-too-well that delay can be disastrous. We saw this with the 
OPM breach and the Sony Hack, and I fear that leadership lapses on the 
cyber front will have consequences for years to come.
    I want to thank the witnesses for joining us today. It is 
disconcerting--but important--for us to hear the truth about the 
severity of the cyber challenges we face. We have not kept pace with 
our adversaries. If we want to disrupt their attacks, we must be 
vigilant and keep an eye toward the future. Above all else, our task 
must be to keep the American people safe.

    Chairman McCaul. Thank you. I apologize, I am a little bit 
under the weather, but I find this topic fascinating. I agree, 
Frank, that we have to be in front of this, not trying to catch 
up to it.
    I looked at the OPM breach and the fact that the Chinese 
were in our systems for somewhere--14 months to 2 years before 
we detected that, the fact that according to your testimony, 
you know, that Russia and Chinese actors have probably already 
penetrated our grid systems, that they may be actually sitting 
in the systems, at a point where they could turn it off.
    I think the legislation we passed is helpful with 
information sharing, malicious codes. It will be interesting, 
it is a bit of an experiment to see how well it works. I just 
met with the CIO of JPMorgan about their efforts in the 
financial sector and also being able to share private-to-
private with liability protection.
    But I think that is something that the Congress can do, 
obviously. We have oversight. But I am interested in really, 
what kind of technologies do we see on the horizon? This is 
maybe where FireEye comes in. I got a briefing from FireEye 
yesterday, and iSIGHT. In terms of being able to see these 
threats before they penetrate or, if they do, be able to detect 
aberrant behavior within a network to shut down that actor and 
maybe firewall it off.
    We know Mr. Snowden did great damage as a systems 
administrator. We know the OPM breach involved old credentials 
getting inside of the system, so that aberrant behavior is also 
another threat that I see. But I think, you know, we can pass a 
lot of laws, but I think--I mean, I am interested to hear, what 
kind of technology software systems do you see on the horizon?
    Ms. Kolde. Thank you. I think you have pointed out some 
very good examples, where traditionally in the past much of our 
security infrastructure has focused on protecting the perimeter 
and identifying attacks as they come into the network, or 
signature-based technology that relies on alerting things we 
already know about. So I think as we move forward and we evolve 
in terms to better protect our networks, those technologies 
have to do a couple of things.
    One is to be able to engage detection after the fact. So 
once the attackers are already in your network, as they are 
moving from machine to machine, as they are attempting to 
escalate their privileges within the environment, how do we 
deploy technology that can detect that type of activity when it 
is not necessarily based on a specific signature or a 
previously known piece of malware?
    We also have to enable our security defenders, those people 
who are responsible for modeling those networks, to better be 
able to triage the alerts that are occurring in their 
environment. If you have been a network analysis and you get 
thousands of alerts a day, how do you decide which of those 
alerts are the most worthy of your attention and the most 
important to respond to?
    So context around alert data to help the responders 
prioritize is critical. Information sharing, as well. Some of 
what iSIGHT does is to proactively look at the threat 
landscape. What do we think criminal actors are going to do 
based on the chatter that we are hearing? What do we think that 
nation-states may attempt?
    So getting more of that information out to the people who 
need it, to be a bit more predictive, would also be extremely 
helpful.
    Chairman McCaul. Yes, and in our bill that we passed, we 
have the defense of Federal networks act in there. So you have 
to look at DHS and their ability to protect the dot-gov space, 
that is where I think the private sector really has a lot of 
the solutions.
    I mean, Frank, do you have any comment on that?
    Mr. Cilluffo. Chairman McCaul, I think you raise a number 
of excellent points and clearly the ability to repel bad actors 
when they are in your system has to be part of that solution 
set.
    But let me throw another idea out on the table, and I don't 
know if this is the right time and place. But we have seen 
major improvements in terms of information sharing. Kudos to 
all of you on the dais for moving legislation, as well.
    The reality, though, is we have got to get beyond static 
information sharing. What I think we need to get to is where 
the private sector can drive intelligence requirements that the 
Government can help then glean and collect against.
    So you are never going to get that family jewels, that 
secret sauce document. What you need to be able to do is the 
private sector needs to be able to levy what their specific 
requirements and needs are and then those that have collection 
capabilities to be able to meet those needs. I think that is 
the next level of discussion that we can translate some of the 
good work in terms of legislation into action.
    Chairman McCaul. I appreciate that. I see my time has 
expired.
    Mr. Ratcliffe. Thank the gentleman. The Chair now 
recognizes the--oh, yes?
    Mr. Richmond. Mr. Chairman, I would like to ask unanimous 
consent to enter into the record two letters of comments and 
also the Ranking Member's opening statement.
    Mr. Ratcliffe. Without objection, so ordered.
    [The information follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 25, 2016
    Earlier this Congress, this subcommittee heard from the Federal 
Government in detail the roles that the Department of Homeland Security 
takes in its mission to secure information networks and provide 
resilience, not only to Government systems, but to assist private 
networks and data and protecting the Nation's critical infrastructure.
    On February 16, the Department of Homeland Security along with the 
Department of Justice issued guidelines and procedures required by the 
Cybersecurity Act of 2015. These guidelines provide both the Federal 
Government and the private sector with an understanding of how to share 
cyber threat indicators with the DHS National Cybersecurity and 
Communications Integration Center (NCCIC).
    DHS and DOJ issued a separate guidance for the private sector. 
Today, I would like to hear from our witnesses, their take on the DHS 
and DOJ private-sector guidance. Now that this committee has written 
and passed useful legislation giving the DHS authorities to use and 
share its threat intelligence with private companies, and for companies 
to do the same with Government in return, and DHS has published 
guidelines, it is our responsibility in Congress to oversee the 
realization of a mature risk management process for information 
security, and I hope we will hear some of the risk-based management 
approaches today.
    Given the complexity of emerging threat capabilities, the link 
between physical and cyber domains and the diversity of cyber 
criminals, I would like to hear what challenges the private sector 
faces in working with the Department of Homeland Security.
    For Congress to continue to make effective cybersecurity policy, 
whether it is related to cyber hygiene or infrastructure protection, it 
is our job to understand not only the scope of the problem, but also 
how our public and private sectors work together to enhance security.
    Mr. Chairman, as an aside, for the past few weeks, cyber space 
headlines have been littered with high-profile cases. From the as-yet-
to-be determined cyber-based electric grid problems in Ukraine, to a 
California hospital ransom-ware event . . . in which the hospital did 
not tell anyone about until after they had paid the ransom . . . to the 
encryption dilemma surrounding law enforcement access to some of the 
data on the mobile phone of a home-grown terrorist.
    All of which need careful consideration, investigation, and 
deliberation. I would suggest that to make progress on all of these 
issues, we need to tone down the confrontational speech-making, rather 
than remaining on this argumentative, and adversarial highway.
                                 ______
                                 
     Statement of Tom Patterson, VP/GM Security, Unisys Corporation
                           February 25, 2016
              emerging cyber threats to the united states
    Unisys appreciates the opportunity to contribute to the 
Congressional efforts to mitigate cyber threats to the United States, 
and share our new and advanced concept that we are using to protect 
both governments and businesses around the world. Cyber attacks are 
increasing, and leaders in Government and industry are seeking new 
approaches to protect critical data.
    We all rely on computing and communications systems that are 
critical to financial markets, health care providers, energy producers, 
schools, governments, and business enterprises. It is not just our 
computers that are at risk. Increasingly, cyber attacks jeopardize 
careers, wallets, companies, infrastructure, and even lives. 
Adversaries boldly wield the power to access personal and corporate 
data on-line and take control of systems throughout our interconnected 
world. Recently, we have watched as companies, governments, and 
institutions report system breaches on a nearly weekly basis. It is 
clear that core assumptions and approaches that defined old security 
models are failing.
    Unisys provides hundreds of organizations with support for their 
security requirements for hundreds of organizations. Our clients 
understand that the original approaches to cybersecurity are no longer 
working.
    Unisys is delivering a fresh approach to security to our clients. 
The new approach accounts for modem infrastructure--employees that work 
from home, users that need access to information on mobile devices, 
data that uses the efficiencies of the cloud, and supply chains that 
are integrated and interdependent. The new approach also adapts to 
changes in the adversaries, who are becoming more skilled and more 
motivated.
    Furthermore, we understand that new cybersecurity systems need to 
assume that infiltrations will somehow occur and must provide tools to 
localize, limit, and contain the damage.
    At the core of our new approach is the advanced concept of micro-
segmentation. If segmentation is analogous to a bank vault, micro-
segmentation is akin to the many safe deposit boxes within the vault. 
Micro-segmentation is much more secure and inclusive, and easier to 
implement and manage. It embraces new technologies like clouds, and new 
business models like integrated supply chains, while still supporting 
all the older existing investments. It delivers real results that are 
both cost-effective and resource-efficient. In order to deliver on the 
promise of advanced micro-segmentation, Unisys has developed an award 
winning product--Stealth<SUP>TM</SUP>--that makes it fast and easy to 
protect enterprises around the world more securely.
    Micro-segmentation allows enterprise managers to divide physical 
networks quickly and easily into hundreds or thousands of logical 
micro-networks, or micro-segments. Setting up micro-segments keeps the 
different parts of an organization logically separate, thus lowering 
the intrusion risk. If a breach happens, the intruder can only see one 
segment.
    Micro-segmentation works at the internet packet level, 
cryptographically sealing each packet so that only packets within the 
approved micro-segment are processed. For every packet, the data is 
completely encrypted, and the routing information in the headers is 
cryptographically sealed to ensure only authorized delivery. Users can 
only send and receive packets for a specified group.
    Micro-segmentation is implemented by software, and it therefore 
operates independently from any given network topology or network 
hardware. Organizations have a single security model that works equally 
well in data centers and the public cloud. With micro-segmentation, 
organizations can extend security to the cloud while retaining control 
of data in motion and the keys that secure it. Micro-segmentation 
enables access to the benefits of the cloud--cost savings and network 
flexibility--without sacrificing security. Micro-segmentation can also 
be implemented quickly and easily within virtual machines to defend 
against side-channel attacks and other risks that are specific to cloud 
architectures.
    Micro-segmentation makes it easier to integrate component suppliers 
by providing just the right amount of access. Micro-segmentation can 
also protect legacy systems, allowing organizations to use older 
operating systems while keeping them isolated from newer systems. By 
embracing a new approach to cybersecurity, we can dramatically increase 
the strength of our networks and confront the new threat with new 
tools.
    The benefits to adding micro-segmentation to existing networks--in 
data centers, devices, clouds, and even industrial control systems--are 
many. It lower costs, affords better protection, and changes 
catastrophes into small manageable events. It works on outdated systems 
as well as the most advanced industrial control system, and it does not 
require expensive hardware or armies of security experts to install or 
operate it.
    Unisys is proud to be a leading provider of advanced micro-
segmentation products and services to governments and the private 
sector. White papers, use cases, demos, and greater technical detail 
are available on www.unisys.com/stealth. Thank for you the opportunity 
to provide Unisys's perspective on cybersecurity.
                                 ______
                                 
  Letter From the Society for Maintenance & Reliability Professionals
                                 February 24, 2016.
The Honorable John Ratcliffe,
Chairman, U.S. House Subcommittee on Cybersecurity, Infrastructure 
        Protection, and Security Technologies, 176 Ford House Office 
        Building, Washington, DC 20515.
The Honorable Cedric Richmond,
Ranking Member, U.S. House Subcommittee on Cybersecurity, 
        Infrastructure Protection, and Security Technologies, 117 Ford 
        House Office Building, Washington, DC 20515.
Subject: SMRP Comments on Emerging Cyber Threats to the United States

    Dear Chairman Ratcliffe and Ranking Member Richmond: I am writing 
to provide comments on emerging cyber threats to the United States. The 
Society for Maintenance & Reliability Professionals (SMRP) applauds the 
U.S. House Committee on Homeland Security's decision to hold a 
congressional hearing within its Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies. The maintenance 
and reliability of cybersecurity systems and critical infrastructure is 
essential to the security of our nation. Please accept these comments 
as part of the official record of the subcommittee hearing.
                  i. smrp introduction and background
    SMRP is a professional society formed in 1992 to develop and 
promote excellence in the maintenance, reliability, and physical asset 
management profession. SMRP members consist of engineers, operations 
managers, repair and reliability technicians, worksite and project 
planners, and other service providers. SMRP members are experts in 
specification, design, purchasing, installation, inspection, testing, 
maintaining, decommissioning, and asset disposal.
    Maintenance and reliability jobs are skilled positions that provide 
competitive advantages to the companies that have them. Companies with 
highly trained, certified engineers reap a variety of benefits, 
including lower operations and manufacturing costs, reduced onsite 
injury risks, reduced environmental risks, and increased net profits. 
Nearly every industry sector requires the services of maintenance, 
reliability, and physical asset management personnel, including energy, 
oil and gas, pharmaceuticals, automotive, government and military, 
petrochemical, education, and commercial. Our ranks are made up of 
senior reliability managers from such companies as Cargill, BP, General 
Electric, General Motors, as well as utilities, Government facilities, 
and the organizations that support them.
              ii. maintenance & reliability certifications
Certified Maintenance & Reliability Professional
    With over 4,800 accredited professionals certified by SMRP, the 
Certified Maintenance & Reliability Professional program is the leading 
credentialing program for verifying the knowledge, skills, and 
abilities of maintenance and reliability professionals, regardless of 
education background or work experience. Examining more than just 
textbook information, the Certified Maintenance & Reliability 
Professional examination is a thorough assessment of a broader scope of 
expertise measured against a universal standard. A foundational belief 
in developing this examination is that professionals in the maintenance 
and reliability profession learn critical knowledge, skills, and 
abilities from a variety of sources, both on the job and from outside 
training.
    The Certified Maintenance & Reliability Professional is accredited 
by the American National Standards Institute (ANSI), which follows 
International Organization for Standardization (ISO) standards for its 
accreditation and processes. It was developed to assess professionals' 
aptitude within the 5 pillars of the Maintenance and Reliability Body 
of Knowledge: Business management, equipment reliability, manufacturing 
process reliability, organization and leadership, and work management.
Certified Maintenance & Reliability Technician
    The Certified Maintenance & Reliability Technician program is the 
leading credentialing program for the knowledge, skills, and abilities 
of maintenance and reliability technicians, regardless of education 
background or work experience. Earning the Certified Maintenance & 
Reliability Technician credential indicates that you have achieved a 
level of ability consistent with the requirements for competence on the 
job as a multi-skilled maintenance and reliability technician, 
recognized across all industries in the manufacturing world. A 
foundational belief in developing this examination is that technicians 
in the maintenance and reliability profession learn critical knowledge, 
skills, and abilities from a variety of sources, both on the job and 
from outside training.
    The certification assesses the knowledge and skills of those 
responsible for preventative, predictive, and corrective maintenance, 
who are multi-skilled individuals with a critical role in the success 
of organizations world-wide. The Certified Maintenance & Reliability 
Technician exam tests competency and knowledge of specific tasks within 
4 domains: Maintenance practices, preventative and predictive 
maintenance, troubleshooting and analysis, and corrective maintenance.
                   iii. cyber attack at target stores
    On November 15, 2013, a complex cyber-attack was conducted on 
Target stores through credentials obtained from a third-party HVAC 
service company. Once cyber-criminals acquired access to a beachhead in 
their contractor billing, contract submission, and project management 
system, they were able to use information provided via the portal to 
access Target's credit card terminals. Over the next month, the cyber-
criminals were able to access over 110 million consumer credit cards.
          iv. smrp cybersecurity positions and recommendations
    While a focus on the larger organizations is important for a last 
line of defense, preventing cyber-attacks on small and medium 
organizations that service the larger organizations and critical 
infrastructure should be a primary line of defense. It is SMRP's belief 
that an understanding of the threats through contractors and 
subcontractors, regardless of size, and the development of cyber-
defense processes will further reduce the risk to the economy and 
infrastructure of the United States and our allies.
    SMRP recommends research into the potential threat through the 
first line of defense and the inter-connectivity between companies, 
vendors, contractors, and subcontractors with a goal to establish a 
cyber-defense strategy. This includes the evaluation of cyber-
information and cyber-physical systems as weil as best methods to 
prevent infiltration and damage to the front-line organizations. This 
will have the additional impact of improving the security of small 
business while reducing the number of attacks on larger organizations 
as current business models by all organizations includes contracting 
services.
                     v. summary and recommendations
    The maintenance and reliability of cybersecurity systems and 
critical infrastructure is essential to the security of our nation. We 
need to better understand the threats posed through contractors and 
subcontractors in order to truly reduce the risk to the economy and 
infrastructure. SMRP recommends research into the potential threat 
through the first line of defense and the inter-connectivity between 
companies, vendors, contractors, and subcontractors with a goal to 
establish a cyber-defense strategy.
    Thank you for your consideration and please do not hesitate to 
contact me if you have any questions.
            Sincerely,
                                              John Ferraro,
                                SMRP Government Relations Director.

    Mr. Ratcliffe. The Chair now recognizes the gentlelady from 
Texas, Ms. Jackson Lee, for 5 minutes of questions.
    Ms. Jackson Lee. I thank the Chair very much.
    To the Ranking Member of the subcommittee and, of course, 
the full committee Chairs and Ranking Member, let me speak 
quickly. Some bells have started to ring. I want to just join 
and say I think our committee made a very important step when 
we passed the Cybersecurity Information-Sharing Act of 2015, 
and I take note of the bipartisan work on this committee on 
these issues, even though I think more than a decade ago we 
began to see the unraveling of the issue of cybersecurity and 
the sort of importance of going head on in the private sector 
with 80-plus percent of the cyber world versus the Federal 
Government.
    I think all of us were lagging in the response. So even 
though we have made some steps in the Judiciary Committee--for 
example, today, we were discussing the interests of 
international law enforcement, trying to store data in many of 
our providers. So everywhere there are questions of either 
breaching, because someone wants the information, or breaching 
when someone should not be getting the information.
    Let me cite a very quick example on this issue of 
ransomware. The latest victim, Hollywood Presbyterian, 9,420 
beds, and which was forced to pay 4 bitcoins on-line, $17,000, 
to get access to their own patient and administrative computer 
networks.
    Police departments have fallen victim. So let me ask the 
question, does anywhere know how often ransomware is used to 
get ransom from victims? Are there requirements to report 
ransomware attacks or should there be? Anyone care to comment 
on that?
    Ms. Kolde. We are seeing an increase in the use of 
ransomware, and where initially it seemed to be a fairly 
background noise-level type of attack used by amateur criminals 
largely against individuals, we are now seeing it being used 
against corporations, both in terms of the ransomware itself 
where the data is encrypted and in terms of other types of 
extortion. Basically, the criminals are becoming emboldened.
    If you are an organization, particularly one that may 
provide criminal services or support critical infrastructure, 
you can't afford to not be operational, whether that is due to 
ransomware or due to the fact that someone is threatening to 
wipe data on your computer and destroy your assets.
    So I think that that trend is going to continue. I am not 
aware of any current reporting requirements outside of the 
current regulatory framework, but I don't think that those 
attacks are going to slow down anytime soon.
    Ms. Jackson Lee. Would it be helpful--first of all, you 
know, fact finding and facts are probably part of a cure, may 
not be the total cure. I think it would be helpful for us to be 
aware, policymakers, about these attacks. Would you welcome 
that, at least providing us with that--when I say providing, 
through the regulatory scheme?
    Ms. Kolde. I would prefer to consider the business impact 
of that, as well. But I think that again generalizing the more 
we know about what is going on, the more we are aware of what 
specific things we need to defend against, and how we need to 
promote education around those issues.
    Ms. Jackson Lee. Maybe anyone else, but, Mr. Bromwich, does 
Symantec recommend or use backdoors in their cybersecurity 
products?
    Mr. Bromwich. We most definitely do not. We most definitely 
do not recommend the use of backdoors in really any situation. 
Backdoors compromise security technologies. Backdoors 
compromise the integrity of encryption technologies. We 
strongly believe that those should not be compromised.
    Ms. Jackson Lee. As I ask this question, I want you to 
think of multifactor identification, meaning two methods are 
used to be sure the person giving computer access or who they 
claim they are, that sort of goes the overall question of the 
ransomware and others.
    But let me ask this question that I hope that I can get any 
of you to jump in. The United States critical infrastructure is 
already dependent on our Nation's cyber networks and systems. 
These sectors are also increasingly interdependent, and the 
disruption is obviously massive. What are some of the unique 
cybersecurity challenges critical infrastructure--and that is 
across the gamut, the electric grid, et cetera, that I have 
been looking at--owners and operators face? Are there any 
particularly emerging cyber threats that are unique to the 
critical infrastructure?
    I have some articles that I want to submit into the record 
on the port, but can any of you jump in on any of those that 
you see?
    Ms. Kolde. I think one of the things to keep in mind about 
critical infrastructure is there has been a lot of concern, and 
very relevant concern, about critical infrastructure being 
subjected highly-sophisticated targeted attacks, and that is 
definitely a concern. Those attacks will primarily come from 
very well-resourced threat actors, most likely nation-states.
    But I think it is important to keep in mind that critical 
infrastructure can be impacted by other types of attacks, as 
well. There may be threat groups that are interested in doing 
something opportunistic, where they don't care specifically if 
it is a port, a specific dam, a particular power plant that is 
affected, but they want to make a very public statement that 
they can do this sort of thing.
    So any particular part of critical infrastructure that may 
happen to be vulnerable may be a target to simply something 
like a destructive attack. Like any other organization, those 
types of critical infrastructure organizations are also 
potentially subject to damaging attacks that are simply 
incidental, the wrong virus, the wrong piece of malware that 
gets into the network and shuts down computers, without 
necessarily impacting control systems or infrastructure itself, 
could still put that utility, that financial system out of 
business until they recover.
    So it is important to keep aware of the whole spectrum of 
threats that are potentially impacting those organizations.
    Ms. Jackson Lee. Mr. Chairman, may I submit--I saw Dr. 
Porche, but maybe you can answer in writing--it looked like you 
were on the verge--but in any event, let me ask unanimous 
consent to put into the record ``Nine Major Models of Internet-
Connected Baby Monitors are Extremely Vulnerable to Hacking.'' 
As I looked at Mr. Richmond, he may have an interest in this. I 
know I have 2 twin 8-month-olds, and they are, as they say, 
using new technology.
    So I ask unanimous consent to submit that into the record. 
It makes this hearing very important, Mr. Chairman.
    Mr. Ratcliffe. Without objection.
    [The information follows:]
           Article Submitted by Honorable Sheila Jackson Lee
  Nine major models of Internet-connected baby monitors are extremely 
                         vulnerable to hacking
 security researchers could hack into home-monitoring systems with ease
http://www.consumeraffairs.com/news/nine-major-models-of-internet-
        connected-baby-monitors-are-extremely-vulnerable-to-hacking-
        090315.html
            09/03/2015, ConsumerAffairs, By Jennifer Abel
    Ever since wireless or Internet-connected home baby monitors and 
security systems became commonplace, there have been equally 
commonplace warnings about how easily hackers can break into these 
systems.
    There even exist voyeurism websites dedicated to streaming or 
archiving camera footage from unprotected Internet protocol (IP) 
cameras--almost always without the camera owners' knowledge. Last 
April, for example, a Minnesota family learned this the hard way after 
they discovered that hackers had hijacked the ``nanny cam'' in their 
baby's room--and posted surreptitious baby photos on a foreign website.
    Yet recent research by the Rapid7 cybersecurity firm suggests that 
the majority of home baby monitors on the market today remain extremely 
vulnerable to hack attacks. Rapid7's white-hat hackers were 
successfully able to exploit vulnerabilities in 9 different models of 
baby monitor. Worse yet, many of those vulnerabilities are inherent to 
their systems--meaning that even security-conscious and tech-savvy 
users cannot fix them. Mark Stanislav and Tod Beardsley co-wrote 
Rapid7's report, which is available as a .pdf here.
Increased hacking threat
    Most baby-monitor-hacking stories emphasize the obvious privacy 
threats to the baby and others in the house. But Stanislav and 
Beardsley, in their executive summary, pointed out that the threat 
stretches much farther than that:
    While Rapid7 is not aware of specific campaigns of mass 
exploitation of consumer-grade IoT [Internet of things] devices, this 
paper should serve as an advisory on the growing risk that businesses 
face as their employees accumulate more of these interconnected devices 
on their home networks.
    This is especially relevant today, as employees increasingly blur 
the lines between home networks and business networks through routine 
telecommuting and data storage on cloud resources shared between both 
contexts.
    In other words: any Internet connection, or device with one, has 
the potential to be hacked. And if a hacker successfully breaches 
security for one of your Internet-connected devices, there's a good 
chance he can piggyback from there to breach the security of anything 
else connected to it.
    So let's say a hacker secretly breaches your baby-cam or other 
home-security network. You then use your smartphone to watch camera 
footage while you're out running errands; now the hacker can get into 
your smartphone. And when you use the phone to check your messages at 
work, that gives the hackers access to your corporate network, so your 
personal, private hacking problem might now place the entire company 
you work for at risk.
    Though the risk to your family is bad enough. Just last week, an 
unknown hacker used a breached baby monitor to harass a family in 
Indianapolis.
    Jared Denman said that his wife was playing with their 2-year-old 
daughter when the baby monitor suddenly started playing music: the 
1980s creepy-stalker anthem ``Every Breath You Take,'' by The Police. 
Once the hacker realized he had the mother's attention, he started 
making ``sexual noises'' over the speaker. Turns out the Denmans, like 
many baby-monitor buyers, had made the mistake of not changing the 
system's factory-set username and passwords, which meant anyone who 
knew them could break in.
Monitoring devices fail security test
    Yet even consumers savvy enough to avoid such obvious mistakes 
still can't be certain their privacy is protected when there's a baby 
monitor in the house. When Rapid7 tested 9 different models of baby 
monitors, said Mark Stanislav, ``Eight of the 9 cameras got an F and 
one got a D minus.
    ``Every camera had one hidden account that a consumer can't change 
because it's hard coded or not easily accessible. Whether intended for 
admin or support, it gives an outsider backdoor access to the camera.''
    The tested baby monitors included various models produced by 
Gyonii, Philips, Lens Peek-a-view, Summer Baby Zoom, TRENDnet, 
WiFiBaby, Withing, and iBaby. A chart on page 7 of Rapidis report (page 
9 of the online .pdf) lists the vulnerabilities found in each specific 
model.
    Some security flaws were more glaring than others. The Philips 
In.Sight model, according to Stanislav, streams live video onto the 
Internet without so much as requiring a password or account to protect 
it. With Summer Baby Zoom, the researchers learned, there's no 
authentication process to allow new viewers to see specific camera 
feeds; anyone who wishes to can simply add themselves.
    According to the timelines in Rapidis report, the researchers 
informed various vendors of these security flaws in early July. Yet 
Stanislav said that of all the companies he contacted, Philips was the 
only responsive vendor.
Protect your privacy
    While the vulnerabilities exposed by Rapid7 can't be entirely 
eradicated, there are ways users can reduce the possibility of 
electronic eavesdropping. For example, unencrypted video files or other 
data is most vulnerable to hacking when viewed over a public WiFi 
network, so if you must remotely view unencrypted video, Stanislav 
recommends using a cell phone Internet connection instead.
    Parents should also keep baby monitors unplugged when they're not 
in use, use secure passwords, change them frequently, and make sure the 
device's software is always up-to-date. You might also consider setting 
up a search-engine email alert so that you are notified anytime a news 
story mentioning your model of baby monitor gets published; if new 
security flaws or fixes are announced, that would probably be the 
quickest, easiest way to ensure you hear about it.

    Ms. Jackson Lee. Then finally, what if cybersecurity--this 
article, I am sorry, Consumer Affairs dated 9/3/2015--and then 
``What If A Cybersecurity Attack Shut Down Our Ports?'', 
October 7, 2015, and this is not stopping cargo ships, but 
actually causing the loss of knowing where products are, like 
clothes, electronics, food, and everything. I ask unanimous 
consent to put that into the record. Thank you.
    Mr. Ratcliffe. Without objection.
    [The information follows:]
           Article Submitted by Honorable Sheila Jackson Lee
          What If A Cybersecurity Attack Shut Down Our Ports?
               it's a real, and frightening, possibility
SLATE MAGAZINE, October 7, 2015, by Lily Hay Newman
            http://www.slate.com/articles/technology/future_tense/2015/
                    05/maritime_cybersecurity_ports_are_unsecured.html
    Shipping containers lie stacked upon a yard at Port Newark 
Container Terminal, the third-largest cargo terminal in New York harbor 
on February 21, 2006 in Newark, New Jersey.
    The real Internet of Things: Shipping containers lie stacked upon a 
yard at Port Newark Container Terminal, the third-largest cargo 
terminal in New York harbor, on Feb. 21, 2006 in Newark, New Jersey.
    It's easy to forget when you're on dry land that 90 percent of the 
world's goods are shipped on boats. While we worry about the 
cybersecurity of power grids and nuclear missile silos, most of us have 
never thought about whether the container ships and ports that bring us 
our clothes, electronics, food--everything--are secured against digital 
threats.
    The April newsletter from maritime cybersecurity consulting firm 
CyberKeel contained a scary stat. According to a spot check the group 
conducted, 37 percent of maritime companies with Windows webservers 
haven't been keeping up with installing security patches from 
Microsoft. As a result, more than one-third of these sites are 
vulnerable to denial-of-service attacks and certain types of remote 
access.
    We already know that companies are slow to protect their networks. 
On the first anniversary of the discovery of Heartbleed last month, one 
study showed that 74 percent of companies on the Forbes Global 2000 
list hadn't comprehensively patched their systems against what was 
possibly the worst vulnerability ever discovered. Maritime companies, 
though, are responsible not just for customer data (which is already 
extremely valuable), but for physical goods. If their systems suffer an 
outage, companies might not know where their ships are, or ports might 
not be able to unload cargo. Doesn't this sound kind of, um, important?
    Over the last few years, groups around the world have been working 
to bring maritime cybersecurity to the fore and begin talking about the 
reality of the threats. When breaches occur, private companies 
currently have virtually no incentive to disclose them, because it will 
only generate bad publicity and breed distrust among customers and 
investors. Incidents have started to come out, and this first step 
toward transparency is promising.
    But those steps are taking a little too long, given how critical 
maritime infrastructure is to everyday functioning in the U.S. and 
abroad. A 2013 report on maritime cybersecurity from Brookings 
explained, ``The potential consequences of even a minimal disruption of 
the flow of goods in U.S. ports would be high . . . [S]helves at 
grocery stores and gas tanks at service stations would run empty.''
    When 90 percent of goods come through maritime shipping, it's not 
that hard to imagine that situation coming to fruition. CyberKeel co-
founder Lars Jensen says that when he and partner Morten Schenk began 
working on maritime cybersecurity consulting in January 2014, the 
prevailing idea among maritime executives was that digital threats 
either didn't exist or were highly theoretical. But, he says, ``The 
thing that started to scare us a little bit was that some of things . . 
. where we said, `This is clearly Hollywood-scenario stuff' had already 
happened.''
    Many of the incidents that have occurred have, as you might expect, 
been kept quiet. But examples are trickling out. For example, at a 
January public meeting to discuss maritime cybersecurity standards, the 
Coast Guard said that in 2014, a U.S. port (it's not clear which one) 
suffered a 7-hour GPS signal disruption that crippled operations. Port 
cranes use GPS data to establish their own positions, the positions of 
the containers they are supposed to move, and the positions to where 
they are supposed to move the containers. The incident the Coast Guard 
described affected 4 cranes. Without GPS, ports have to switch to 
manual operation, which is extremely inefficient and time-consuming.
    Four confused cranes probably don't quite evoke the mayhem that the 
phrase Hollywood-scenario stuff might conjure in your mind. But 
remember that GPS is also crucial for navigation on board ships and for 
tracking the whereabouts of different vessels as they move. Jensen 
describes one possible scenario (which he says he hasn't heard about 
actually happening yet) in which hackers could use GPS jamming as a way 
of holding a ship hostage, asking a small enough ransom that it's 
cheaper for the shipping company to just pay rather than attempt to 
intervene.
    GPS's ubiquity is both its strength and weakness. ``The government 
provides positioning, navigation, and timing through the GPS system,'' 
says Dana Goward, president of the Resilient Navigation and Timing 
Foundation and the former maritime navigation authority for the United 
States. ``It's a free, highly precise signal that engineers have 
incorporated into virtually every technology. But because of that, it's 
become a single point of failure for much of America. And you see 
examples of that in maritime.'' The RNT Foundation advocates for the 
creation of a GPS alternative for emergencies. A 2004 Presidential 
security directive to the Department of Transportation supported the 
initiative, but 11 years later, it still hasn't moved forward.
    Another troubling incident occurred in 2012, when malware took out 
about three-quarters of Saudi Aramco's files across tens of thousands 
of PCs. An image of a burning American flag appeared on every screen. 
The company was able to contain and mitigate the attack relatively 
quickly, but since the oil company distributes its product through 
maritime shipping, it was a wakeup call about how big of an economic 
impact a port-related hack could have.
    In March, Rutgers University held a maritime cybersecurity 
conference co-sponsored by the Command, Control, and Interoperability 
Center for Advanced Data Analysis and the American Military University. 
``The threat is very real,'' said Rear Adm. Marshall Lytle, the 
assistant commandant responsible for U.S. Coast Guard Cyber Command and 
the keynote speaker at the conference. ``These intrusions and attacks 
are taking place every minute and every second of every day.''
    One of the problems with incentivizing both disclosures and 
increased cybersecurity vigilance is the lack of international or even 
domestic port standards from governing bodies. ``Right now there is 
nothing akin to the [International Ship and Port Facility Security 
Code] rules on the cyber side. Nothing whatsoever,'' Jensen said. (The 
ISPS Code is a set of internationally agreed-upon minimum standards for 
physical ship and port security that was developed after 9/11 and 
enacted in 2004.) ``There has to be some sort of consensus coalescing 
in the industry.''
    At the Rutgers conference, Vice Adm. Charles Michel, who is deputy 
commandant for operations, outlined some of the Coast Guard's plans for 
cybersecurity strategy. ``Probably the most important part of the Coast 
Guard's Cyber Strategy is in its key organizing principle: The strategy 
is all about embracing a policy framework that will allow our 
enterprise to begin to tackle these challenges.''
    The issue hasn't exactly reached peak urgency in either the private 
or government sector, but Goward thinks it needs to. ``The sooner the 
better,'' he says. ``Opportunities for mistakes or for bad people to do 
malicious things just continue to grow. The solution can't come soon 
enough.''
    This article is part of Future Tense, a collaboration among Arizona 
State University, New America, and Slate. Future Tense explores the 
ways emerging technologies affect society, policy, and culture. To read 
more, visit the Future Tense blog and the Future Tense home page. You 
can also follow us on Twitter.

    Ms. Jackson Lee. I yield back.
    Mr. Ratcliffe. I thank the gentlelady. The Chair now 
recognizes the gentleman from New York, Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman. The next set of bells 
you are going to see all of us run, so let me speak quickly.
    This Congress passed a remarkable piece of legislation 
recently in cybersecurity and sharing of information. What 
should we be looking to do now in the current year, in 2016? Is 
there anything in particular that we should be doing now? I 
mean, the sharing of information was an issue. We kind of 
resolved part of that. What should we be looking at now as a 
legislative body to help you? Anyone?
    Mr. Porche. I will chime in first.
    Mr. Donovan. Thank you, Doctor.
    Mr. Porche. So, one--you may not like this answer, sir--but 
a little bit of wait. Let's see how well CISA works. You know, 
if the protections in place are valid, if the voluntary nature 
of the bill is still successful, people are chiming in. So 
let's see how successful that is, and if there need to be any 
changes.
    Maybe far into the future, when we can sort-of work out the 
privacy and the civil liberties issues that will likely come 
up, start thinking about, how do we take advantage of this 
information? How do we fuse all the different sources and all 
the contextual information that Ms. Kolde talked about to give 
us a better picture?
    So we have kind of--the CISA 2015 bill got us into the 
information age, despite the fact we have been in the 
information age for a while. What is next is the knowledge age, 
where we can actually pull smarts, pull intelligent fusion, 
pull sense-making out of all that data that we have coming in, 
doing something quite useful with the data that is collected 
that can give us insights into the next attack.
    That is in the future, but we should be thinking about, you 
know, discussing how do we get there?
    Mr. Cilluffo. Mr. Donovan, a couple of quick thoughts. 
One--and I touched on in my prepared remarks and maybe in the 
oral--to examine the active defense set of issues, in terms 
of--there is a lot of policy space behind build higher walls 
and bigger moats and hack back. Between that space, we have got 
to start identifying what some of the actions and steps 
companies can take to more proactively defend their systems. 
They can't afford to wait. If Government is not going to 
respond, someone needs to be able to respond.
    So looking at what those particular rules of the road are, 
taking a close examination of the CFAA, the Computer Fraud and 
Abuse Act, I think needs to be part of that.
    Then the bigger thing--and this may be more of a political 
question--but the reality is, is we have got to articulate a 
deterrence strategy. Right now, our adversaries are operating 
with impunity. Until we can raise the bar, raise the cost for 
their behavior, induce changes in that behavior, we are going 
to be playing defense the whole time. You know what? I don't 
care what--and we have got the best companies in the world 
here--but we are never going to be able to firewall our way out 
of this problem.
    We are going to have to be able to lean forward, and that 
is going to include some policy decisions and integrate that 
into our overall National security planning process.
    Ms. Kolde. From a practice standpoint, again, looking 
specifically to things that we can do to better defend and 
educate, I think the information exchange is a really good step 
forward. I think we should start looking ahead not only to see 
how that is going to play out in practice, but what can we do 
to exchange richer types of information, not just context 
around the indicators themselves, but countermeasures and 
recommendations for how to respond.
    In addition, continuing to look for creative defensive 
measures, technological as well as best practices from 
individuals that we can continue to promulgate out in the 
private and public sector for how networks can better defend 
themselves.
    Mr. Bromwich. I would also jump on that and say that an 
additional--there is more work to be done on the sharing front. 
I think we are doing a good job increasing the sharing that is 
happening in industry. We would like it to be more of a two-way 
street with Government. That would definitely be much more 
helpful.
    Then finally, just more--you know, a lot more education and 
emphasis on the technologies that are out there that are 
available, to encourage their adoption, to build awareness. 
There still just is not nearly enough awareness of the 
technologies that are available and how important the problem 
is.
    Mr. Donovan. Many of you hit on this, and the Chairman and 
many of my colleagues spoke about anticipation of the new type 
of attacks. I kind of equate this--because I am a layman--that 
is this like a disease, we wait for the disease to happen, and 
then we find a cure? Do we wait for attacks--because I suspect 
there are different ways that people attack our systems--and 
then try to figure out how to deal with it? Or do we anticipate 
what is the next method of attack and try to protect ourselves 
from that before it happens?
    Mr. Bromwich. We definitely anticipate. I mean, everything 
that we do is entirely focused on being proactive and ahead of 
the threat. Unfortunately for many individuals and enterprises 
and government, it tends to be very reactive. They don't put 
the protection in place until they are hit.
    Those protections are there. They are designed to be 
proactive. We are constantly watching what is happening in the 
threat landscape to understand where we need to go with the 
technology so that we can get ahead of the attacker.
    Ms. Kolde. I think a lot of the good anticipation comes out 
of the security research community itself. In my career in IT, 
everything is theoretical until it is not. So if you see some 
of the briefings coming out of the private sector or the 
commercial world at conferences like Black Hat, people who are 
researching interesting new techniques, new ways to exploit 
devices, new vulnerabilities that may show up on the horizon, 
those start out as research and they become reality.
    During the past year, we have seen an increasing number of 
attacks against network infrastructure devices, people going 
after routers. Those types of attacks were discussed at Black 
Hat as far back as 2007 as part of the research community where 
we are now seeing them in the wild.
    Mr. Donovan. Thank you all. I yield back, Mr. Chairman.
    Mr. Ratcliffe. I thank the gentleman. I now recognize 
myself for 5 minutes.
    I want to focus on some nation-state concerns, and I am 
going to start with you, Ms. Kolde, because some of the trends 
and developments have started in Russia, and you have talked 
about that in your testimony a little bit. So I really have a 
two-part question.
    First part is: Is it concerning to you that Russia and/or 
Russian actors seem less concerned about being attributed? Then 
the second part of my question is: Based on James Clapper's 
testimony and the establishment of a Russian cyber command, 
what do you think the implications are of this? Is it a game-
changer for Russia? What is FireEye seeing in terms of threat 
reporting in connection with that, if anything?
    Ms. Kolde. I can speak most directly to the first part of 
your question in terms of what we are actually seeing. 
Historically, Russia has operated in a very stealthy manner. 
They were always assumed to be very skilled at what they did, 
but we typically did not see them operating.
    What has changed over the past few years is that we have 
had more visibility into their activity, there has been much 
more public reporting of what they are doing, and despite that 
public reporting, we do not see them changing their tactics. So 
they are being talked about in the press and the media and the 
security community, and they are continuing to operate.
    We have also gotten to see some actors that we suspect very 
strongly are Russian nation-state through some of our incident 
response engagements. They have been extremely aggressive 
within victim environments. Some threat groups when they are 
detected will go silent and they will abandon the network, so 
that they just disappear once you know that they are there.
    We have had engagements where we have been working with 
Russian threat groups where they fight very strongly to stay 
within that network, and they do so with a great deal of skill 
and adaptability that challenged even our responders to keep 
ahead of them.
    So they are very determined and they are very well-
resourced. Again, I don't see that changing operationally, 
unless something specific would cause them to do that.
    In terms of Russia establishing a cyber command, that 
speaks more to policy, which is not my strong suit, but I think 
it just shows that nation-states in general are going to 
continue to see the cyber realm as a realm of engagement, 
similar to any other military, economic, political forum, and 
that is going to continue.
    They have clearly stated their intent to keep playing in 
that world, and they have the skill and resources to be a very 
powerful player.
    Mr. Ratcliffe. Let me--thank you. Let me shift to Iran and 
something, Mr. Cilluffo, based on your research, as we all 
know, the administration announced a nuclear agreement with 
Iran and lifted a number of sanctions.
    Can you give me your thoughts on whether or not Iran may 
move beyond the denial-of-service attacks into more destructive 
malware attacks against our critical infrastructure as a result 
of that Iranian nuclear deal that I referenced in my opening 
and influx of cash?
    Mr. Cilluffo. Well, Mr. Chairman, that is the $64,000 
question, because I do think there are some legitimate concerns 
and considerations in terms of not only do they have additional 
cash to be able to devote to building out their computer 
network attack capabilities, but they had shown that they were 
willing to turn to those tools for quite some time now.
    Historically, Iran was home to one of the most 
sophisticated hacking underground communities. The Ashiyane 
network, and many others have been in business for an awful 
long time. During the so-called green revolution, the way they 
were able to turn to basically shut down access to anyone 
inside Iran to the rest of the world was a clear indicator that 
they have some of those capabilities.
    I think most importantly, though, is that they are willing 
to work with proxies. Clearly, when you look at the energy 
sector in particular, this is an area I think we need to be 
very concerned about.
    Let me just underscore one point, because--and it gets to 
the question on Russia, as well--when we think of cyber, we 
can't treat it in isolation of the overall strategies and 
objectives that these nations may have. So the Russian computer 
network attack and Cyber Command capability is an extension of 
what they have been engaging militarily, diplomatically, and 
through other means for quite some time. To them, it is about 
psychological operation. It is perception management, first and 
foremost. It is computer network attack second.
    Same goes with Iran. The big question is, is whether or not 
cyber is off the table. Is it off the table? I think we need to 
make explicitly clear that it better be.
    Mr. Ratcliffe. My last question--thank you--my last 
question--and I am going to try and give all of you a chance to 
answer it--relates to something I said in my opening about the 
fact that despite the increasing magnitude and number of cyber 
attacks that we are seeing, we are seeing in my opinion little 
response or a clear deterrent strategy from this 
administration.
    Now, if you agree with that opinion--you may or may not--
but if you do, what actions should the United States take, in 
your opinion, to clearly articulate that there are serious 
consequences for those types of actions?
    I will go down the row. Start with you, Mr. Cilluffo.
    Mr. Cilluffo. I have been pretty vocal on this, so I do 
feel that we have not articulated and certainly haven't 
demonstrated a cyber deterrence strategy. While I think there 
has been recognition that we need to be moving in that 
direction--and I think Secretary Carter, Ash Carter at the 
Department of Defense has glommed onto this issue as a 
priority, I think is important. But what is the litmus test?
    Is OPM, the OPM hack, would that have been a litmus test to 
be able to demonstrate a commensurate sort of response? I think 
we have had enough of those litmus tests. So the question is, 
is, if we articulate it, we better be willing to signal and 
respond. So assuming that we do get our arms around this, we 
better have the political wherewithal then to be able to 
respond, and not only through cyber means.
    At the end of the day, cyber is its own domain, but it 
transcends air, land, sea, space. So the question is, is: Where 
do we have the greatest strength? When are we willing to 
utilize these tools?
    Mr. Ratcliffe. I realize, Ms. Kolde and Mr. Bromwich, you 
may or may not want to weigh in on that question, but feel free 
to.
    Ms. Kolde. Yes, I think the one step that is needed is 
obviously a clear articulation of our policy. I won't 
personally speak to what that policy should or should not be, 
but we need to be clear about what that policy is and what we 
may or may not do in response.
    One thing I would like to point out with respect to that is 
regardless of the consequences, if we are going to implement 
some form of consequences, we need to be sure we are 
implementing it against the right nation-state, the right 
criminal group. The challenge there is in attributing an attack 
and in being highly confident, fairly quickly, who is actually 
responsible. That is a big challenge currently.
    Mr. Cilluffo. I agree.
    Mr. Bromwich. Yes, I would agree, the attribution is super 
difficult. I think the only thing that I would say is that more 
discussion and more diplomatic outreach so that we can better 
find and prosecute criminals would be certainly helpful. Today, 
many of these criminals operate outside of the realm of law.
    Mr. Ratcliffe. Dr. Porche, I will give you the last word.
    Mr. Porche. Thank you. I would say--and this has been said 
by panelists here--just remembering that cyber space is one 
domain. The United States military operates in many other 
domains. So we have heard press articles talk about potential 
Iranian hacktivists attacking a U.S. dam. I don't have any 
information that says it is there. But what prevents nation-
states from taking action are the fact that they would have to 
deal with the United States in other domains.
    So it always has to include all domains, not just cyber. 
Our response to a cyber attack may not be in cyber.
    Mr. Ratcliffe. I thank you all for being here today. 
Members of the committee may actually have some additional 
questions for each of you, and I would ask you to respond to 
those in writing. Pursuant to committee rule 7(e), the hearing 
record will be open for 10 days. Without objection, the 
subcommittee stands adjourned. Thank you all.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
